<html>
<title> - H.R. 644, GRAND CANYON WATERSHEDS PROTECTION ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                               H.R. 644, 
                        GRAND CANYON WATERSHEDS 
                        PROTECTION ACT OF 2009 

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, July 21, 2009

                               __________

                           Serial No. 111-27

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-143 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 







                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Neil Abercrombie, Hawaii             Elton Gallegly, California
Grace F. Napolitano, California      John J. Duncan, Jr., Tennessee
Rush D. Holt, New Jersey             Jeff Flake, Arizona
Madeleine Z. Bordallo, Guam          Henry E. Brown, Jr., South 
Dan Boren, Oklahoma                      Carolina
Martin T. Heinrich, New Mexico       Louie Gohmert, Texas
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Robert J. Wittman, Virginia
Donna M. Christensen, Virgin         Paul C. Broun, Georgia
    Islands                          Mike Coffman, Colorado
Diana DeGette, Colorado              Cynthia M. Lummis, Wyoming
Ron Kind, Wisconsin                  Tom McClintock, California
Lois Capps, California               Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio






















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 21, 2009...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     4
    Heinrich, Hon. Martin, a Representative in Congress from the 
      State of New Mexico........................................     5
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     4

Statement of Witnesses:
    Archuleta, Elizabeth C., Supervisor, District 2, Coconino 
      County Board of Supervisors, Flagstaff, Arizona............     8
        Prepared statement of....................................    10
    Brothers, Kay, Deputy General Manager, Engineering and 
      Operations, Southern Nevada Water Authority, Las Vegas, 
      Nevada.....................................................    12
        Prepared statement of....................................    14
    Hedden, Bill, Executive Director, Grand Canyon Trust, 
      Flagstaff, Arizona.........................................    41
        Prepared statement of....................................    42
    Kreamer, David K., Ph.D., Professor of Hydrology, University 
      of Nevada, Las Vegas, Las Vegas, Nevada....................    37
        Prepared statement of....................................    39
    Putesoy, Matthew, Vice Chairman, Havasupai Tribal Council, 
      Supai, Arizona.............................................     6
        Prepared statement of....................................     7
    Singh, Madan M., Ph.D., P.E., Director, Department of Mines 
      and Mineral Resources, State of Arizona, Phoenix, Arizona..    15
        Prepared statement of....................................    16
    Trautwein, Mark, Former Staffer to Congressman Morris Udall, 
      San Anselmo, California....................................    33
        Prepared statement of....................................    34
    Vail, Clarinda T., Properties Manager, Red Feather, Inc., and 
      Tusayan Land and Cattle Company, Tusayan, Arizona..........    46
        Prepared statement of....................................    48
    Wenrich, Dr. Karen, Research Geologist, U.S. Geological 
      Survey, Retired, Golden, Colorado..........................    50
        Prepared statement of....................................    52
                                     



    LEGISLATIVE HEARING ON H.R. 644, TO WITHDRAW THE TUSAYAN RANGER 
 DISTRICT AND FEDERAL LAND MANAGED BY THE BUREAU OF LAND MANAGEMENT IN 
  THE VICINITY OF KANAB CREEK AND IN HOUSE ROCK VALLEY FROM LOCATION, 
   ENTRY, AND PATENT UNDER THE MINING LAWS. (GRAND CANYON WATERSHEDS 
                        PROTECTION ACT OF 2009)

                              ----------                              


                         Tuesday, July 21, 2009

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m. in 
Room 1324, Longworth House Office Building, The Honorable Raul 
M. Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Hastings, Kildee, 
Bishop, Heinrich, Shea-Porter, Coffman, and Lummis.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call the Subcommittee on National 
Parks, Forests and Public Lands to order. This is a legislative 
hearing on H.R. 644, and I'd like to welcome everyone, 
particularly our witnesses--some of whom had to go through 
considerable lengths to be here with us. We are very 
appreciative of your presence and look forward to your 
testimony.
    Like the Statue of Liberty, or the Dome of the U.S. Capitol 
Building just across the street from us, the Grand Canyon is 
one of the most instantly recognizable icons in the world. The 
canyon's walls and jagged formations are shorthand for what 
makes this country exceptional, and what we stand for as a 
people.
    Grand Canyon National Park evokes nostalgia for family 
vacations and park rangers spinning yarns about the canyon lore 
over a campfire. It reminds us that those who came before us 
had the foresight to save this place for us and we, in turn, 
bear the heavy responsibility of preserving this place for 
those who will come after us. Like the Grand Canyon itself, 
this kind of large landscape preservation is uniquely American 
and also worth preserving.
    However, in the past several years, in response to booming 
demands for uranium, thousands of mining claims have popped up 
along the park's edge, threatening the natural and cultural 
resources of the park as well as its watershed. This is deeply 
troubling to the business people who depend on the park for 
their livelihoods, its visitors, the millions who rely on the 
Colorado River for water, those who value the distinctive 
wildlife and plant sustained by the canyon's waters, and the 
native communities who revere the canyon and are still reeling 
from the last uranium mining boom.
    Last year the Natural Resources Committee notified the 
previous administration that the pressure placed on the canyon 
and its resources by exploding demand for uranium constituted 
an emergency. Unfortunately, the previous administration 
refused to act. In contrast, the Obama Administration has 
announced a decision to segregate one million acres of critical 
lands adjacent to the park to conduct a thorough study of the 
appropriateness of allowing mining on these lands.
    This is a vital step. I commend the President and Secretary 
Salazar for their leadership on this issue, and thank them for 
responding to the Committee's notification. Until we have a 
better understanding of the impact the uranium boom will have 
on this American landmark, and what impact it will have on the 
water source of the West, the Colorado River, the 
Administration is right to provide a timeout, to take a hard 
scientific look.
    Now it is time for Congress to do its part by devising 
permanent protection for this national treasure. Extending the 
work begun with the field hearing this Subcommittee conducted 
at Flagstaff, we will continue today to build a record 
documenting what is at stake if uranium mining goes forward on 
these lands. We will hear testimony from witnesses about the 
risks of uranium mining to the Grand Canyon's ecosystem, to the 
Colorado River, and we will hear the sometimes tragic impacts 
of past mining projects such as the Church Rock mining disaster 
whose thirtieth anniversary was silently marked last week with 
a prayer walk, and we will gain insight into the future of the 
canyon envisioned by conservation leaders of the recent past, 
such as Mo Udall and others.
    I would note that my decision not to invite the 
Administration to testify at today's hearing has been 
questioned. For the record, such participation in today's 
meeting would be inappropriate for a variety of reasons.
    These include the pendency of litigation, desire to avoid 
repetition, and the fact that thanks to some partisan 
gamesmanship that is going on, the Interior Department still 
lacks a full leadership staff. I am eager to allow the 
Administration to testify regarding the decision announced 
yesterday, their reactions, and their recommendations regarding 
the legislation before us today, and we will be scheduling 
hearings for that particular purpose in the future.
    I thank all the witnesses for traveling here to D.C. to 
speak out on what I believe to be a very, very important issue. 
I look forward to your comments. With that, let me turn to our 
Ranking Member, Mr. Bishop, for any comments he may have.

  STATEMENT OF THE HONORABLE ROB BISHOP, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Bishop. We meet today in a hearing that may actually be 
a moot issue, which is legal talk for useless. Since Secretary 
Salazar's actions on Monday, it actually takes the place of 
what this legislation was intending to do without ever having 
gone through the process of input hearings or understanding the 
situation.
    Secretary Salazar was given a letter of questions that we 
thought were imperative to be answered before any kind of 
action took place. Not only was the letter ignored, but there 
were no answers to any of those questions given before his 
unilateral action.
    I could do an entire Red Buttons' monologue on the people 
who aren't here that should be here. Yes, the Administration 
should be here to answer why they did what they did, and what 
the rationale is for doing it, but they are not here. The 
Member who represents this area should be here to give her 
input on what she wants to do, but once again she is not here.
    In 1983 and 1984, this issue was solved by bringing the 
special interests together--government leaders and the 
businesses impacted--in something that Mo Udall himself called 
an amazing process that was built from the bottom up in 
Arizona, not imposed on Arizona from Washington--something that 
didn't happen on Monday.
    He went on to say that this was an extraordinary example of 
what cooperation and compromise between business and 
conservation groups can produce. He was accurate when that took 
place. He went on to say that, yes, this decision by an 
informed wilderness and non-wilderness contingent could be 
extended and delayed by years, but it was unlikely to result in 
any new data becoming available.
    Now, they produced a compromise back there. Many Members of 
Congress that are here today were part of that process, and 
they will say the same thing--that the compromise worked back 
then.
    I am assuming we are going to hear others today that will 
tell us that the conditions have changed since 1983 and 1984. 
They are wrong. There are some that will say that water 
conditions have changed. They will be wrong. There will be some 
that will say that energy demands have changed, and those 
people are spot on accurate.
    This bill is having a hearing. If this issue was to go 
through the process in regular order, the way it was intended 
to do, we would have a hearing here and in the Senate. There 
would be votes here and in the Senate. If you went through that 
process, you might be able to replicate what former Congressman 
Udall was able to do in the 1980s. But we didn't do that 
because the Secretary of the Interior unilaterally and 
arbitrarily made a multi-year decision for a moratorium without 
input, without science, and obviously without understanding. He 
also did not take away a takings issue from these people who 
are involved because he didn't necessarily take it. He just put 
on hold any kind of development of new areas until the costs 
can possibly run out the time so that those businesses will 
have no opportunity to become involved again.
    It is interesting to note that the State Legislature of 
Arizona passed a resolution that condemned the action the 
Secretary of the Interior took on Monday, condemning this bill. 
The county where this will be residence passed a resolution 
condemning this bill, and this particular action of this 
Interior Secretary.
    Now, when Aristotle started writing about governments, he 
had this penchant for always trying to come up with lists and 
giving names to those lists. He said the only difference 
between good and bad government was the attitude of the person 
involved, and then he divided them into governments of the one, 
the few, and the many, and to each of those he gave a name. He 
said the worst form of government, the government of the many 
in which there was a bad attitude, was called a democracy 
because in a democracy property can be taken by a vote of the 
many.
    This did not happen. This was property that was taken by 
the decision of one. Aristotle had a name for that as well. He 
decided that kind of government was called a tyranny. Secretary 
Salazar participated on Monday in making that kind of 
unilateral decision. It was wrong. If this bill should go 
forward, it needs to have hearing, it needs to have input, not 
what Secretary Salazar did.
    I yield back.
    Mr. Grijalva. I now turn to my colleague, Mr. Kildee. Do 
you have any opening comments?

STATEMENT OF THE HONORABLE DALE E. KILDEE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Kildee. Just briefly. We are today discussing one of 
America's and one of the world's greatest treasures, and I want 
to make sure that we do keep that in mind, but also wish to 
keep in mind the lives of people whose ancestors admired the 
hand of God in the Grand Canyon. To that, we should add that we 
want to make sure that we do no harm.
    And Mr. Chairman, I yield back.
    Mr. Grijalva. Thank you.
    The Ranking Member of the full Committee, Mr. Hastings, any 
comments?

 STATEMENT OF THE HONORABLE DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman, and thank you for 
your courtesy in allowing me to be here today.
    We are here today to discuss legislation that would 
permanently remove a million acres of land in Arizona from the 
development of uranium resources. Now, I do strongly oppose 
this bill, but I want to focus this morning on the troubling 
and unacceptable actions taken by the Obama Administration on 
this issue, that which Mr. Bishop alluded to.
    Yesterday, Secretary Salazar announced a two-year timeout 
on new uranium mining on this land in Arizona. This decision, 
which would lock up 40 percent of our country's uranium supply, 
will cost American jobs at a time when the employment rate is 
9.5 percent, over a quarter-century high, and make the United 
States more dependent on foreign countries for our energy. In 
the end, this decision will move our economy backward, not 
forward.
    Once again, this is another example of the Obama 
Administration saying no to American energy and no to American 
jobs. In just six short months, this Administration has blocked 
new offshore drilling, blocked oil and natural gas leases in 
Utah, and is now blocking uranium mining in Arizona. It is 
ironic that the same Administration that is pushing through a 
national energy tax in order to supposedly reduce our country's 
carbon footprint is now blocking mining of uranium that is used 
to generate nuclear power.
    Nuclear is a clean, noncarbon-emitting energy source. If 
the President is serious about reducing carbon emissions, he 
would support increased American uranium development and 
embrace nuclear power to help us meet our growing energy needs.
    In this Congress, we really need to enact an energy plan 
that responsibly uses our natural resources and makes our 
environment cleaner. This includes, of course, renewable 
carbon-free energy sources such as nuclear, wind, solar, and 
hydropower, but also it needs to include producing more 
American-made oil and natural gas. Unfortunately, this 
Administration has chosen to adopt a high-priced gourmet plan 
that only uses certain types of American energy and focuses 
almost solely on green jobs.
    Now, I can say that we all support green jobs. However, the 
14.7 million Americans who are unemployed aren't just looking 
for green jobs. We need green jobs, nuclear jobs, drilling 
jobs, oil and gas jobs, manufacturing jobs, and thousands of 
jobs that depend on uranium development.
    But what is even more troubling about yesterday's 
announcement is that the Administration made this unilateral 
decision, as Mr. Bishop alluded to, without consulting with 
Congress and without providing answers to detailed questions 
asked by House Republicans last March. It appears we will have 
to keep waiting for answers to these questions because there is 
not one official from the Obama Administration here today to 
testify. It is outrageous that while the Administration is 
singlehandedly making decision that will cost jobs and block 
energy development they are not even here to explain what their 
position is on this particular bill. For an Administration that 
promised to be open and transparent, I am really troubled by 
their actions yesterday, and I just hope that this is not a 
prelude to their arbitrary and heavy-handed approach to 
crafting our national energy policy.
    With that, Mr. Chairman, thank you, and I yield back.
    Mr. Grijalva. Thank you, sir. Mr. Heinrich, any comments?

STATEMENT OF THE HONORABLE MARTIN HEINRICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Heinrich. Thank you, Mr. Chairman. I will keep my 
comments short.
    I want to welcome our panelists this morning, and I would 
note that a great much ado has been made about process this 
morning already, and I will simply note that it was the 
previous administration's efforts to avoid the NEPA process 
that lands us in this mess in the first place, and that we 
could have had a lot more transparency for a great deal of the 
last few years.
    And I actually have a slightly more pro-nuclear approach 
than many of my Democratic colleagues. I have worked in a 
nuclear reactor. I think nuclear power is an important part of 
our energy mix moving forward, but I also live in a state where 
the costs of uranium mining have been an enormous burden to 
many of our poor communities for a very long time.
    Like Arizona, New Mexico has been through this uranium boom 
and bust before, and we have not cleaned up the legacy of our 
previous economic activity. We still have enormous burdens on 
local communities in terms of water contamination, in terms of 
areas that are simply fenced off where the public cannot go, in 
terms of needs for reclamation, and I think it is important to 
make sure that we don't make the same mistakes twice; that as 
we move forward, we pick and choose the places where it is most 
appropriate to do development, and make sure that that 
development is in keeping with not only protecting our 
environment but also protecting the religious and cultural 
sites that our tribes and pueblos feel so strongly about.
    So, I think this is a perfectly appropriate hearing. I look 
forward to hearing from our guests today, and I would thank the 
Chairman for bringing this issue to the fore.
    Mr. Grijalva. Thank you, and let me invite the first panel 
up, if I may.
    Let me thank the panel, and welcome you here. Your full 
comments and any other extraneous information that you would 
want to leave with us will be made part of the official record 
of the hearing. I would hope that we could limit our comments 
today to five minutes. That will give the Members here ample 
time to have time for questions.
    With that let me begin with Mr. Matthew Putesoy, Vice 
Chairman of the Havasupai Tribe, and Mr. Vice Chairman, if you 
would also introduce the council member that is with you here 
today, that would be appropriate. Welcome, sir, and thank you 
for being here. We look forward to your comments.

 STATEMENT OF MATTHEW PUTESOY, VICE CHAIRMAN, HAVASUPAI TRIBE, 
                         SUPAI, ARIZONA

    Mr. Putesoy. OK, thank you, Chairman and committee members. 
I am here today with Diana Sue Uqualla. She is a Havasupai 
Tribe council member.
    [Native greeting.] Hello, my name is Matthew Putesoy. I am 
the elected Vice Chairman of the Havasupai Tribe. I live in the 
Grand Canyon.
    H.R. 644 will protect the Grand Canyon. It will also 
protect my tribe's aboriginal home inside the Grand Canyon. The 
Havasupai People have lived in and around the Grand Canyon 
since before there was a United States of America. We have 
lived in the canyon at least 500 years before Christopher 
Columbus was born.
    I have listened to a lot of people talking about the Grand 
Canyon. Well, you are looking at it, I am the Grand Canyon. I 
am the Grand Canyon.
    The Havasupai are known as the ``Guardians of the Grand 
Canyon'' and Havasu Baa'ja--the People of the Blue-Green Water. 
The water in Havasu Creek forms beautiful waterfalls in our 
village. This water springs out of the canyon floor above our 
village. The source of our wager is called the Redwall-Muav 
aquifer. The area of this aquifer is very large. It extends 
underneath about 5,000 square miles of the Coconino Plateau on 
the South Rim. About 98 percent of the water in this aquifer 
comes out at Havasu Springs. The rest discharges at the springs 
at Indian Gardens, Hermit Springs, and other springs in the 
Grand Canyon.
    Hundreds of existing mining claims on the land identified 
in H.R. 644 are directly on top of this aquifer. If uranium or 
mining poisons our water, our thousand-year life in the Grand 
Canyon will end. As a tribe, we will die. We cannot relocate to 
Phoenix or someplace else and still survive as the Havasupai 
Tribe. We are the Grand Canyon.
    Mining not only threatens our water and life, but many of 
the mining claims, including the Canyon Uranium Mine set to go 
into operation, are located right next to traditional Havasupai 
religious areas in the forest that my people have used for 
centuries. Would you want an operating uranium mine next to 
your church or synagogue?
    In 1975, Congress, led by Senator Barry Goldwater, returned 
to us some--but not all--of our aboriginal canyon lands. In the 
statute that did this, Congress said that our land and all of 
the Grand Canyon was `a natural feature of national and 
international significance.` In returning our land to use, 
Congress said it recognized the need for `further 
protection...of the Grand Canyon in accordance with its true 
significance.'' My tribe listened to these words and took 
action to further protect our canyon home. My people adopted a 
provision in our constitution that bars uranium mining on our 
reservation.
    Well, the Grand Canyon has not changed much in the 34 years 
since Congress expressly recognized a need to further protect 
it. But something has changed. Over 10,000 new claims have been 
filed on the land identified in H.R. 644.
    H.R. 644 would prohibit the filing of any more mining 
claims on the lands identified in the bill. Section 2[b] would 
protect valid existing rights. My tribe opposes the existing 
10,000 mining claims. We do not need more. The mining industry 
does not need more. The Grand Canyon cannot survive more.
    I urge you to do the right thing. Protect the Grand Canyon 
and the Havasupai people--for those living now and those yet to 
be born.
    Please adopt the Grand Canyon Watersheds Protection Act of 
2009.
    Thank you. Council Member Diana Sue Uqualla, behind me, and 
I would be happy to answer any questions you may have.
    [The prepared statement of Mr. Putesoy follows:]

             Statement of Matthew Putesoy, Vice Chairman, 
                    Havasupai Tribe, Supai, Arizona

    [Brief greeting in the Havasupai language.]
    Hello. My name is Matthew Putesoy. I am the elected Vice Chairman 
of the Havasupai Tribe. I live in the Grand Canyon.
    H.R. 644 will protect the Grand Canyon. It will also protect my 
Tribe's aboriginal home inside the Grand Canyon. The Havasupai People 
have lived in and around the Grand Canyon since before there was a 
United States of America. We have lived in the Canyon at least 500 
years before Christopher Columbus was born!
    I have listened to a lot of people talking about the Grand Canyon. 
Well, you are looking at it. I am the Grand Canyon.
    The Havasupai are known as the ``Guardians of the Grand Canyon'' 
and Havasu Baa'ja--the People of the Blue-Green Water. The water in 
Havasu Creek forms beautiful waterfalls in our Village. This water 
springs out of the Canyon floor above our Village. The source of our 
water is called the Redwall-Muav aquifer. The area of this aquifer is 
very large. It extends underneath about 5,000 square miles of the 
Coconino Plateau on the South Rim. About 98% of the water in this 
aquifer comes out at Havasu Springs. The rest discharges at the springs 
at Indian Gardens, Hermit Springs, and other springs in the Grand 
Canyon.
    Hundreds of existing mining claims on the land identified in H.R. 
644 are directly on top of this aquifer. If uranium or mining poisons 
our water, our thousand-year life in the Grand Canyon will end. As a 
tribe, we will die. We cannot relocate to Phoenix or someplace else and 
still survive as the Havasupai Tribe. We are the Grand Canyon.
    Mining not only threatens our water and life, but many of the 
mining claims, including the Canyon Uranium Mine set to go into 
operation, are located right next to traditional Havasupai religious 
areas in the Forest that my People have used for centuries. Would you 
want an operating uranium mine next to your church or synagogue?
    In 1975, Congress, led by Senator Barry Goldwater, returned to us 
some--but not all--of our aboriginal Canyon lands. In the statute that 
did this, Congress said that our land and all of the Grand Canyon was 
``a natural feature of national and international significance.'' In 
returning our land to us, Congress said it recognized the need for 
``further protection...of the Grand Canyon in accordance with its true 
significance.'' My Tribe listened to these words and took action to 
further protect our Canyon home. My People adopted a provision in our 
Constitution that bars uranium mining on our Reservation.
    Well, the Grand Canyon has not changed much in the 34 years since 
Congress expressly recognized a need to further protect it. But 
something has changed. Over 10,000 new mining claims have been filed on 
the land identified in H.R. 644.
    H.R. 644 would prohibit the filing of any more mining claims on the 
lands identified in the bill. Section 2(b) would protect valid existing 
rights.
    My Tribe opposes the existing 10,000 mining claims. We do not need 
more. The mining industry does not need more. The Grand Canyon cannot 
survive more.
    I urge you to do the right thing. Protect the Grand Canyon and the 
Havasupai People--for those living now, and those yet to be born.
    Please adopt the Grand Canyon Watersheds Protection Act of 2009
    Thank you. Council Member Diana Sue Uqualla, behind me, and I would 
be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Vice Chairman.
    Let me now ask Ms. Elizabeth Archuleta, Supervisor, 
District 2, Coconino County Board of Supervisors. Madam 
Supervisor, comments?

 STATEMENT OF ELIZABETH C. ARCHULETA, SUPERVISOR, DISTRICT 2, 
    COCONINO COUNTY BOARD OF SUPERVISORS, FLAGSTAFF, ARIZONA

    Ms. Archuleta. Thank you very much, Chairman Grijalva, 
Members of the Subcommittee on National Parks, Forests and 
Public Lands. I appreciate the opportunity to provide testimony 
today. I am here representing the Coconino County Board of 
Supervisors. We certainly appreciate the efforts of the 
Chairman and the committee to hold this important hearing, to 
discuss the community impacts of proposed uranium mining near 
the Grand Canyon National Park.
    As you know, Coconino County is the second largest county 
in the nation, encompassing more than 18,000 square miles. It 
includes many national treasurers, including Oak Creek Canyon, 
Sunset Crater National Monument, Walnut Canyon National 
Monument, and most notably, Grand Canyon National Park. Our 
county includes 13 percent private land, with the remaining 
land owned by the Federal government, five Native American 
tribes, and the State of Arizona.
    In Coconino County, we pride ourselves on the relationships 
that we have with Native American tribes, state and Federal 
land managers as well as our neighboring counties and 
communities in Arizona and Utah. However, we are very concerned 
when decisions are made by agencies that may affect the health 
and safety of our residents in Coconino County.
    Once such decision was made on January 10, 2008, by the 
Tusayan Ranger District of thee Kaibab National Forest. The 
Tusayan Ranger District issued a decision that VANE Minerals, 
LLC, could begin joint exploration holes for uranium at seven 
project sites within the district. According to the Kaibab 
National Forest the primary purpose of the project is for VANE 
Minerals to locate and assess quantity and commercial resource 
potential for uranium ore deposits within the Tusayan Ranger 
District. The location of the drill exploration site is less 
than two miles from Grand Canyon National Park within Coconino 
County.
    According to the Kaibab National Forest, because the 1872 
Mining Law authorizes the taking of valuable mineral 
commodities from public domain lands, a no action alternative 
was not an option for the Kaibab National Forest. Therefore, 
the decision by the Kaibab National Forest is based on whether 
mitigation measures are sufficient to reduce or eliminate 
environmental impacts at the surface, but not on whether or not 
to allow the exploration activity.
    It is important to point out that 2,000 mining claims have 
been filed within the Tusayan Ranger District of the Kaibab 
National Forest since 2003. The majority of these claims are 
within 10 miles of Grand Canyon National Park.
    In response to this decision, on February 5, 2008, the 
Coconino County Board of Supervisors adopted a resolution 
opposing uranium development in the vicinity of the portions of 
the Grand Canyon National Park and its watershed within 
Coconino County, and that decision has not been rescinded. That 
resolution still stands.
    Coconino County has witnessed serious health and 
environmental impacts associated with the long-term impacts of 
uranium mining. Uranium development operations in Coconino 
County have caused considerable contamination and environmental 
degradation, particularly on the Navajo and Hopi Nations. On 
the Navajo nation alone five mill sites and over 500 mines have 
been abandoned since the 1940s and 1950s, and to this date 
clean up of these sites have not occurred.
    Coconino County has witnessed the contamination of creeks 
and aquifers providing public drinking water. In the Grand 
Canyon National Park, the Orphan Mine operated within the park 
in 1969, the remnants from the Orphan Mine are approximately 
two miles northwest of the South Rim Village between Maricopa 
Point and the Powell Memorial. The presence of radioactive 
materials from the mine is being blamed for the contamination 
of Horn Creek in the Grand Canyon National Park.
    In addition, in Tuba City, decommissioned uranium mining 
sites were capped with clay and rock causing groundwater 
contamination. The decommissioned mine and sites continue to 
put the resident of Tuba City as well as the surrounding areas 
at risk of contaminated drinking water.
    Grand Canyon National Park is a national and international 
treasure attracting almost 1.5 million visitors to northern 
Arizona each year. The park encompasses more than 1.2 million 
acres, and contains extensive geological, paleontological, 
archeological and biological resources.
    With the millions of visitors to the Grand Canyon National 
Park comes significant tourism revenue to our communities in 
northern Arizona. It is estimated that the total annual impact 
of all Grand Canyon National Park visitors to the north and 
south rim is approximately $687 million.
    The economy in Coconino County is primarily based on 
revenue generated by tourism. Therefore, the potential negative 
impact to tourism in northern Arizona from uranium mining near 
the Grand Canyon Park cannot be overstated. In 2009, Coconino 
County alone generated almost $12.5 million in sales tax 
revenue, a large portion of which is generated by tourism-
related industries. You combine this with the state sales taxes 
collected and distributed to counties and municipalities, the 
sales tax revenue accounts for 58 percent of Coconino County's 
general fund revenues.
    While Coconino County continues to support regional 
economic development opportunities, we are also cognizant of 
potential impacts from industries. Uranium mining in certain 
portions of the county has always remained a concern in 
Coconino County.
    As outlined in our resolution passed on February 5, 2008, 
the Coconino County supports the permanent withdrawal of lands 
in Coconino County from uranium development on the Tusayan 
Ranger District and House Rock Valley. While we certainly 
support the recent action by the United States Secretary of the 
Interior, Ken Salazar, to temporarily bar the filing of new 
mining claims in the vicinity of the Grand Canyon Park, we 
support the permanent withdrawal of the lands within Coconino 
County.
    The past mistakes of the uranium mining industry will have 
ever-lasting effects on areas within Coconino County. While 
Coconino County, and particularly the Navajo and Hopi Tribes, 
have faced significant financial costs, we cannot place a long-
term health effects left by uranium mining. We cannot place a 
cost on that at all.
    Thank you, Mr. Chairman, for the opportunity to testify 
this morning. The Coconino County Board of Supervisors wants to 
extend our gratitude to you and we want you to know very 
clearly that Coconino County is certainly concerned about the 
community impacts of proposed uranium development near Grand 
Canyon National Park.
    [The prepared statement of Ms. Archuleta follows:]

                Statement of Supervisor Liz Archuleta, 
                  Coconino County Board of Supervisors

    Chairman Grijalva and members of the Subcommittee on National 
Parks, Forest and Public Lands, I appreciate the opportunity to provide 
testimony on H.R. 644, the Grand Canyon Watersheds Protection Act of 
2009. My name is Liz Archuleta and I represent District Two on the 
Coconino County Board of Supervisors. I am here today representing the 
Coconino County Board of Supervisors.
    The Coconino County Board of Supervisors appreciates the efforts of 
Chairman Grijalva and the Committee to hold this important hearing to 
discuss the community impacts of proposed uranium mining near Grand 
Canyon National Park.
    Coconino County is the second largest county in the nation 
encompassing more than 18,000 square miles. In Coconino County, we are 
proud to be the home to national treasures, including Oak Creek Canyon, 
Sunset Crater National Monument, Walnut Canyon National Monument and, 
most notably, Grand Canyon National Park. Our county includes thirteen 
percent private land with the remaining land owned by the Federal 
government, five Native American Tribes and the State of Arizona.
    In Coconino County, we pride ourselves on the relationships we have 
fostered with Native American Tribes, state and federal land managers, 
as well as our neighboring counties and communities in Arizona and 
Utah. However, we are certainly concerned when decisions are made by 
agencies that may affect the health and safety of our residents in 
Coconino County.
FOREST SERVICE DECISION
    One such decision was made on January 10, 2008, by the Tusayan 
Ranger District of the Kaibab National Forest. The Tusayan Ranger 
District issued a decision to allow VANE Minerals, LLC, to begin 
drilling exploration holes for uranium at seven project sites on the 
Tusayan Ranger District. According to the Kaibab National Forest, the 
primary purpose of the project is for VANE Minerals, LLC, to locate and 
assess the quantity and commercial resource potential for uranium ore 
deposits within the Tusayan Ranger District. The location of the drill 
exploration sites is less than two miles from the Grand Canyon National 
Park within Coconino County.
    According to the Kaibab National Forest, because the 1872 Mining 
Law authorizes the taking of valuable mineral commodities from Public 
Domain Lands, a ``no action'' alternative was not an option for the 
Kaibab National Forest. Therefore, the decision by the Kaibab National 
Forest is based on whether mitigation measures are sufficient to reduce 
or eliminate environmental impacts at the surface, but not on whether 
or not to allow the exploration activity.
    It's important to point out that more than 2,000 mining claims have 
been filed with the Tusayan Ranger District of the Kaibab National 
Forest since 2003. The majority of these claims are within ten miles of 
Grand Canyon National Park.
BOARD RESOLUTION
    In reaction to concerns raised by the VANE Minerals, LLC, decision, 
on February 5, 2008, the Coconino County Board of Supervisors adopted a 
resolution opposing uranium development in the vicinity of the portions 
of the Grand Canyon National Park and its watershed within Coconino 
County in the Tusayan Ranger District and additional claims filed on 
lands managed by the Bureau of Land Management in House Rock Valley.
    Coconino County has witnessed serious health and environmental 
effects associated with the long-term effects of uranium mining. 
Uranium development operations in Coconino County have caused 
considerable contamination and environmental degradation, particularly 
on the Navajo and Hopi Nations in northern Arizona.
    Coconino County has witnessed the contamination of creeks and 
aquifers providing public drinking water. In the Grand Canyon National 
Park, the Orphan Mine operated within the park until 1969. The remnants 
from the Orphan Mine are approximately two miles northwest of the South 
Rim Village, between Maricopa Point and the Powell Memorial. The 
presence of radioactive materials from the mine is being blamed for the 
contamination of Horn Creek in the Grand Canyon National Park.
    In addition, in Tuba City, decommissioned uranium mining sites were 
capped with clay and rock causing groundwater contamination. The 
decommissioned mine and sites continues to put residents of Tuba City 
as well as the surrounding areas at risk of contaminated drinking 
water. For example the Tuba City landfill, which received refuse from 
the
TOURISM/ECONOMIC DEVELOPMENT
    Grand Canyon National Park is a national and international treasure 
attracting almost 1.5 million visitors to northern Arizona each year. 
The Grand Canyon National Park encompasses more than 1.2 million acres 
and contains extensive geological, paleontological, archeological and 
biological resources.
    With the millions of visitors to Grand Canyon National Park comes 
significant tourism revenue for communities and counties in northern 
Arizona. It's estimated that the total annual economic impact of all 
Grand Canyon National Park visitors to the north and south rim is 
approximately $687 million.
    The economy in Coconino County is primarily based on revenue 
generated by tourism. Therefore, the potential negative impact to 
tourism in northern Arizona from uranium mining near Grand Canyon 
National Park cannot be overstated. In Fiscal Year 2009, Coconino 
County alone generated almost $12.5 million in sales tax revenue, a 
large portion of which is generated by tourism and related industries. 
Couple this with state sales tax collected by the state and distributed 
to counties and municipalities, sales tax revenue accounts for fifty 
eight percent of Coconino County's general fund revenues.
    While Coconino County continues to support regional economic 
development opportunities, we are also cognizant of potential impacts 
from industries. Uranium mining in certain portions of the County has 
always remained a concern in Coconino County. In the Coconino County 
Comprehensive Plan, adopted by Coconino County on September 23, 2003, 
planners discouraged industrial uses, including mining, along scenic 
corridors or at community gateways, including the Grand Canyon National 
Park.
CONCLUSION
    As outlined in our resolution passed on February 5, 2008, the 
Coconino County Board of Supervisors supports the permanent withdrawal 
of lands in Coconino County from uranium development on the Tusayan 
Ranger District and House Rock Valley. While we certainly support the 
recent action by the United States Secretary of the Interior Ken 
Salazar to temporarily bar the filing of new mining claims in the 
vicinity of the Grand Canyon National Park, we support the permanent 
withdrawal of the lands within Coconino County.
    The past mistakes of the uranium mining industry will have ever-
lasting effects on areas within Coconino County. While Coconino County, 
and particularly the Navajo and Hopi Tribes, have faced significant 
financial costs associated with past uranium development, we cannot 
place a cost on the long-term health effects left by uranium mining
    Thank you for the opportunity to address the House Natural 
Resources Subcommittee on National Parks, Forests and Public Land in 
support of H.R. 644, the Grand Canyon Watersheds Protection Act of 
2009. The Coconino County Board of Supervisors would like to extend our 
gratitude to Chairman Grijalva and the Committee for their continued 
efforts to address this important issue. Coconino County is certainly 
concerned about the community impacts of proposed uranium development 
near Grand Canyon National Park.
                                 ______
                                 
    Mr. Grijalva. Thank you, Madam Supervisor.
    Let me now ask Ms. Kay Brothers, Deputy General Manager, 
Engineering and Operations, Southern Nevada Water Authority, 
welcome and thank you for being here. I look forward to your 
comments.

STATEMENT OF KAY BROTHERS, DEPUTY GENERAL MANAGER, ENGINEERING 
  AND OPERATIONS, SOUTHERN NEVADA WATER AUTHORITY, LAS VEGAS, 
                             NEVADA

    Ms. Brothers. Thank you. Good morning, Mr. Chairman and 
Subcommittee Members.
    My name is Kay Brothers. I am Deputy General Manager of 
Engineering and Operations from the Southern Nevada Water 
Authority, a cooperative seven-member agency formed in 1991 to 
address southern Nevada water resource issues on a regional 
basis.
    Among other things, the authority is responsible for the 
operation and management of water treatment and delivery 
facilities which supply Nevada's Colorado River allocation to 
nearly two million residents in the Las Vegas Valley as well as 
approximately 250,000 visitors.
    I appreciate the invitation to testify in support of H.R. 
644, which has one of its major goals, the protection of water 
quality in the Colorado River. This Southern Nevada Water 
Authority withdraws its Colorado River allocation from Lake 
Mead. The Colorado River represents approximately 90 percent of 
southern Nevada's available water supply source. Drought 
conditions in the Colorado River Basin have had a significant 
effect on water management activities both in terms of supply 
access and water quality. As of July 2009, Lake Mead's storage 
volume is down to 43 percent of capacity and will reach a low 
elevation of 1092 this year. This poses a number of challenges 
for water managers that depend on Colorado River flows.
    The Authority has two intakes in Lake Mead: the upper one 
located at elevation 1050 and the other at elevation 1000. If 
the drought continues, our upper intake could very well be dry 
by as early as 2012 reducing our pumping capacity. Also, among 
these challenges is our ability to continue to provide a high-
quality, safe drinking water supply that meets applicable state 
and Federal drinking water quality standards. As the lake 
declines the upper warmer water is captured by our intakes, 
resulting in water treatment challenges. The Authority has 
begun construction of a third intake in Lake Mead which will 
draw water from elevation 860. This intake is scheduled to be 
completed by 2013.
    In addition, drought-induced reductions to Colorado River 
inflows, combined with substantially reduced Lake Mead storage, 
have increased the concentration of undesirable water quality 
constituents. This could require higher levels of treatment and 
implementation of enhanced operational management strategies.
    In regards to H.R. 644, the subject of uranium mining and 
disposal has been an issue of consternation for many years. A 
decades-old tailing pile located near the Colorado River in 
southern Utah has contributed contaminations to the river 
system. We are pleased with efforts underway to address this 
issue, and appreciate the concern and care the Federal 
government has demonstrated in its investments toward 
remediation.
    Recently, there have been concerns raised about the 
increase in uranium mining claims filed in the Colorado River 
Basin, including areas around the Grand Canyon National Park. 
This increase in mining claims raises fear of potential 
contamination of the Colorado River if, and when, active mining 
begins. Authorizations for exploration of mining should be 
contingent on a comprehensive environmental impact analysis 
that includes broad stakeholder review, including that of 
downstream users of Colorado River Water.
    The Southern Nevada Water Authority supports the 
development of sufficient controls and oversight measures to 
ensure that any future mining activities in the Colorado River 
basin do not impact downstream water quality or otherwise 
impede our ability to deliver a safe and reliable water supply 
for the communities that we serve.
    To this end, we ask for your continued support to ensure 
that any future mining activities, if authorized, are 
appropriately managed and monitored to protect Colorado River 
Basin flows. The importance of maintaining water quality in the 
Colorado River Basin is a critical priority for southern Nevada 
and other downstream users.
    This concludes my testimony. Thank you for the opportunity 
to address you.
    [The prepared statement of Ms. Brothers follows:]

      Statement of Kay Brothers, Southern Nevada Water Authority, 
          Deputy General Manager of Engineering and Operations

    Good morning Mr. Chairman and Subcommittee members. My name is Kay 
Brothers. I am the Deputy General Manager of Engineering and Operations 
for the Southern Nevada Water Authority, a cooperative seven-member 
agency formed in 1991 to address southern Nevada water resource issues 
on a regional basis. Among other things, the Authority is responsible 
for the operations and management of water treatment and delivery 
facilities which supply Nevada's Colorado River allocation to nearly 
two million residents in the Las Vegas Valley, as well as approximately 
250,000 daily visitors. I appreciate the invitation to testify in 
support of H.R. 644 which has as its goal the protection of water 
quality in the Colorado River.
    The Southern Nevada Water Authority withdraws its Colorado River 
allocation from Lake Mead. The Colorado River represents approximately 
90 percent of southern Nevada's available water supply source. Drought 
conditions in the Colorado River Basin have had a significant effect on 
water management activities, both in terms of supply access and water 
quality. As of July 2009, Lake Mead's storage volume is at 43 percent 
of capacity and will reach a low elevation of 1092 this year. This 
poses a number of challenges for water managers that depend on Colorado 
River flows.
    The Authority has two intakes in Lake Mead; the upper one located 
at elevation 1050 and the other at elevation 1000. If the drought 
continues, our upper intake could be dry by as early as 2012 reducing 
our pumping capacity. Also, among these challenges is our ability to 
continue to provide a high-quality, safe drinking water supply that 
meets applicable state and federal drinking water quality standards. As 
the lake declines the upper, warmer water is captured by our intakes, 
resulting in water treatment challenges. The Authority has begun 
construction of a third intake in Lake Mead which will draw water from 
elevation 860. This intake is scheduled to be completed by 2013.
    In addition, drought-induced reductions to Colorado River inflows, 
combined with substantially reduced Lake Mead storage, have increased 
the concentration of undesirable water quality constituents. This could 
require higher levels of treatment and implementation of enhanced 
operational management strategies.
    With regards to H.R. 644, the subject of uranium mining and 
disposal has been an issue of consternation for many years. A decades-
old tailing site in southern Utah has contributed contaminants into the 
Colorado River system. We are pleased with efforts underway to address 
this issue, and appreciate the concern and care the federal government 
has demonstrated in its investments toward remediation.
    Recently, there have been concerns raised about the increase in 
uranium mining claims filed in the Colorado River Basin, including 
areas around the Grand Canyon National Park. This increase in mining 
claims raises fear of potential contamination of the Colorado River if, 
and when, active mining begins. We know that the Department of the 
Interior and its agencies, including the Bureau of Land Management, 
will do all that is possible under applicable laws and regulations to 
address these concerns and protect the environment. We are also aware 
that the Environmental Protection Agency has considerable authority to 
regulate the discharge of any potential pollutants to the Colorado 
River. We will support the Department of the Interior in any way we can 
as you carefully evaluate the implications on Colorado River water 
quality prior to any federal authorization of mineral exploration or 
mining in areas near the Colorado River or its tributaries. Future 
authorizations for exploration or mining should be contingent on a 
comprehensive environmental impact analysis that includes broad 
stakeholder review, including that of downstream users of Colorado 
River Water. The Southern Nevada Water Authority supports the 
development of sufficient controls and oversight measures to ensure 
that any future mining activities in the Colorado River Basin do not 
impact downstream water quality or otherwise impede our ability to 
deliver a safe and reliable water supply for the communities that we 
serve.
    To this end, we ask for your continued support to ensure that any 
future mining activities, if authorized, are appropriately managed and 
monitored to protect Colorado River Basin flows. This includes 
developing a more comprehensive understanding of potential water 
quality impacts associated with uranium mining activities, the 
development of management strategies, and policies to avoid impacts.
    The importance of maintaining water quality in the Colorado River 
Basin, particularly Lake Mead, is a critical priority for southern 
Nevada and other downstream users. This concludes my testimony. Thank 
you for the opportunity to address you. I am happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Let me now ask Dr. Madan Singh, Director, Department of 
Mines and Mineral Resources from the State of Arizona, welcome, 
Doctor, and look forward to your comments.

STATEMENT OF MADAN M. SINGH, PH.D., P.E., DIRECTOR, DEPARTMENT 
  ON MINES AND MINERAL RESOURCES, STATE OF ARIZONA, PHOENIX, 
                            ARIZONA

    Dr. Singh. Thank you very much, Mr. Chairman, Members of 
the Subcommittee, Ladies and Gentlemen, good morning.
    My name is Madan Singh. I am the Director of the Department 
of Mines and Mineral Resources for the State of Arizona. At the 
very outset I might state that this testimony is against the 
withdrawal of uranium-bearing lands from around the Grand 
Canyon National Forest.
    The Arizona Wilderness Act of 1984 was negotiated between 
various environmental groups, industry, and other stakeholders. 
It was agreed at that time that the areas designated in the 
bill as wilderness would be removed from mineral entry, but the 
remaining areas would remain open to multiple use.
    Currently, over 55.6 percent of the total area of the State 
of Arizona is already withdrawn from mineral exploration and 
mining, and this does not include the one million acres that 
was segregated that we referred to earlier this morning. A 
continual withdrawal of land from mining deprives the state of 
revenues and the country of critical raw materials.
    A few groups claim that the groundwater of the Redwall-Muav 
aquifer and the Colorado River would be contaminated by uranium 
mining. Based on U.S. Geological Survey data, the Colorado 
River enters and leaves the mineralized breccia zone and the 
uranium concentration of between four and five parts per 
billion. The EPA safe drinking water concentration is markedly 
higher, at 30 parts per billion.
    Researchers at the University of Arizona and New Mexico, 
with funding from the Arizona Water Sustainability Program and 
agricultural interests, have used isotopic methodologies along 
with elemental analysis to study metal contamination sources in 
the Colorado River water. The methodology is new, and can 
directly target anthropogenic sources such as mining or show 
that the source of uranium absorbed in the Colorado River is 
not from mining activity.
    Based on the preliminary results to data, the isotope data 
rule against major contamination from uranium mines. Studies 
such as these allow us to separate real contamination issues 
from perceived contamination.
    A U.S. report shows the location of 1,296 breccia pipes. 
More than 400 of these pipes occur within the boundaries of the 
Grand Canyon National Park. Of these an estimated 30 to 50 are 
uranium bearing. The existence of these has not affected the 
number of visitors coming to the park.
    According to the USGS estimates, there are 375 million 
pounds of uranium oxide in the area. This is equivalent to 27 
billion kilowatt hours of electricity, which is the power 
generated by all coal plants in the United States in a decade, 
or 13.3 billion barrels of oil, the total amount of recoverable 
oil in the Prudhoe Bay oil field. At a price of $50 per pound 
for this oxide, this resource is worth $18.75 billion.
    There will be approximately 12 mines in operation at any 
one time over the 20-year period. During operation, there will 
be 1,000 new jobs in the community. The total economic impact 
ranges between $23.5 and $29.4 billion, or more than $1.3 
billion annually. Shipping the ore will generate another 
billion dollars for the local area. The per capita income in 
Fredonia is $17,600, and it is still lower in the rural areas. 
The income for miners varies between $60,000 and $80,000 per 
annum. The operations will be fully permitted in compliance 
with state and Federal regulations, and bonded to ensure 
reclamation.
    There is concern about uranium mining because of the legacy 
of mining left by mining of minerals during the 1940s for the 
war effort. The dangers associated with uranium were not well 
understood at that time. Those circumstances do not apply to 
the Arizona Strip. Mining in the 1980s and 1990s in the region 
has demonstrated that there was no damage to the environment, 
and that the health and safety of the miners was not 
compromised.
    The number of claims in the Strip has also created an 
atmosphere of trepidation. Every claim does not imply the 
existence of breccia pipes in it and every pipe does not have 
uranium in it. Only a very small fraction of the breccia pipes 
are sufficiently mineralized to be mined profitably. Over 92 
percent of the uranium required for nuclear plants in the 
United States is important. Sixty-four percent of that uranium 
is being mined from just eight mines. That makes the supply 
prone to disruptions. Foreign countries are now exerting 
considerable control over uranium deposits worldwide. These 
issues underscore the need for domestic production from a 
national and homeland security viewpoint.
    There are 436 reactors in operation in the world, another 
433 are in development or on the drawing boards. It is evident 
that the demand for uranium will be strong in the coming years, 
especially with the emphasis on control of greenhouse gases. 
There will be fierce competition for the material. There are 
currently 104 reactors in operation in the United States, the 
largest number of any country in the world. Nuclear reactors 
would also be used by the navy for the last 60 years. There has 
been only one significant accident. This is proof that nuclear 
power is safe and environmentally acceptable.
    The Arizona Strip provides the richest source of domestic 
uranium. It would serve the Nation best if it were permitted to 
be mined. More details of all of the above are written in the 
testimony.
    Thank you for the opportunity to present my remarks and I 
would be pleased to answer any questions. Thank you, sir.
    [The prepared statement of Dr. Singh follows:]

  Statement of Madan M. Singh, Ph.D., Department of Mines and Mineral 
             Resources, State of Arizona, Phoenix, Arizona

    Members of the Subcommittee, Ladies and Gentlemen, Good Morning:
    My name is Dr. Madan M. Singh and I am Director of the Department 
of Mines and Mineral Resources, State of Arizona. I have been in this 
position since August 2005. I have served on five (5) Committees of The 
National Academies; one in 2007 which resulted in the report entitled 
``Managing Materials for a 21st Century Military.'' I have received 
awards and recognition for my work by my alma mater, The Pennsylvania 
State University, and the premier mining society in the United States, 
the Society for Mining, Metallurgy and Exploration, Inc., and was 
selected as its Distinguished Member in 2004. In 1997, I was elected 
Fellow of the American Consulting Engineers Council (ACEC) and a Fellow 
of the American Society of Civil Engineers (ASCE) in 1985. I have 
chaired six (6) national conferences and have authored over 120 
technical publications, many of them peer-reviewed.
    This testimony is presented against the withdrawal of the uranium-
bearing lands around the Grand Canyon National Park.
    The Arizona Strip is the part of the State of Arizona that lies 
above the Grand Canyon and the Utah border. The Strip occupies a total 
surface area of 20,404.2 km<SUP>2</SUP> (7,878.11 mi<SUP>2</SUP>). Of 
this, 20,348.12 km<SUP>2</SUP> (7,856.45 mi<SUP>2</SUP>) is land, and 
only 56.08 km<SUP>2</SUP> (21.653 mi<SUP>2</SUP>) is water. Its land 
area comprises 6.9 percent of Arizona's land area. About 64.4 percent 
of its area is in Mohave County and 35.6 percent in Coconino County. 
The region is typical of the Colorado Plateau with an arid climate and 
sagebrush vegetation. The Kaibab National Forest also is being 
considered for withdrawal and these remarks apply equally to that area. 
A significant part of the area is already withdrawn from mineral entry:
National Monuments
    Grand Canyon-Parashant--Covers an area of 4,115 km<SUP>2</SUP> 
(1,017,000 acres); about 81 km<SUP>2</SUP> (20,000 acres) within Lake 
Mead National Recreation Area. It was established by Presidential 
Proclamation 7265 on January 11, 2000. There are no paved roads into 
the monument and no visitor services.
    Pipe Spring--Comprises an area of 0.16 km<SUP>2</SUP> (40 acres), 
and was established on May 31, 1923. The monument was listed in the 
National Register of Historic Places on October 15, 1966.
    Vermillion Cliffs--This 1,189 km<SUP>2</SUP> (294,000 acre)-
monument was established by proclamation on November 9, 2000.
National Park
    Grand Canyon--Is one of the oldest national parks, having been 
established as national monument on January 11, 1908 and designated as 
a national park on February 26, 1919. It extends over 4,927 
km<SUP>2</SUP> (1,902 mi<SUP>2</SUP>) and is considered one the natural 
wonders of the world, the gorge of the Colorado River.
National Recreation Areas
    Glenn Canyon--Covers 5,076 km<SUP>2</SUP> (1,254,429 acres) of 
primarily desert land surrounding Lake Powell. A part of the recreation 
area is in Utah. It was established in 1972.
    Lake Mead--The area was established as the Boulder Dam Recreation 
Area on October 31, 1936 but the name was changed to Lake Mead 
Recreation Area on August 11, 1947. It covers 6,053 km<SUP>2</SUP> 
(1,495,665.69 acres) with water over 756 <INF>&</INF> (186,000 acres). 
Nearly 81 km<SUP>2</SUP> (20,000 acres) overlaps the Grand Canyon-
Parashant National Monument. A small portion is in Nevada.
Wilderness Areas
    Beaver Dam Mountains--The wilderness area, designated as such in 
1984, comprises 71 km<SUP>2</SUP> (17,600 acres) of which 61 
km<SUP>2</SUP> (15,000 acres) lies in Arizona and the rest in Utah.
    Grand Walsh Cliffs--Occupies 323 km<SUP>2</SUP> (37,030 acres), 
selected as a wilderness in 1984.
    Kanab Creek--Covers 305 km<SUP>2</SUP> (75,300 acres) and was 
established in 1984.
    Mount Trumbull--Was also established in 1984 and comprises 31 
km<SUP>2</SUP> (7,880 acres).
    Mount Logan--Occupies 59 km<SUP>2</SUP> (14,650 acres) and was 
designated as a wilderness in 1984.
    Paiute--Has witnessed very little incursion by humans and covers 
356 km<SUP>2</SUP> (87,900 acres); chosen to be a wilderness in 1984.
    Paria Canyon-Vermillion Cliffs--Established on August 28, 1984 and 
occupies 455 km<SUP>2</SUP> (112,500 acres); partly in Utah.
    It should be noted that all of the above wilderness areas were 
established in 1984. This was the result of the Arizona Wilderness Act 
of 1984, which had been negotiated during 1983 and 1984 between various 
environmental groups, industry, and other stakeholders. It was agreed 
at that time that the areas designated in the bill as wilderness would 
be removed from mineral entry, but that the remaining areas would 
remain open to multiple use. Senators McCain (then Congressman and 
party to the discussions) and Kyl have written a letter (Attachment 1) 
to Representative Grijalva stating this to be the case. Senators 
DeConcini and Hatch (who were also involved in the negotiations at the 
time) have written to Secretary Salazar, outlining the results of those 
meetings (Attachment 2). Thus it seems that the sections of the Arizona 
Strip not specifically withdrawn as noted above were to remain open to 
mineral entry. A Resolution adopted by the Board of Supervisors of 
Mohave County supporting the mining of uranium on the Strip is also 
attached (Attachment 3).
    Currently over 55.6% of the total area of the State of Arizona is 
already withdrawn from mineral exploration and mining. The State is 
fortunate enough to be blessed with considerable mineral wealth. 
According to the U.S. Geological Survey Arizona was the No. 1 non-fuel 
mineral producing state in the country in 2008. However, continual 
withdrawal of land from mining is depriving the state of revenues that 
it direly needs, and the country of necessary raw materials.
    In recognition of this fact the Arizona Legislature has recently 
passed HCM 2006 (Attachment 4) requesting Congress to refrain from 
enacting any legislation that affects Arizona public lands.
Economic Impact
    Mohave County has an area of 34,886 km<SUP>2</SUP> (13,470 
mi<SUP>2</SUP>) and had an estimated population of 196,281 in 2008. The 
median household income in 2007 was $39,669 compared with $49,923 for 
the State of Arizona. In the county, 13.5% of the persons were living 
below the poverty line. The household income figure for Fredonia, the 
largest town, is $39,295; the per capita income is $17,616 and it is 
even lower in the rural areas. For Kanab, Utah, across the border, the 
comparative figures are $43,025 and $20,153 respectively. The average 
household income for Utah in 2007 was $55,109. Coconino County had an 
estimated population of 128,558 in 2008. The median household income 
was $48,546 in 2007, and 16.2% of the population lived below the 
poverty line. The county is spread over 48,332 km<SUP>2</SUP> (18,661 
mi<SUP>2</SUP>). The income for miners in the area varies between 
$60,000 and $80,000 per annum.
    The occurrence of breccias pipes, which may host uranium deposits, 
make it possible to operate mines with a footprint of 10 to 20 acres. 
The mines are small and generally are in production for about two 
years. There may be a year of pre-production activity and then there is 
dismantling and reclamation. During the 1980s and early 1990s there 
were seven mines in operation in the area. These have now been 
reclaimed so well that it is difficult to locate them without prior 
knowledge of their existence.
    According to U.S. Geological Survey estimates (USGS Circular 1051) 
there are probably 375 million pounds of yellowcake (uranium oxide, 
U<INF>3</INF>O<INF>8</INF>) in the area that is to be removed from 
mining by H.R.644. This result was based on work performed in 1987, 
when the presence of the breccia pipes was only detected by their 
visibility on the surface. Recently some mineralized pipes have been 
located by geophysical means that are not evident on the surface. So it 
is probable that the amount of uranium present is greater. The ore from 
these pipes have an average grade above 0.6% which is the highest grade 
ore in the United States. Even if we accept the 375-million pound 
figure this is the equivalent of 27 billion kilowatt-hours of 
electricity. At the present rate of generation, this could replace all 
the power generated by coal plants in the United States for a decade. 
Another way to look at this--it is the equivalent of 13.3 billion 
barrels of oil. That is the total amount of recoverable oil in the 
Prudhoe Bay oilfield, the largest in the U.S. At a price of $50 per 
pound of U<INF>3</INF>O<INF>8</INF>, this resource is worth $18.75 
billion.
    Based on a recent study conducted by Tetra Tech, Inc., there will 
be approximately six (6) mines in operation at any one time with 
another six (6) being reclaimed over roughly a 20-year period. These 
mines will generate an average of 552 direct jobs and another 432 
indirect jobs, primarily in the service sector. The average wages for 
miners was $65,741 in 2008. The direct construction costs will range 
from $2.97 billion to $3.67 billion; the indirect impact will range 
from $2.13 billion to $2.63 billion. Thus the total economic impacts 
will be from $5.06 billion to $6.29 billion during the construction 
period. During the mine operation period there will be 366 direct and 
646 indirect jobs resulting in 1,012 new jobs in the community. The 
total economic will range between $23.53 billion and $29.41 billion, 
that is, $1.31billion to $1.34 billion annually. Some of the jobs may 
be for persons residing in Kane or San Juan Counties in Utah, in which 
case the impact on Mohave and Coconino Counties in Arizona will be 
reduced somewhat. The tax implications for Federal, state, and local 
governments is estimated to be $360 million per year, or $7 billion for 
the two-decade period under consideration.
    The ore that is produced from the mines is planned to be trucked to 
the White Mesa Mill in Blanding, Utah. The mill employs 150 persons, 
which implies an economic impact of $2.9 billion to San Juan County, 
Utah and the surrounding communities. However the shipping will benefit 
trucking companies in the vicinity and generate $1.01 billion for the 
local area.
Environmental Considerations and Safety
    Since the ore is transported to Blanding, Utah there will no local 
impact from the tailings. The rock from the shaft and other excavations 
for the mine will be poured back into the openings after the ore has 
been removed. Without tailings, there will be no dust problems that 
would be a concern. The surface facilities and roads are removed, and 
the sites reclaimed.
    It should be mentioned that the Arizona Department of Environmental 
Quality will investigate the mining operations before they issue any 
permits, as will all the other state and Federal agencies that are 
involved. This includes the U.S. Nuclear Regulatory Commission. The 
operations are fully permitted in compliance with State and Federal 
regulations and bonded to ensure reclamation.
    Nuclear power plants produce no air pollutants such as sulfur, 
mercury, greenhouse gases, or particulates. Dr. El-Baradei, Director 
General of the International Atomic Energy Agency and Nobel laureate, 
has stated (2005), ``Nuclear power emits virtually no greenhouse gases. 
The complete nuclear power chain, from uranium mining to waste 
disposal, and including reactor and facility construction, emits only 
two to six grams of carbon per kilowatt-hour. This is about two orders 
of magnitude below coal, oil, and even natural gas.''
    A few environmental groups claim, without providing any scientific 
supporting data, that the groundwater of the Redwall-Muav aquifer and 
the Colorado River would be contaminated by uranium mining. The 
occurrence of the uranium deposits in the breccias pipes is a few 
hundred feet below the surface and generally about 1,000 feet above the 
aquifer, separated by the impermeable Supai formation. Hence there is 
little chance of the water being contaminated.
    The area in question, as mentioned above is desert; the annual 
precipitation varies from 20 inches at the higher elevations to 12 
inches in the low regions. The area where the mining will be is in the 
low section. There is little runoff to be concerned about, however the 
operators ensure that no water gets off the mine property, and all of 
it is contained in a lined pond.
    Based on USGS data for November 1990 and June 1991, published in 
1996 (USGS OFR 96-614), the Colorado River water enters and leaves the 
mineralized breccia zone at uranium concentration of between 4 and 5 
parts per billion (ppb). This level continues to decrease as it goes 
down the river. The EPA safe drinking water concentration is 30 ppb--so 
the level is significantly lower! It is worth noting that the average 
concentration of uranium in the Colorado River is 4.6 ppb, lower than 
that of fresh water in an arid region, which is 5.0 ppb.
    Water taken in a two-week period in April and May 1991 from a well 
in the Redwall-Muav aquifer near the Kanab North Mine, which was in 
operation at the time, had uranium concentrations between 0.8 and 5.9 
ppb; again much lower than the safe drinking water level.
    Modeling of the groundwater during its transitory passage through 
the Orphan Mine, which was mined prior to its inclusion in the National 
Park, contributes very small amounts of uranium to the Redwall-Muav 
aquifer and the Colorado River compared to the mineral existing in the 
river and the aquifer. Data accumulated by the USGS and others indicate 
that the springs around the mineralized breccia pipes in proximity to 
the rim of the Grand Canyon contribute insignificant amounts of uranium 
to the Colorado River because the flow rates from the springs is very 
low. This also applies to Horn Creek, the spring closest to the 
historic Orphan Mine. It is safe to conclude that springs further away 
from the River, beyond even the boundaries of the National Park, would 
have even less impact on the waters of the Colorado River and would not 
pose any health hazard to the people using the water.
    Dr. Charles Sanchez and Dr. John T. Chesley at the University of 
Arizona, and Dr. Yemane Asmerom at the University of New Mexico, with 
funding from the Arizona Water Sustainability Program and agricultural 
interests, have used isotopic methodologies along with elemental 
analysis to study metal contamination sources in Colorado River water. 
The methodology utilized is relatively new, but can help discriminate 
between natural and anthropogenic input. It can directly target 
anthropogenic sources such as mining or it can be used (as was done for 
uranium by the investigators) to suggest that the source of uranium 
observed in the Colorado River in their study is not from mining 
activity. Based on the preliminary results to date for a single set of 
samples along the Colorado River from 2007, Drs. Sanchez, Chesley and 
Asmerom state: ``Although we did not sample on a spatial scale to rule 
out temporary local contamination, or on a temporal scale to rule out 
transitory plumes, the isotope data (uranium, strontium, and lead) in 
the main channel of the Colorado River are generally consistent with 
the normal weathering of uranium containing geomedia within the area of 
interest and rule against major contamination from uranium mines or 
tailings.'' As a minimum the study has established a baseline to which 
longer term studies of potential uranium contamination in the Colorado 
River can be evaluated. As well, studies such as these may allow us to 
separate ``real'' contamination issues from ``perceived'' 
contamination.
    USGS Open File Report OFR-89-550 shows the location of 1,296 
breccia pipes. More than 400 of these pipes occur within the boundaries 
of the Grand Canyon National Park; of these an estimated 30 to 50 are 
probably mineralized (that is, uranium bearing). Water passing through 
these, because of erosion, is flowing into the Colorado River, even 
though these have never been touched by mining. One of these pipes, 
approximately three miles from the Park Service Phantom Ranch lodge, 
shows high grade uranium mineralization at the surface. All of these 
have not affected the number of visitors coming to the Park.
    A major concern in the mining of uranium is safety and radiation 
exposure. In general the impacts of mining uranium are not much 
different than other mining. Natural uranium ore is about as 
radioactive as the granite countertops that many people have in their 
kitchens. The risk comes from the associated radon gas and radium. 
Since this is now well understood, mining companies protect the workers 
with excellent ventilation. Epidemiological studies have established 
that the risk of lung cancer among smokers is between 10 and 20 times 
higher than with persons who have never smoked. The industry 
appreciates this risk and does not permit smoking.
    It should also be remembered that the industry now has over half a 
century of experience with uranium mining and has adopted 
internationally recognized standards. The radiation safety regulations 
used in the United States, Australia, and Canada are the most 
comprehensive and stringent in the world, and the radiation doses are 
well within the regulatory limits. Uranium mines are probably the most 
highly regulated industrial operations in the world; both by state and 
Federal agencies. Frequent inspections ensure that employees and 
environment are duly protected. The industry has long accepted that it 
is much more efficient to prevent pollution than to remediate it later.
    Everyone receives small amounts of radiation from natural sources 
such as cosmic radiation, rocks, soil, and air. Uranium mining does not 
increase this noticeably for the surrounding communities and the public 
at large. The objective of the nuclear industry--from mines to 
reactors--is to control and limit the release of potentially harmful 
substances into the environment.
Supply and Demand
    Over 92 percent of the uranium required for the nuclear plants in 
the United States is imported, a significant amount of that from 
Russia. A part of this comes from the decommissioning of nuclear 
warheads in accordance with the START treaties. Russia has stated that 
it will not supply this secondary uranium beyond 2012. This source is 
dwindling from all countries. The demand for the fuel will expand in 
the future, especially with the emphasis on control of greenhouse 
gases. China, for example plans to increase the power from nuclear 
plants from 9 gigawatts per year at the present to 75 gigawatts by 
2020. Other countries, such Russia, India, and other Asian nations are 
also increasing the capacity for power from this source. There are 436 
reactors in operation in the world; another 433 are in development or 
on the drawing boards. It is evident that the demand for uranium will 
be strong in the coming years.
    At this time 64 percent of the uranium is being mined from just 
eight mines. This makes the supply prone to disruptions. The flooding 
of Cigar Lake mine in Canada, which is now expected to become 
operational in 2014, and the delays in the Olympic Dam project in 
Australia, which will be commissioned with increased production in 
2016, serve as examples of the type of setbacks that may be expected. 
These are two of the larger mines.
    Recently China has made an agreement with Australia to buy uranium 
from it; even though there is the danger of China diverting some of it 
for military purposes. In Kazakhstan, JSC Atomredmetzoloto (ARMZ) has 
agreed to acquire 16.6 percent of Uranium One, for a stake in its 
Karatau mine; this could rise up to 19.95 percent in the next five 
years. ARMZ will take 50 percent of the production from Karatau or 20 
percent of Uranium One's total production, whichever is larger. Uranium 
One's partner in Karatau will be Kazatomprom, a Kazakh state-owned 
company. The money for the deal comes from a Japanese consortium, which 
has the option to purchase 20 percent of Uranium One's production. This 
appears to provide Uranium One with strategic partners in Russia, 
Japan, and Kazakhstan. However, it may be recalled that Kazakhstan's 
president recently arrested the president of Kazatomprom on charges of 
improper uranium sales. These are just a couple of examples of the 
control that foreign companies and countries are now exerting over 
uranium deposits worldwide.
    This also points to the importance of obtaining the mineral 
domestically from a national and homeland security viewpoint.
Other Concerns
    There is concern about uranium mining because of the legacy of 
mining left by mining of the mineral during the 1940s for the war 
effort. It should be borne in mind that the dangers associated with 
uranium were not well understood at the time. Persons were permitted to 
watch atomic blasts without protective gear and seamen were ordered to 
scrub the decks of ships after test were conducted in the atolls. 
``Fiesta ware'' was openly sold and watches with radium dials were worn 
with pride. Significantly, the formations that contained the uranium 
were quite different, as was the mining practice. The government was 
more interested in obtaining the uranium and provided incentives that 
encouraged lack of safety. The contracts were suddenly terminated when 
the need declined. Those circumstances do not apply to the contemplated 
mining in the Arizona Strip. Mining in the 1980s and early 1990s in the 
region has shown that there was no damage to the environment and the 
miners have not been injured or wronged in any manner.
    The number of claims in the Strip have also been used to create an 
atmosphere of trepidation among the general public. Every claim does 
not imply the existence of breccia pipes in it and every pipe does not 
signify that there is even mineralization in it. Further, the amount of 
minerals has to be economically workable. Historically, only 1 to 5 
percent of the breccia pipes are sufficiently mineralized to be mined 
profitably. Both the discovery and marketability criteria need to be 
met to establish the validity of a claim.
    It may be mentioned that there are currently 104 reactors in 
operation in the United States, the largest number in any country in 
the world. Nuclear reactors have also been used in the Navy, in ships 
and submarines, for the last 60 years. There has been only one 
accident, Three Mile Island (TMI), in all that time; even at TMI there 
was no significant release or fatality. Thus, the use of nuclear power 
is probably the safest and most environmentally appropriate; even Mr. 
Patrick Moore, the co-founder of Greenpeace has advocated its use. For 
that to continue, uranium is required for fuel. The Arizona Strip 
provides the richest source of domestic uranium. It would serve the 
nation best if this was permitted to be mined.
    Thank you for the opportunity to present my remarks today.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. We appreciate your portion of 
testimony.
    Let me begin my portion of the questioning with asking the 
Vice Chairman, I have been told that the Havasupai Tribe is 
organizing a protest later this week. Can you tell us the 
significance of the site where you are gathering and the 
purpose for the gathering if you don't mind.
    Mr. Putesoy. Right. Thank you, Chairman.
    The gathering is scheduled for July 25 through 26, and it 
is south of the Grand Canyon at a sacred refuge. This place is 
sacred to the Havasupai people. Stories were told that we 
originated from there, from this area, from way back. After the 
Great Flood we have been told that people were raised from 
there, from the ground, from the ground up, so that is a very 
sacred place to us. We say that is the area where the Mother 
Earth is tied to the umbilical cord, and there to the son, so 
that is a very sacred area for us, and we would like to protect 
that site.
    Right now, mining is set to go into operation there near 
Red Butte. That is the Canyon Mine, and tomorrow they are going 
to have hearings down in Fredonia for ADEQ to get water permits 
for that particular mine. So in doing that we want to create 
some awareness and support from the communities around there in 
the area--Flagstaff, Williams, Grand Canyon, and we invite you 
to come down and be a part of it.
    Mr. Grijalva. Thank you. Can you tell us also, Mr. Vice 
Chairman, about the impacts to the health of your people from 
past mining in the region?
    Mr. Putesoy. There really hasn't been any mining impact 
yet. You know, this is the first site that they are trying to 
mine at, the Canyon Mine. If the mining goes ahead and if they 
get the approval to do that, then they will contaminate our 
source of water at the Redwall-Muav aquifer. It will eventually 
seep into the groundwater and destroy the water and our way of 
life is going to be destroyed. The water is very sacred to our 
people, and it is how we came to be. Our stories tell us that 
is where we came from, water.
    Mr. Grijalva. One more question, Mr. Vice Chairman. Has the 
Forest Service provided the tribe with the government/
government consultation that you would consider to be adequate?
    Mr. Putesoy. It has been, yeah. We have been meeting with 
the Forest Service, Kaibab National Forest. They do provide 
some information on the drillings, the EIS that they go 
through, and we have had some meetings with them, and they will 
be coming down to Supai next week to talk more about the 
drillings and the mining, Canyon Mine that is set to go into 
operation.
    Mr. Grijalva. Thank you.
    One quick question for the supervisor. The resolution that 
you talked about that is still in effect that the Board of 
Supervisors passed, one of the questions, did you hear from 
constituents before the action, and what has been the reaction 
since to that resolution?
    And I should note--I will afford myself the opportunity to 
say that Member of Congress, Ms. Kilpatrick is the co-sponsor 
in this session of the legislation from that area and has been 
on it since we filed it, but if you could tell me how the 
constituents reacted then and now.
    Ms. Archuleta. Thank you, Mr. Chairman. Yes, actually this 
has been an issue for Coconino County for decades. You may 
recall my former colleague, former Supervisor Louise Yellowman, 
who served on the board for 28 years, this has been a constant 
part of her agenda, now Coconino County's agenda for decades.
    When we had our hearing to consider our resolution, we had 
tremendous support for the resolution. We had members of the 
environmental community, we had constituents, regular 
residents, citizens of Coconino County that supported our 
resolution. We have heard from members of the medical community 
speak about the effects of uranium, especially to those on the 
Navajo Nation, and in the Navajo Nation's resolution it does 
cite health impacts that have been detrimental to their members 
from uranium mining.
    Since then there has been continued support. I have not 
received one phone call, one e-mail to the contrary of our 
resolution. I have only received comments of support for it, 
and so Coconino County has made it very clear in our resolution 
us, being the local government, and being connected with the 
citizens that we serve, where the Grand Canyon resides, we 
believe in our resolution and stand by it.
    Mr. Grijalva. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you. Dr. Singh, there was a recent study 
done by the University of Arizona with respect to the source of 
Colorado River uranium.
    Dr. Singh. Yes, sir.
    Mr. Bishop. Can you just tell me the significance of that 
study?
    Dr. Singh. Actually, the study was done not with respect 
to--it was done with respect to uranium but not because of 
mining concerns but because of agricultural concerns, and it is 
still an ongoing study. It is a multi-year study. But within 
the amount of data they have gathered, they have found out that 
they can tell between uranium that is coming from natural 
erosion sources versus what is from mining. From the 
information they have at this point, they say that there is 
very little, almost no, contamination from the mining. Most of 
it is from natural erosion of uranium.
    Mr. Bishop. And you were saying that the parts per billion 
were significantly lower than what EPA considers to be safe----
    Dr. Singh. That is correct.
    Mr. Grijalva.--for water condition?
    Dr. Singh. That is USGS data.
    Mr. Bishop. There are places in the canyon, like Orphan 
Mine, that the government has refused to reclaim. It is still 
there, and other sources are there. Has that had any impact 
upon visitation to Grand Canyon?
    Dr. Singh. No, sir, and in fact actually my understanding 
the shaft, and so forth, of the mine has been a draw, and a lot 
of people have come to see that specifically. So to my 
knowledge, there have not been any distractions, and people 
obviously if they see the shaft, they know that this is for 
uranium mining, but this has not hurt visitors coming into the 
park.
    Mr. Bishop. So the good supervisor will still get her 
tourism dollars going into that area.
    Dr. Singh. I would imagine she would.
    Mr. Bishop. She did mention a study about Horn Springs. Has 
that particular city that was mentioned by one of the other 
witnesses had any peer review or had been replicated by other 
scientific efforts?
    Dr. Singh. As far as I know, that has not been replicated, 
and later on maybe somebody else can testify to the amounts, 
but actually the amount of uranium coming out from Horn Spring 
is very small, and it is again well within the drinking water 
levels that have been established by EPA.
    Mr. Bishop. Thank you very much.
    Ms. Archuleta, you have been here before. You are one of 
the usual suspects we round up to bring here, but you have 
spoken on behalf of NACO, National Association of Counties, and 
those situations.
    Is it my understanding you are not speaking on behalf of 
NACO today but only as Coconino County?
    Ms. Archuleta. That is correct.
    Mr. Bishop. And you are not speaking on behalf of Mojave 
County either?
    Ms. Archuleta. No, I am not.
    Mr. Bishop. I understand that you are probably supposed to 
be in Philadelphia right now, aren't you?
    Ms. Archuleta. Actually, no, in Tennessee in a couple of 
days.
    Mr. Bishop. Is there not a uranium mining resolution that 
will be considered at that NACO meeting?
    Ms. Archuleta. There will be uranium--yes.
    Mr. Bishop. Thank you. I appreciate that very much.
    Dr. Singh, how does the withdrawal of this--the proposed 
withdrawal impact dependence on foreign countries, impact U.S. 
dependence on foreign countries?
    Dr. Singh. As I said earlier in my testimony that 92 
percent of the uranium is being imported right now that is 
being used by our uranium plants, and we have almost one-fourth 
of the number of plants in operation or reactors in operation 
at this time. China, Russia, Kazakhstan, France have been 
buying a number of mining operations and uranium deposits 
elsewhere in the world, and China, for one, has a number of 
plants that are going up. In fact, they plan to increase their 
output from nuclear plants from 9 gigawatts at this point to 72 
by 2020. So they will be requiring a lot of this uranium so it 
will become very difficult for us to get that and, therefore, 
it will expose us to security problems also.
    Mr. Bishop. We import the 92 percent of the uranium that we 
use in this country. I understand about 25 percent of that 
comes from Russia?
    Dr. Singh. Yes, sir.
    Mr. Bishop. As part of the start program----
    Dr. Singh. That is right.
    Mr. Bishop.--that should end in 2012?
    Dr. Singh. That is right, and they have already said that 
after 2012 they will not be exporting anything from that to us.
    Mr. Grijalva. And the Chinese are making treaties and 
buying into some of the mining entities abroad which we are 
relying upon?
    Dr. Singh. That is right, but in the last few weeks 
actually they bought large properties in Mihir, and so has Riva 
for that matter.
    Mr. Bishop. Does this proposal have an impact on our grid 
system?
    Dr. Singh. Nuclear power is a baseboard type of power, so 
we would be able to supply power once we put the plants up 
throughout where we need it whereas if we depend more on solar 
and wind power, which is what is being talked about more these 
days, those are intermittent and, therefore, there will be a 
problem there.
    You know, many of the plants that we have right now, if 
they are expanded, that would not create too many problems on 
the grid system because the grid is already existing. If we put 
plants elsewhere, there may be some more lines that would be 
needed.
    But in contrast as far as renewable energy is concerned, 
and I think that there should be some renewable energy by the 
way, most of them will be away from urban areas and, therefore, 
new lines will need to be put in to convey that power from 
places to urban areas where it is needed.
    Mr. Bishop. Thank you. My time has expired. Dr. Singh, I 
appreciate you giving----
    Dr. Singh. Thank you very much.
    Mr. Bishop.--your perspective on this, and to all four of 
our panelists. I appreciate you coming all the way back to 
Washington. Thank you so very much.
    Mr. Grijalva. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. We all know that water 
is essential for life. As a matter of fact, as we sit here we 
are eagerly looking for water in space. As we know it now, it 
depends upon water. As a matter of fact, if we find water in 
space, on Mars for example, we could establish bases there, and 
we could have a hearing there or a CODEL, and Mr. Bishop could 
share those hearings. I would welcome you to do that.
    But we must--this water is so essential. I mean, it is just 
the very basis of life as we know it. Therefore, we must 
protect that water on earth, protect early in strategic places. 
Water is essential to a way of life for the people who have 
lived there for hundreds of years.
    Mr. Putesoy, what danger does mining have for the 
environment in your land? Particularly what danger does it have 
for water and how might that danger come to be?
    Mr. Putesoy. Well, like I said, yes, eventually the uranium 
will seep into the aquifer, Redwall-Muav Aquifer, and 
contaminate the rivers and waters, the springs that are in the 
area, and a lot of wildlife are dependent on that force of 
water springs, such as elks, big-horn sheep, the Havasupai 
people, and we get our revenues from tourism in the canyon. We 
are the most restricted tribe in the United States, we don't do 
any mining, timber, no development on rim, so that is our main 
economic base is our water or the waterfalls. People come from 
all over to visit, and camp and swim in our water, our 
waterfalls. Eventually if the mining goes through, it will seep 
down into the river and eventually pollute the Colorado River, 
and it will flow further down west where we have a major city 
downriver, like Las Vegas, San Diego, Phoenix. So it is not 
just us in the canyon itself, but further down river will 
eventually become polluted too as well.
    Mr. Kildee. And Dr. Singh, you mentioned an unrelated 
accident, but an accident apparently at sea.
    Dr. Singh. No, sir. I was referring to the Three Mile 
Island accident.
    Mr. Kildee. Three Mile Island, OK.
    Dr. Singh. Yes.
    Mr. Kildee. I was in Congress when that took place, I can 
recall, and that accident, how much of a misuse or an accident 
there at the Grand Canyon would pose a danger of any nature to 
the land?
    Dr. Singh. Well, it is quite a different situation. First 
of all, at Three Mile Island we are talking about a release 
from a reactor, but as in the Grand Canyon we are not talking 
about putting up reactors. We are just talking about mining. 
And when we get out all from the mine, it has very little 
radiation. In fact, many of the granite countertops that people 
have in their homes in their kitchens probably have as much 
radiation as that from the core. So there is really not much 
radiation from that point.
    The only radiation problem in the mining aspect is from the 
radon gases and we now understand that, and we ventilate the 
mines very well, and we have proof, because there were eight 
mines that were operated in the 1980s and 1990s in that area 
and there was no damage done to the environment or to the 
health of the people, the miners.
    Mr. Kildee. Is there an environmental impacts statement 
accomplished or finished on impact of mining in that area on 
the surrounding land?
    Dr. Singh. There will be impact statements if there is 
mining, and currently the VANE Company is preparing one. They 
will be submitting it later this year, I believe.
    Mr. Kildee. But they have none completed at this point?
    Dr. Singh. No, because at this point they were only doing 
exploration, and the first instance the Forest Service didn't 
think that they needed an environmental statement for 
completing just the exploration, but now the courts have ruled 
that they needed to, and they are doing it.
    Mr. Kildee. Do you think it is prudent that they do that?
    Dr. Singh. For exploration actually, as I said earlier, the 
amount of damage or ore that comes out it is shipped directly 
to the laboratory for testing and so forth, and it has no 
radiation or no uranium effects to the environment or to the 
people. So I personally don't think that it is necessary to do 
that just for exploration.
    For mining, yes, it would be necessary, and it would be 
prudent to do that, yes, sir.
    Mr. Kildee. That would be my next question. If they 
actually--in mining there is a ceratin disturbance that takes 
place, sometimes massive disturbance, you would want to have 
clearly a very valid environmental impact statement.
    Dr. Singh. That is correct, and if we were mining then we 
would need one. There is no question about that, in my mind 
anyway.
    Mr. Kildee. It is extremely important that we know what 
might happen before we do something that may cause that to 
happen, and I appreciate very much your testimony, Dr. Singh, 
and everyone else--no, I am out of time. Thank you very much. 
Thank you, Dr. Singh.
    Dr. Singh. Thank you, sir.
    Mr. Grijalva. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Dr. Singh, just a point of clarification. The environmental 
impact statement that is underway now, is that both for 
exploration and for mining itself?
    Dr. Singh. Well, yes, at this point they will complete the 
exploration, and I don't know the effects of the segregation 
that took place yesterday on that. But yes, after that if there 
was a deposit that was validated, and then they would be mining 
yes.
    Mr. Coffman. OK. But what evidence do you have at this 
point that there is potential contamination given the mining 
technology that we have today, given the regulatory framework 
that we have today, what evidence do you have that this mining 
could potentially damage water resources in the region?
    Dr. Singh. There is no data to prove that there is any 
damage, and they are continually testing everything around them 
just to make sure that there is no damage.
    Mr. Coffman. Can you give me an example of the difference 
in technology from--when were there mines where the technology 
was such and the regulatory framework was such that there was 
in fact damage to the aquifer?
    Dr. Singh. Back in the 1940s and early 1950s, there was 
mining being done on the east side in the Navajo region and so 
forth, but then, first of all, the formations are quite 
different. That was also surface mining or very close to the 
surface, and the techniques and so forth were quite different.
    The mines and the pipes that we are talking about are 
around six or eight hundred feet below the surface, and then 
between the deposit itself and the aquifer that we keep talking 
about, there is 1,000 feet of the Supai formation which is a 
very impermeable formation, so the water, to be able to go 
through that, is not possible. It will not happen.
    Mr. Coffman. Now, when is this environmental impact 
statement, the first one I guess for exploration, when is that 
supposed to be finished?
    Dr. Singh. I think by the end of this year it should be 
finished.
    Mr. Coffman. OK. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Grijalva. Mr. Heinrich.
    Mr. Heinrich. Thank you. Supervisor Archuleta, I wanted to 
ask you from sort of a local government perspective. I used to 
sit on the city council in Albuquerque, and I know that one of 
the things local governments always struggle with is just basic 
infrastructure, especially when you go through a substantial 
economic change in the region, and I wanted to get your take on 
if full development were to occur in this area within your 
county, would you have the basic infrastructure, the roads and 
the other things necessary to deal with just the change in use 
patterns that you would see from additional people to trucks to 
vehicles on the roads, all of those sorts of things, water that 
would be necessary for those, and how would you finance that?
    Ms. Archuleta. Well, thank you very much for the question.
    Well, as you know, Coconino County having 18,000 square 
miles within its region, it is a challenge for us to be able to 
keep up with roads and infrastructure. In addition to that, so 
this would be a tremendous impact to us, but in addition to 
that the sheriff's office is responsible for law enforcement on 
public lands and ensuring the safety of our citizens. That 
would be very taxing to them as well, and he has indicated so 
to us.
    In addition to that, we struggle with revenues just like 
everyone else, and we would see that if the--as I mentioned, if 
uranium mining was to occur on lands in the Grand Canyon, we 
would see a impact to tourism, we would see an impact to 
dollars, and right now the only dollars we have right now to be 
able to take care of our public lands is dollars that we get 
through forest fees and secure rural schools, and that--secure 
rural schools is only authorized for another three years, and 
that continues to diminish. And so we are very concerned about 
that.
    But I appreciate the question. I believe that even with the 
funds that we get from the state for roads and infrastructure 
we cannot keep up with what we have at this time and so we 
would need to have some additional revenue if there was going 
to be increase on our infrastructure.
    Mr. Heinrich. In a slightly related question, if I 
understand the geographic boundaries of the counties in this 
area, both the North Kaibab Ranger District and the Tusayan 
Ranger District are in Coconino County, is that correct?
    Ms. Archuleta. It is within our borders, yes.
    Mr. Heinrich. What role do sportsmen and particularly 
regarding the elk herd in unit 9, what role does that play in 
your current economy in Coconino County?
    Ms. Archuleta. Well, hunting and sportsman recreation is 
actually one of the highest revenue generators for Coconino 
County. I don't know specifically to that region if we would 
experience the loss. I wouldn't be able to say that, but I do 
know that tourism is actually probably higher than hunting, and 
so in terms of recreation and national visitation to the 
canyon, I would rate that as the highest source of revenue 
generation.
    Mr. Heinrich. Do you know, has any analysis been done on 
the potential impact of fragmentation of the elk herds on the 
north rim and the south rim?
    Ms. Archuleta. I am not aware of that. I am sorry, I cannot 
answer that.
    Mr. Heinrich. OK. Thank you.
    Ms. Archuleta. Thank you.
    Mr. Grijalva. Thank you. Ms. Lummis.
    Ms. Lummis. Thank you, Mr. Chairman.
    Ms. Archuleta, thanks for being here today to represent the 
county.
    Ms. Archuleta. Thank you.
    Ms. Lummis. And I may be asking questions that have already 
been asked. I came in a little late so I apologize if that is 
the case.
    I understand that the Arizona Legislature recently passed a 
concurrent resolution requesting Congress to hold off on 
enactment of legislation that would remove any acres from 
uranium development, and obviously your county board differs. 
What is the reason for that divergence of opinion?
    Ms. Archuleta. I don't know. All I can say is that Coconino 
County is a rural area. We are a large area of the state, but 
the majority of the legislators in our Legislature come from 
the metropolitan areas, mainly Phoenix and Maricopa County, and 
I would say that they certainly didn't consult with Coconino 
County, and perhaps they are not in touch with our 
constituency.
    Ms. Lummis. Could you tell me how far the uranium 
development is from the Grand Canyon, the actual Grand Canyon?
    Ms. Archuleta. Some of it that is proposed is two miles 
within the national park. Others is 10 miles, so within a two 
to 10-mile radius.
    Ms. Lummis. And what environmental analysis is currently 
taking place by land managers regarding the potential mining 
activity?
    Ms. Archuleta. I don't know the specific activity that is 
taking place, so I can't speak to that in terms of an EIS.
    Ms. Lummis. Dr. Singh, do you know why the Arizona 
Legislature chose to depart from the view of the county on this 
issue?
    Dr. Singh. Well, there are a couple of reasons. One is, of 
course, we have come to realize and several of them have 
visited the area where mining was taking place and realized 
that it has been reclaimed. In fact, you can't hardly discern 
these areas anymore. And the second reason is that impacts the 
revenues of the state and there is really no reason, and we 
need jobs right now. We are in a desperate position. You know, 
we are having a lot of difficulty meeting our revenue 
projection.
    Ms. Lummis. Mr. Chairman, Dr. Singh.
    Dr. Singh. Yes.
    Ms. Lummis. Would this uranium be recovered by in situ 
processes or by conventional mining?
    Dr. Singh. By mining--it is underground mining. It is not 
surface mining. But, no, it is not by in situ.
    Ms. Lummis. OK. Isn't the purpose of NEPA analysis to 
determine the environmental impacts on Federal lands of 
proposed projects just like these, Dr. Singh?
    Dr. Singh. Yes, it is, and during the EIS process that will 
be part of that, you know.
    Ms. Lummis. And here is a follow-up question. You know, 
there are a number of options to help us diversify our current 
energy portfolio, which requires strategic metals--germanium 
for solar, photo-voltaic technology, neodymium for wind 
turbines and, of course, uranium for nuclear. From a carbon 
aspect, however, the only zero emission alternative to 
traditional fossil fuels that could meet our nation's baseload 
is nuclear.
    While my home State of Wyoming contributes the majority of 
domestic uranium mined for this purpose, our nation currently 
is more than 90 percent dependent on imported uranium for 
nuclear power plants within our own borders, and I would like 
to ask each of the panelists, are you supportive of increasing 
the foreign dependency as we ramp up nuclear energy usage of 
America? And I would offer anyone an opportunity to answer 
that. Foreign versus domestic is my question, uranium 
production. Dr. Singh?
    Dr. Singh. Yes, I have essentially referred to that in my 
testimony, but yes, we cannot afford to be dependent; otherwise 
all we are doing is trading our dependence on oil for 
dependence on uranium or other minerals, and that is not in the 
best national interests, and especially not in the national 
security interests of our nation.
    Ms. Lummis. Mr. Chairman, just to comment, being from 
Wyoming, there was a proposal in the nineties for gold mining 
operation at the New World Mine just over the border from 
Yellowstone National Park in Montana, and at the time I was 
doing natural resource policy for our Governor. I went up 
several times and looked at the New World Mine site, and came 
away with the conclusion personally that the tails, the tailing 
ponds would be potentially disruptive to water sources that get 
into Yellowstone National Park, and I came away thinking that 
that was an inappropriate site for gold mining because of the 
potential impairment on water resources in the Yellowstone 
National Park.
    So I understand the concerns that you may have about this, 
and I would hope that those kinds of things could be fleshed 
out in a NEPA process rather than have Congress interject its--
rather than having us micro manage, but nevertheless I do 
appreciate the potential concerns you have, and I thank you for 
being here today and testifying.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. You are talking about the NEPA 
process and I couldn't agree more with your comments. But it 
should be noted that the beginning of these claims, including 
the one in Redwall-Muav, that Forest Service was trying to 
exempt the NEPA process for many of these claims, and the fact 
that now due to this new policy perspective NEPA is going to be 
looked at. I think this is an important step as well. But at 
the beginning of this whole process they were going to be 
exempt, and that was--but Ms. Brothers, just let me, and I will 
afford my colleagues additional questions as well.
    You mentioned that the Colorado River, 90 percent of 
southern Nevada's water supply. Since we have been speculating 
about jobs and other stuff, so let us speculate a little bit 
more. If a major disaster were to contaminate the Colorado 
River, where would your authority go to find the next best 
water source?
    Ms. Brothers. That is just the issue, sir. We do rely 
heavily on the Colorado River, and if there was any disaster we 
would in essence be out of water. We are trying to diversify 
our water resources by constructing a groundwater project that 
would bring in water from eastern and central Nevada to buffer 
us against drought or any type of catastrophe on the Colorado 
River, but that is why we are so concerned, and I think the 
issue here is proximity to the Colorado River. I think that is 
our issue that we need to be looking at any potential that 
would contaminate that because of the reliance that we have on 
the river.
    Mr. Grijalva. And one of the things we are hopeful in this 
two-year period to look at is the impacts of uranium mining on 
water quality, and thanks to the Department of the Interior's 
recent decision we might be afforded that opportunity.
    Based on what you know now, are there controls, oversight 
measures that you would like to see tested or put in place to 
protect that water supply?
    Ms. Brothers. I think we have been talking about the NEPA 
process and the fact that this mining was exempt. It should not 
be exempt from the process. I think you have to have a total 
look at what potential there might be for contamination to 
reach the river.
    Each individual mining operation might have a different set 
of circumstances. Some of the uranium occurs in aquifers. You 
have to de-water that aquifer to be able to extract it, and 
those waters do have radionuclides in them that have to be 
removed. So it can be on a case-by-case basis, but these 
analyses need to be done in depth to look at their impact on 
water quality, especially the Colorado River.
    Mr. Grijalva. Thank you.
    Dr. Singh, can your department provide to the Committee of 
the claims that--let us just concentrate on the claims around 
the Grand Canyon. Of the companies placing those claims or 
individuals, the companies, how many are foreign owned? Do you 
know?
    Dr. Singh. No, I don't know offhand. A number of them 
probably are.
    Mr. Grijalva. Is the VANE foreign owned?
    Dr. Singh. Pardon me?
    Mr. Grijalva. Is the VANE Company foreign owned?
    Dr. Singh. Yes, sir, and a number of others may also be 
foreign owned, but this business of being foreign owed is 
really not much----
    Mr. Grijalva. The point that is being made today is 
exporting, domestic use, my colleague made it, you made it in 
your testimony, so what guarantees do we have from a foreign-
owned company that is the major company in the area that the 
extraction on our public lands are going to be domestically 
used or exported? We have no guarantees or do we have 
guarantees?
    Dr. Singh. No, we do not have any guarantees, but I would 
like to point out that all the workers that are there are 
Americans. All the supervisors there are Americans, and in many 
cases the presidents of the companies are also Americans, and 
also the stakeholders, the shareholders, about 50 percent or 
more of them are Americans. So the fact that they are owned by 
foreign companies, and in this case most of these--well, VANE 
is British, but the rest are Canadian.
    Mr. Grijalva. The issue for me of guarantee of energy 
independence if that is what we are touting and national 
security, then that extraction appropriately belongs here.
    Dr. Singh. Canada right now is exporting uranium to the 
United States, and it has much more uranium than it is ever 
going to need and, therefore, I do not think that they are 
going to be mining in the Grand Canyon and then exporting that 
to Canada or anywhere else. I think if we need it here, we will 
be able to use it here.
    Mr. Grijalva. Well, that is good for you to believe that or 
think that or speculate that, but if that is the argument, that 
is the argument that I think the guarantee needs to be a lot 
more profound.
    Mr. Bishop.
    Mr. Bishop. I do have a couple, yes, and in fact, Mr. 
Grijalva, if you would write that guarantee in your bill, it 
might be a better bill, obviously.
    There are a couple of things. First of all, let us get 
something very clear. NEPA has not been waived in any of this 
process. Categorical exclusions are part of the NEPA process.
    Dr. Singh. Yes.
    Mr. Bishop. There is a vast difference between exploration 
and mining. Giving a categorical exclusion for an exploration 
just to drill a hole is not the same thing as a categorical 
exclusion from a mining operation which would have to have a 
further EIS. So, please, when you talk about NEPA being 
excluded, make sure you are exactly right what you are talking 
about. Categorical exclusion is part of NEPA.
    Ms. Brothers, I hope you recognize that when you go after 
that water in central and eastern Nevada you leave western Utah 
alone. It is the same aquifer but it is our water. So be very 
careful on that, and I appreciate your concern about the water 
coming down the Colorado, and I hope you were also listening to 
the studies that Dr. Singh was talking about on how those 
levels are so significantly below what EPA standards would be 
in there.
    Now, there was one question that Representative Lummis 
brought up that I would like to come in here. Dr. Singh, when 
she was talking about that, would wind or solar farms harm or 
have a greater impact on elk than mining?
    Dr. Singh. On elks?
    Mr. Bishop. Sure. Yes.
    Dr. Singh. Well, obviously if they are going to be 
occupying all this land, then amount of land that is required 
by solar or wind is many times larger than that of conventional 
plants or nuclear plants. So this would be interference in 
their paths or whatever, and we found that out even for birds 
in California. We have had instances where there have been 
problems with birds because they are on the route that the 
birds fly.
    Mr. Bishop. Thank you. I do have a question about the 
footprint that we are talking about with this kind of mining 
but let us wait until the next panel to do that. I will yield 
back.
    Mr. Grijalva. Thank you very much. Since the Ranking Member 
and I afforded extra questions, Mr. Heinrich, any follow ups?
    Mr. Heinrich. No, I think I will wait for the next panel.
    Mr. Grijalva. Ms. Lummis.
    Ms. Lummis. Well, just to comment, Mr. Chairman.
    In Wyoming, we have the only natural trona deposit outside 
of a small deposit in California that exists in North America, 
and now all of the trona mines in southern Wyoming are 
dominated by foreign-owned companies, but it is true that they 
have American workers, American management, and I asked some 
local people in Rock Springs, Wyoming, where these trona mines 
are located, if the community of Rock Springs was uncomfortable 
with the fact that now a majority of the trona mines in 
southern Wyoming are owned by foreign companies.
    I got the exact opposite reaction that I expected. What 
they told me was foreign-owned companies tend to take a longer 
view because they are not publicly traded on U.S. exchanges and 
so they are not chasing quarterly projections and profit 
numbers. Foreign-owned companies tend to take a longer-term 
view with regard to their employee base, their profit 
considerations, and what I heard in Rock Springs, Wyoming, what 
a stunner, was that they actually felt that having a majority 
of the trona companies in Wyoming being owned by foreign 
companies to be potentially beneficial.
    So that was counter-intuitive to me too, but that was the 
reaction I got even from local people.
    Mr. Grijalva. Mr. Heinrich, did you reconsider?
    Mr. Heinrich. Yes, I will keep this short.
    I just think what Ms. Lummis brings up is actually 
something we should keep in mind. It is easy to paint a broad 
brush when we are talking about energy independence, but I 
think there is a fundamental difference between being reliant 
on uranium from Canada and being reliant on Venezuela for oil. 
These are not equal situations, and today while we import 90 
percent of our uranium the vast bulk of it comes from places 
like Canada and Australia, that I think hardly pose the kind of 
strategic challenges that places like Iran and Venezuela pose 
for us in the international stage.
    Mr. Grijalva. Thank you.
    Panelists, thank you very much, and let me invite the next 
panel up, please.
    Thank you very much for being at the hearing. We appreciate 
it very much and, at the outset, let me once again remind that 
your written testimony and any other extraneous information 
will be part of the record and, if humanly possible, to try to 
get your oral testimony to five minutes, that would be helpful 
as well.
    Let me begin with Mr. Mark Trautwein, former staffer to 
Congressman Mo Udall. Welcome, sir, and your comments.

  STATEMENT OF MARK TRAUTWEIN, FORMER STAFFER TO CONGRESSMAN 
             MORRIS UDALL, SAN ANSELMO, CALIFORNIA

    Mr. Trautwein. Mr. Chairman, it is a great pleasure to be 
back in this historic room, albeit on the opposite side of the 
witness table, where I was privileged to work for more than 15 
years. From 1979 until 1991, I had the great honor of serving 
Mo Udall and, until 1995, George Miller, as the full Committee 
staffer responsible for jurisdiction over public lands, 
wilderness, and national parks.
    In that capacity, Chairman Udall designated me, in 1983, as 
the staff responsible for the Arizona Wilderness Act. I am here 
today because four members of the other body, in two separate 
letters, have cited that Act as the basis for their opposition 
to H.R. 644. Their theory is that the Act was a final 
disposition of the status of all lands on the Arizona Strip and 
that to tinker with that formula not only violates the 
agreement but also the entire spirit of Mo Udall's work.
    That is simply not the case, factually, and it is perverse 
to suggest that Mr. Udall would have found it inappropriate 
that others would seek to add to his conservation legacy. In 
fact, he hoped for nothing less.
    Mr. Chairman, I lay out the relevant legislative history of 
the Arizona Strip provisions of the 1984 Act for the record in 
my written statement.
    There are at least four factual reasons why the Arizona 
Wilderness Act and H.R. 644 are not comparable.
    First, they deal with entirely different questions. One is 
a wilderness act that sorted out which lands met the criteria 
for protection as wilderness. The other addresses the impact of 
a particular activity on the hydrology of the Grand Canyon, 
specifically, its water quality. That issue was never part of 
the wilderness process at all.
    Second, they cover different lands. Many, even most, of the 
lands addressed by H.R. 644 were never part of even the 
wilderness review process that culminated in the Arizona 
Wilderness Act.
    Third, the so-called ``release language'' of the 1984 law 
makes it clear that it was not even a final disposition of the 
wilderness review question. So even if Mr. Grijalva were 
proposing to designate additional wilderness on the Strip, 
which he is not, it would not violate any understanding 
codified in that law.
    Fourth, there have already been extensive changes to land 
status on the Strip since passage of the Arizona Wilderness 
Act, ACECs and large national monuments, all with the implicit 
approval of Congress. So if there was an understanding that the 
Act was a final disposition of land status, which it was not, 
it has long since been amended.
    This is, in fact, what Mr. Udall hoped for, that the 
Arizona Wilderness Act would serve as the catalyst for 
continuing attention to the protection of the Grand Canyon. If 
there is an ``understanding'' implicit in the Arizona 
Wilderness Act that Mr. Udall's work would be the final word on 
the Arizona Strip not to be rewritten by those who came after 
him, which is the underlying thesis of the Senate letters, I am 
quite certain Mr. Udall did not share it. In fact, I can think 
of no idea more contrary to Mo's most fundamental beliefs about 
the work he cared about so deeply.
    Mr. Chairman, Mo Udall was my hero and my mentor. I worked 
with him daily for 12 years crafting legislation that became 
his conservation legacy. It is highly distressing to me to see 
Mo's name invoked in support of a position I know, to an 
absolute certainty, he never would have taken. It is contrary 
to his core values, the values he taught me, the values he 
expected me to bring to every piece of legislation I was 
honored to staff for him, the values that made him the most 
remarkable man I have ever known and one of the most remarkable 
legislators this Congress has ever known.
    At every step of assembling that legacy, Mo's work was 
informed by what he often called his ``love of the land.'' He 
believed it was the duty of every generation to exercise its 
own love of the land to meet future challenges he could never 
anticipate. The suggestion that he would have thought that 
anyone, especially the Congress of the United States, was 
precluded by some deal or some judgment he had made a 
generation earlier from taking new action to express that love 
on the basis of new information and new evidence in an entirely 
different context is just utterly antithetical to everything he 
believed.
    I do not know what position Mo would have taken on the bill 
before the Subcommittee, but I do know the charge Mo would have 
given me. He would have wanted to know two things: Is there 
credible evidence of a problem that requires Congress to act, 
and is the solution proposed reasonable and effective? Those 
are the questions that Members of this Subcommittee and this 
Congress, in the House and the Senate, should address. No false 
fealty to a man or his work should serve as the pretext for 
refusing to do so.
    Mo's legacy is, and always will be, an enduring one, but Mo 
did not legislate on stone tablets, and he did not protect 
lands to prevent others from loving the land but to inspire 
them to carry on the great work. In the end, that is his true 
legacy, and if his name is to be invoked, let that be the cause 
it serves.
    Mr. Chairman, I am grateful for the opportunity to defend 
that legacy before you today.
    [The prepared statement of Mr. Trautwein follows:]

          Statement of Mark Trautwein, San Anselmo, California

    Mr. Chairman, it is a great pleasure to be back in this historic 
room, albeit on the opposite side of the witness table, where I was 
privileged to work for more than 15 years. From 1979 until 1991, I had 
the great honor of serving Mo Udall and, from 1991 to 1995, George 
Miller, as the full committee's staffer responsible for its 
jurisdiction over public lands, wilderness and national parks.
    I am here today, representing myself only and not affiliated with 
any interest group, to address certain assertions made in two separate 
letters by four current or retired members of the other body in which 
they point to the Arizona Wilderness Act of 1984 as their basis for 
opposing the bill before you today. Their theory is that the Act was a 
final disposition of the status of all lands on the Arizona Strip and 
that to tinker with that formula not only violates that agreement but 
also the entire spirit of Mo Udall's work. I am intimately familiar 
with that Act because Chairman Udall made me responsible for managing 
it, including gathering information, negotiating with all interested 
parties, and drafting bill and committee report language. I know of 
nothing, either implicit or explicit, in the Arizona Wilderness Act, 
Mr. Udall's sponsorship of it, or the events leading to its passage, 
that would support opposition to H.R. 644. Moreover, it is simply 
perverse to suggest that Mr. Udall would have found it inappropriate 
that others would seek to add to his conservation legacy. In fact, he 
hoped for nothing less.
    Let me briefly describe the relevant legislative history of the 
Arizona Wilderness Act. In 1983, Mr. Udall began the process of 
preparing legislation to resolve the Forest Service RARE II wilderness 
issue across Arizona. Simultaneously, but entirely independently of 
that process, negotiations were initiated by a mining company, Energy 
Fuels Nuclear, with other stakeholders to address wilderness questions 
specifically on the Arizona Strip. These negotiations considered the 
wilderness suitability not only of Forest Service lands on the Strip, 
but also BLM lands. The company believed it had identified valuable 
uranium deposits and that their development might be impaired by future 
wilderness designations. This was especially problematic on the BLM 
lands because that agency, unlike the Forest Service, had not completed 
review of its wilderness study areas, and was years away from 
formulating wilderness recommendations to the President and the 
Congress.
    Those private negotiations were conducted without any direct 
Congressional involvement at all. They eventually resulted in 
stakeholder agreement about which Strip lands would be designated 
wilderness and which would not. The package was introduced as separate 
legislation by then-Rep. Bob Stump, but was incorporated by Chairman 
Udall into the Arizona Wilderness Act at markup as Title III.
    Neither the history nor the provisions of Arizona Wilderness Act 
support the idea expressed in the Senate letters that these events 
settled issues raised by H.R. 644. On the contrary, the two acts are 
entirely different in scope and purpose. The Arizona Wilderness Act is 
a wilderness act. It considered whether certain lands met the 
conditions set forth in the 1964 Wilderness Act for inclusion in the 
wilderness system. Mr. Grijalva's bill addresses the hydrology of the 
Grand Canyon ecosystem and the impact of one particular activity, 
uranium mining, on water quality. It is simply incorrect to state, as 
one letter does, that the Arizona Wilderness Act was designed to 
``ensure that the Grand Canyon watershed was fully protected''. It was 
designed to ensure that wilderness resources and values were protected. 
Watershed issues were never considered or addressed anywhere in the 
process leading to passage of the Arizona Wilderness Act and are beyond 
the scope of the wilderness process.
    The 1984 law and H.R. 644 do not even cover the same inventory of 
lands. The Arizona Wilderness Act considered only those lands in BLM 
and Forest Service wilderness study areas. It never examined at all 
vast tracts affected by H.R. 644 because those lands did not meet the 
criteria required to receive interim protection while they were studied 
for their wilderness suitability. While it is true that some of those 
lands that were studied and not designated wilderness in 1984 are 
included in Mr. Grijalva's bill, many were not. The majority of lands 
covered in the current bill were never reviewed at all, for anything, 
not even for wilderness, in 1984.
    Even if Mr. Grijalva were proposing to designate more wilderness, 
which he is not, the bill would not violate what the Senate letters 
call ``the understanding'' of the Arizona Wilderness Act. That act, by 
its own language, is not the final disposition even of the wilderness 
question on the Strip, much less land use questions of entirely 
different scope and impact. The statute's release language clearly 
requires the Forest Service to reconsider in subsequent planning 
cycles, which are supposed to be every ten years, the wilderness 
suitability of all lands not already designated. This is no accident. 
Release language was an extremely contentious issue that held up the 
passage of several statewide wilderness bills for a considerable time. 
Opponents argued persistently that lands not designated wilderness 
should be barred from future wilderness consideration. Some went even 
further with proposals that amounted to a Congressional directive that 
multiple use lands be free of any conservation protections. Mr. Udall 
was the prime advocate of the position that such lands could and should 
be reconsidered for wilderness at some future time. The bill as enacted 
adopted his position, as did all other RARE II wilderness bills.
    BLM lands are not subject to the same statutory cyclical planning 
process as Forest Service lands. Therefore, they did not require any 
comparable release language. Had it been necessary, however, Mr. Udall 
obviously would have taken the same position, that future reviews of 
land status are necessary and proper and that no Act of Congress, 
either implicitly or explicitly, ought to foreclose the possibility 
that future citizens, future agencies and future Congresses might 
propose additional protections on these lands. To see that defeated 
argument of so many years ago returning in the form of the rewritten 
history of the Senate letters is, to say the least, discouraging, 
especially when it has been stretched to argue against a bill that is 
not a wilderness bill, that addresses lands not even considered in the 
formulation of the Arizona wilderness bill and that protects those 
lands to an entirely different object and in an entirely different way.
    It is true, of course, that lands in wilderness study areas not 
designated wilderness by the Act lost their interim protections, to be 
managed for multiple use under applicable law. It is also true that the 
committee report accompanying the Arizona Wilderness Act contains 
rather detailed and extensive language laying out how uranium mining 
might proceed with respect to lands outside BLM's Grand Wash Cliffs 
Wilderness and the Forest Service's Kanab Creek Wilderness. But that 
language reflects an understanding of specific facts related to 
specific actors 25 years ago that no longer apply.
    In any event, Congress did not direct that such development must 
actually occur. To release lands back to multiple use, as the Arizona 
Wilderness Act did, only meant that development might, or might not, 
take place as determined by the relevant agencies acting in accordance 
with applicable law. In fact, only one of the mines discussed by the 
report language--the Hack Canyon mine--was ever developed. Energy Fuels 
Nuclear went bankrupt not long after passage of the Act. One would have 
to say that the Act's release language requires the Forest Service to 
consider anew the possibility of extending wilderness protections to 
the very lands adjacent to the Kanab Creek Wilderness that were the 
subject of that report language, where development did not occur and 
wilderness resources remain intact. Even if Mr. Grijalva were proposing 
wilderness on lands already considered by the Arizona Wilderness Act, 
he would not be violating either its language or its spirit. He is not, 
and the plain language of the Act clearly belies the notion that the 
Arizona Wilderness Act was intended to be some kind of barrier against 
new protections, freezing lands use decisions made in 1984 for all 
time. It should go without saying that nothing in the Arizona 
Wilderness Act precludes the Congress from imposing additional 
protections of any kind, based on new facts and new evidence or new 
values.
    And the plain facts are that land status on the Arizona Strip 
already has changed, and profoundly so, since passage of the Arizona 
Wilderness Act. ACEC's have been designated and large national 
monuments proclaimed, and implicitly if not explicitly ratified by 
Congress, all without any objections that ``heavy-handed government 
interference'' from Washington violated a generation-old 
``understanding'' that nothing more would ever change. (In one sense 
there is irony in this argument, because in the case of the BLM lands 
on the Strip the Arizona Wilderness Act was itself Congressional 
interference in BLM's uncompleted administrative wilderness review 
process under Section 603 of FLPMA.) I am utterly confident that this 
is exactly what Mr. Udall would have hoped would happen, that the 
Arizona Wilderness Act would be the catalyst for continuing concern and 
attention to protection of the Grand Canyon ecosystem, not less.
    If there is an ``understanding'' implicit in the Arizona Wilderness 
Act that Mr. Udall's work would be the final word on the Arizona Strip 
not to be rewritten by those who came after him, which is the 
underlying thesis of the Senate letters, I am quite certain Mr. Udall 
did not share it. In fact, I can think of no idea more contrary to Mo's 
most fundamental beliefs about the work he cared about so deeply.
    Mr. Chairman, Mo Udall was my hero and my mentor. I worked with him 
daily for 12 years crafting legislation that set a new standard for 
stewardship of the lands and resources that sustain us all. It is 
highly distressing to me to see Mo's name invoked in support of a 
position I know to an absolute certainty he never would have taken. It 
is contrary to his core values, the values he taught me, the values he 
expected me to bring to every piece of legislation I was honored to 
staff for him, the values that made him the most remarkable man I have 
ever known and one of the most remarkable legislators this Congress has 
ever known.
    Mo was rightly proud of his legacy as the greatest conservation 
legislator in American history. Thanks to his leadership, the national 
park system, the national wildlife refuge system, and the national 
wilderness preservation system were all more than doubled in size. The 
Alaska Lands Act, which was forged in this very room that bears his 
name, was the single greatest stroke of conservation in the history of 
man. At every step of assembling that legacy, Mo's work was informed by 
what he often referred to as his ``love of the land''. He believed it 
was the duty of every generation to exercise its own love of the land 
to meet future challenges he could never anticipate. The suggestion 
that he would have thought that any citizen or group of citizens or the 
Congress of the United States was precluded by some deal or some 
judgment he had made a generation earlier from taking new action to 
express that love, on the basis of new information and new evidence in 
an entirely different context, is just utterly antithetical to 
everything he believed.
    Mo wouldn't have gone as far as Thomas Jefferson, who believed all 
laws should expire every 25 years because no generation has the right 
to impose its rules on the next. But he was very Jeffersonian in his 
belief that every generation has the right and the duty to create its 
own world. He saw conservation as a dynamic process across time, an 
ongoing story to be written and rewritten every generation. Mo often 
talked about how as a younger man the mountains that ring Tucson were 
distant things, and that the city limits didn't even reach a ring of 
parks and wilderness areas that nearly surround it. But in his 
lifetime, Tucson had grown up to and beyond those mountains. The 
natural areas that used to be so distant are now islands in an urban 
sea. Mo talked about this often because he felt so strongly that you 
could never be visionary enough when it came to the land and you could 
never deny to any generation its opportunity and its responsibility to 
take care of it. It is more than a little appropriate that today you, 
Mr. Chairman, represent much the same community that he did, that you 
occupy the chairmanship of a vital subcommittee that Mo entrusted only 
to his most valued partners, John Seiberling and Bruce Vento, and that 
you share his love of the land.
    I don't know what position Mo would have taken on the bill before 
the subcommittee and I have no worthwhile opinion on its substantive 
merits. But I do know the charge Mo would have given me. He would have 
wanted to know two things--is there credible evidence of a problem that 
requires Congress to act, and is the solution proposed reasonable and 
effective. In the matter before you today those are the questions 
members of this subcommittee and this Congress, in the House and the 
Senate, should address. No false fealty to a man or his work should 
serve as the premise for refusing to do so.
    Mo's legacy is and always will be an enduring one. But Mo did not 
legislate on stone tablets. And he did not protect lands to prevent 
others from loving the land but to inspire them to carry on the great 
work. In the end, that is his true legacy, and if his name is to be 
invoked, let that be the cause it serves.
    Mr. Chairman, I am grateful for the opportunity to defend that 
legacy before you today.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Before the next witness, 
in 1974, I got elected to a school board back home, and Mo was 
my congressman for forever, and he wrote me a congratulatory 
note: ``Raul, congratulations,'' and then underneath it, ``Are 
you sure about this?'' I have kept that forever.
    Let me now ask Professor David Kreamer, hydrologist and 
university professor, Las Vegas, Nevada. Welcome, Doctor, and I 
look forward to your comments.

 STATEMENT OF DAVID K. KREAMER, PH.D., PROFESSOR OF HYDROLOGY, 
            UNIVERSITY OF NEVADA, LAS VEGAS, NEVADA

    Dr. Kreamer. Thank you, Chairman Grijalva, and thank you, 
Committee. My name is David Kreamer. I am a Professor of 
Hydrology at the University of Nevada, Las Vegas, Department of 
Geoscience. I have taught at Arizona State University and the 
University of Arizona. I am an officer in the International 
Association of Hydrogeologists and director of the National 
Ground Water Association's Association of Ground Water 
Scientists and Engineers. The National Ground Water Association 
is the largest groundwater association, not only in the United 
States, but in the world.
    I am not speaking on behalf of any of those institutions or 
professional organizations but as a professional 
hydrogeologist.
    I have been studying the Grand Canyon since the 1980's. I 
first visited it in the 1960's. My research team was the first 
to find elevated uranium concentrations in Horn Creek below 
Orphan Uranium Mine in the Grand Canyon, as a result of which, 
in the Horn Creek area, there was a sign put up to warn people 
about the high uranium concentrations in the water.
    We looked at the isotopes Dr. Singh mentioned, the 
environmental isotopes, back in the eighties and nineties, 
uranium isotope disequilibrium, and other elements to try and 
link groundwater and see where it was moving in the Grand 
Canyon.
    I am concerned about the potential contamination of uranium 
mining in the Grand Canyon, and I support House Bill 644. I am 
not only concerned about water contamination and water quality 
but also water quantity. Mining in breccia pipes would 
necessarily pierce perched aquifers in the Grand Canyon that 
feed high springs on the Hermit Shale-Coconino Sandstone 
contact.
    In addition to that, the uranium activities themselves 
require water. One uranium mine alone, if you look at the 
Canyon Uranium Mine EIS in the 1980's, the amount of water they 
would use would be enough to supply several small springs and 
seeps in the Grand Canyon, and if that water was taken away 
from the groundwater system, it would eradicate those springs.
    The mining works on top of uranium mines build dikes and 
dams and berms to prevent ore on the surface and spoils on the 
surface from contacting surface water floods. These breccia 
pipes are historical recharge areas. The mining works 
themselves would reduce recharge by impounding water that would 
normally recharge the Redwall-Muav aquifer down below. So I am 
concerned about water quantity as well in the Grand Canyon.
    The science has shown that it is unreasonable to assume 
that there is no connection between groundwater in the Grand 
Canyon in the rims and the springs. The isotopes show that it 
is likely that those are connected.
    It is unreasonable to assume that water supplied to mining 
is trivial, particularly if more than one mine begins mining in 
the Grand Canyon region.
    It is unreasonable to assume that the surface structures--
the dams, dikes, and berms--will not reduce recharge to the 
Redwall-Muav aquifer, and that is if they do not fail and flood 
the subsurface with contaminated water.
    It is unreasonable to assume that mining in the Hermit 
Shale aquifer will not pierce the perched aquifer system in the 
Grand Canyon.
    It is unreasonable to assume that potential pollution to 
drainages in the Grand Canyon will not occur, and it is 
unreasonable to assume that no potential huge cleanup costs 
will be associated with any pollution that does occur. Orphan 
Uranium Mine surface cleanup alone, under circle of the 
Superfund, is $15 million. There is no estimate yet for what 
the underground water cleanup would be and what the cleanup 
would be for the Horn Creek down below.
    By allowing uranium mining in the Grand Canyon, we are 
really like the sorcerer's apprentice, opening up an 
environmental box that does not follow precautionary principles 
that we often follow in the environment.
    The hydrologic indications are that the springs will be 
impacted in some way, that the ecosystems that depend on those 
springs will be impacted, and that there is a potential for 
water quantity and quality impact in the Grand Canyon.
    I would like to thank the Committee very much for allowing 
me to testify this morning. Thank you very much.
    [The prepared statement of Dr. Kreamer follows:]

  Statement of David K. Kreamer, Professor, Department of Geoscience, 
                    University of Nevada, Las Vegas

    I wish to thank Chairman Grijalva and the Subcommittee for the 
opportunity to testify, and for your leadership in addressing this 
important issue. This testimony is in support of the Grand Canyon 
Watersheds Protection Act of 2009 (H.R. 644). I am a Professor of 
Hydrology at the University of Nevada, Las Vegas (UNLV) where I have 
been studying groundwater--surface water interaction in the Southwest, 
and in the national parks in particular. I have visited the Grand 
Canyon since the 1960s and have conducted research on Grand Canyon 
springs for over 25 years. I have authored several publications related 
to Grand Canyon springs. This testimony does not represent the views of 
the University of Nevada, or any of the institutions with which I have 
past or present affiliation. My past affiliations include Director of 
Water Resources Management Graduate Program at UNLV, and I have taught 
at Arizona State University and the University of Arizona in the 1970s 
and 80s. I also serve as Secretary of the U.S. National Chapter of the 
International Association of Hydrogeologists, and on the Board of 
Directors of the National Ground Water Association, Association of 
Ground Water Scientists and Engineers.
    My research group was the first to study uranium concentrations in 
water from various springs in the Grand Canyon, including Horn Creek 
(which is below the site of the abandoned Orphan Uranium Mine on the 
Rim). In 1995 we discovered elevated uranium levels in Horn Creek (92.7 
ppb), which is above the EPA Maximum Contaminant Level Goals (0 ppb), 
and in excess of the EPA Maximum Contaminant Levels (30 ppb). This 
provided part of the impetus for the Park Service to clean up the 
Orphan Mine site under the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA). The cost for remediation of 
the Orphan Mine's surface area is estimated at $15 million (Phase 1), 
but costs to remediate contamination in the underground portion of the 
mine and in Horn Creek are unknown (Washington Independent July 22, 
2008).
    My comments in this testimony are restricted to my areas of 
professional and academic experience in hydrology, water quality, and 
geology. Specifically, I would like to address the potential that 
mining, in or near the Tusayan Ranger District and Federal land managed 
by the Bureau of Land Management in the vicinity of Kanab Creek and in 
House Rock Valley, can negatively impact the quantity and quality of 
spring water issuing in the Grand Canyon, and thereby impact human 
health and safety, and wildlife habitat that those springs support.
Background
    I have researched spring water quality and quantity in the Grand 
Canyon with my graduate students since the 1980's, particularly looking 
at environmental tracers and groundwater-surface water connections. 
Environmental tracers are water quality parameters which are useful in 
understanding groundwater movement and flow. The value of these tracers 
includes: tracking subsurface water migration, revealing evidence to 
show hydrologic connection between aquifers and springs, dating the 
entry of rainfall infiltrating into the subsurface, and specifying 
ground water recharge areas and amounts of recharge.
    On the basis of this research and that of others, I am profoundly 
concerned that mining in or near the Tusayan Ranger District and 
Federal land managed by the Bureau of Land Management in the vicinity 
of Kanab Creek and in House Rock Valley will damage the quantity and 
quality of Grand Canyon springs, and the plants and animals that depend 
on those springs. The springs support a rich diversity of animals, 
birds, insects and plants, and provide water for backcountry hikers and 
Native Americans.
    Uranium mines in the arid Southwest use water, which is usually 
supplied from wells or imported from springs. These types of mines in 
the Grand Canyon area typically excavate vertical and horizontal shafts 
into, or near, breccia pipes, which are geologic collapse features and 
zones of historical groundwater recharge. Breccia pipes are abundant in 
the region, form vertical zones of angular clasts surrounded by a 
consolidated rock matrix originally formed by the caving-in of 
paleochannels in underlying rock, and can form ground surface 
depressions and sink holes (Huntoon, 1996). Many potential mine sites 
are located in these sinkholes which can be subject to surface 
flooding. This type of uranium mine generates ore and waste rock which 
is typically stockpiled on the land surface until shipment to a mill 
takes place. Local precipitation and surface runoff waters can be in 
contact with this surface uranium ore. Certain mining activities, such 
as the interception of water by wells, creation of vertical shafts, the 
diversion of surface water, and the collection of surface water into 
holding ponds, has the potential to alter the amount and quality of 
water recharging the aquifers surrounding Grand Canyon National Park.
Diminishment of Spring Water Quantity
    Water is necessary at mining operations to support drilling, 
potable water supply and sanitary needs. Wells in the Grand Canyon 
region typically are over 2000 feet deep, tapping the Redwall-Muav 
aquifer. This same Redwall-Muav formation is the level in the Canyon 
where the large majority of springs discharge (approximately halfway 
down the Canyon vertically). Previous uranium mining in the Grand 
Canyon region estimates that this water usage would be, at a minimum, 
over 2.5 million gallons per year for one mine (Canyon Uranium Mine 
EIS, 1986). There are many springs and seeps in the Grand Canyon that, 
according to the U.S. Geological Survey and other investigators, have 
discharge similar to these amounts, or even much less. Some of these 
springs and seeps are ephemeral, and the biotic communities associated 
with them are very vulnerable to the abstraction of water and reduction 
of flow. Multiplying potential mining water use by the number of 
potential mine sites, coupled with the up-gradient location of 
potential mine sites, a majority of springs and seeps in the Grand 
Canyon could be eliminated and/or critically diminished in flow. The 
work of our research group at the University of Nevada, Las Vegas with 
environmental tracers (including stable and radiogenic isotopes, trace 
elements, chlorofluorocarbons, and uranium isotope disequilibrium 
measurements) shows compelling supporting evidence for existence of a 
hydrologic connection between the aquifers surrounding the Canyon and 
the springs within the Canyon (Goings, 1985; Zukosky, 1995; Fitzgerald, 
1996; Ingraham et al., 2001).
    Also, the deep, drilled wells associated with projected mining 
operations throughout the Grand Canyon region, and the mine shafts 
themselves, have the potential to pierce smaller perched aquifers in 
the overlying Coconino Sandstone (approximately one-quarter of the way 
down the Canyon vertically), which supplies water to springs higher up 
on the wall of the Canyon. In one uranium mine in the Grand Canyon 
region, a perched aquifer was encountered during exploratory drilling 
operations. Long-term downward drainage and water disruption potential 
of the mining operation was estimated to be over 1.3 million gallons 
per year (Canyon Uranium Mine EIS, 1986). Piercing a perched aquifer 
would have the effect of draining the perched aquifer, and disrupting 
flow to springs issuing from the Coconino Sandstone-Hermit Shale 
contact and the underlying Supai Group.
    The historical water recharge to the subsurface in potential mining 
areas could be altered by surface mining structures. These structures 
include diversion channels, berms, dikes, or barriers to surface flow. 
These structures are designed, in part, to minimize contact of surface 
ore piles and waste rock with surface water runoff. Eventually this 
impoundment of surface water would manifest itself as diminished 
groundwater recharge and spring flow. Retention of surface water would 
unbalance the groundwater equilibrium between recharge and spring 
discharge, and could also affect the timing of downward water 
percolation, and eventually spring water quality.
Diminishment of Spring Water Quality
    The disruption to the normal recharge processes (vertical water 
flow in the subsurface) by mining operations will not only change the 
underground pathway and quantity of spring and creek flow within the 
Grand Canyon, it is likely to also change the quality of those waters. 
As may be obvious, lower flows may produce less dilution of dissolved 
components, but surprisingly, high flows coupled with a change in 
water's oxidation level as it descends in the subsurface, can increase 
sulfate, magnesium, carbonate, and even uranium concentrations (Hockley 
et al., 2000). Elevated uranium concentrations in spring water that my 
research team observed in Horn Creek, below the rim of the Grand 
Canyon, were at a time of high flow.
    Vertical and horizontal shafts built with uranium mining will be 
expected to change water quality in the Canyon. The effects on water 
quality of expanded uranium mining near the Rim of the Grand Canyon, 
irreversible environmental impacts of those changes, and the cost of 
cleaning up contamination from those operations is not defined at this 
time for receiving waters.
Summary
    Scientific evidence suggests that the exploitation of uranium 
resources near the Grand Canyon will be intimately connected with the 
groundwater aquifers and springs in the region. The hydrologic impacts 
have a great potential to be negative to people and biotic systems. I 
believe that an assumption that uranium mining will have minimal impact 
on springs, people and ecosystems in the Grand Canyon is unreasonable, 
and is not supported by past investigations, research, and data. 
Therefore, I support passage of H.R. 644. In my best professional 
judgment, I believe H.R. 644 will help preserve clean water and the 
sustainable natural resources that water supports, in this treasured 
region of our country. In my view, at the same time it will support 
recreational economic interests and indigenous peoples of the region.
    I greatly appreciate the opportunity to address this issue and wish 
to thank the Subcommittee.
                                 ______
                                 
    Mr. Grijalva. Thank you. Mr. Bill Hedden, Executive 
Director, Grand Canyon Trust, welcome, sir.

         STATEMENT OF BILL HEDDEN, EXECUTIVE DIRECTOR, 
             GRAND CANYON TRUST, FLAGSTAFF, ARIZONA

    Mr. Hedden. Thank you, Chairman Grijalva, Mr. Bishop, and 
Members of the Subcommittee. It is an honor to be here today.
    I need to begin by amending my written testimony to thank 
Secretary Salazar for his action yesterday segregating lands 
from uranium mining in direct response to the resolution of the 
House Resources Committee. I am here today to urge you to make 
those protections permanent.
    Various actions, beginning with Theodore Roosevelt's 1908 
designation of Grand Canyon National Monument, have ended 
mining in most of the watersheds draining into the canyon. Only 
the areas around Kanab Creek, House Rock Valley, and the 
Tusayan District of the Kaibab National Forest remain 
unprotected, but those areas are awash in 11,000 uranium mining 
claims, most filed in the last few years, the 21st century 
claim-staking frenzy conducted under the 19th century auspices 
of the 1872 Mining Law.
    From bitter experience, we, in the Southwest, know what 
uranium mining looks like close up. Native people are still 
suffering from the illness and poisonous waste left behind by 
the last boom, prompting every tribe with cultural ties to the 
Grand Canyon to oppose new uranium mining there.
    Wherever the mess has been cleaned up, the taxpayers have 
been stuck with the bill. Near my home in Moab, Utah, DOE has 
just begun to remove 16 million tons of toxic uranium waste 
from the bank of the Colorado River. The company that left the 
tailings and pocketed the cash fled into bankruptcy, leaving 
the taxpayers with a remediation bill of a billion dollars, but 
what other choice was there? The mess was draining into the 
water supply for 25 million people.
    In 1979, an earthen dam breached, dumping 1,100 tons of 
radioactive wastes and 90 million gallons of poison water into 
a tributary of the Little Colorado River.
    In 1984, a flash flood sent four tons of high-grade ore 
down Kanab Creek and into the Grand Canyon.
    Today, you have heard about the concerns of the Havasupai 
Tribe. A year ago, a notorious flood caused the evacuation of 
400 hikers in the Grand Canyon from Havasu Canyon, and they are 
rightly concerned about the water and about their sacred places 
and their way of life in the canyon.
    If you take a short walk west along the rim from the El 
Tovar, you come to the remains of the Orphan Mine, aptly named. 
For years, tourists were cordoned off from the head frame and 
other structures by yellow tape, making it look like the crime 
scene that it, arguably, was. The Park Service has been 
investing $15 million of our money to remove the surface 
remains but can do nothing about the contamination that is 
polluting Horn Creek far below in the canyon.
    The 1872 Mining Law was administered to allow private 
companies to mine on any public lands that have not been 
formally withdrawn. Government solicitors have recently argued 
that once a valuable deposit has been established, there is 
virtually nothing that can be done to prevent mining, even in 
the case where undue degradation is anticipated.
    Two years ago, the Forest Service began approving uranium 
exploration projects within scant miles of the visitors' center 
at the South Rim through so-called ``categorical exclusions'' 
with no analysis of public involvement. My group and our 
environmental colleagues challenged this lack of scrutiny in 
Federal court and secured a favorable settlement requiring 
environmental assessments in the future.
    During the court proceedings, a typically optimistic lawyer 
for the mining company said to the judge, ``With all due 
respect, Your Honor, there is probably more radiation in this 
courtroom than there is at one of our drilling sites,'' to 
which the judge replied, ``With all due respect, Counselor, my 
courtroom is not one of Seven Wonders of the World.''
    Whatever your thoughts on the future of nuclear power, a 
uranium boom that defiles the Grand Canyon is in nobody's best 
interests. We do not need the relatively small amount of the 
uranium to be found there. Arizona has less than eight percent 
of America's assured reserves, or four-one-thousandths of one 
percent of the world's supply. Wyoming and New Mexico have five 
times as much and our close allies, Australia and Canada, are 
leading world producers.
    Yesterday, the Grand Canyon Trust released a poll reporting 
that two-thirds of the voters in Arizona, including the two 
counties surrounding the Grand Canyon, support stopping future 
mining on public lands near the park. Arizonans clearly agreed 
that the Grand Canyon Watershed Protection Act should be passed 
before yesterday's secretarial withdrawal expires. Thank you.
    [The prepared statement of Mr. Hedden follows:]

             Statement of Bill Hedden, Executive Director, 
                 Grand Canyon Trust, Flagstaff, Arizona

    Thank you, Mr. Chairman and members of the subcommittee for 
convening this hearing. It is an honor to testify before you today.
    My name is Bill Hedden. I am the executive director of the Grand 
Canyon Trust. I am also president of the North Rim Ranch LLC, which 
owns and operates an 850,000 acre public lands cattle ranch adjacent to 
the Grand Canyon.
    The Trust is a regional conservation group dedicated to protecting 
and restoring the Colorado Plateau, which encompasses more than 120,000 
square miles of spectacular canyon country formed by the upper Colorado 
River and its tributaries. It includes the Grand Canyon and the largest 
concentration of national parks, monuments, and recreation areas in the 
United States. It is also home to some of our country's most diverse 
and vulnerable populations of plants and animals.
    Throughout our history, the Trust has sought to protect Grand 
Canyon National Park from threats within and outside of the Park's 
boundaries. We worked closely with Senator McCain in passing the 1987 
Grand Canyon Overflights Protection Act to restore the Canyon's 
``natural quiet'' by reducing noise from aircraft tours over the Park. 
In 1991, we successfully negotiated with owners of Navajo Generating 
Station a decision to reduce by 90 percent the coal plant's sulfur 
emissions that were impairing visibility within the Grand Canyon. The 
Trust later assisted in passing the Grand Canyon Protection Act of 1992 
to assure that water releases from Glen Canyon Dam would minimize 
adverse impacts to ecological, cultural, and recreational values along 
the Colorado River. Today I encourage you to continue that tradition of 
protecting this unique place.
Need for Immediate Action
    There really is only one Grand Canyon. There are places where we 
shouldn't allow industrial developments like uranium mining, and the 
Grand Canyon is preeminent among those special places.
    The Grand Canyon Watersheds Protection Act would prevent new mining 
claims in the last unprotected watersheds that drain directly into the 
Park. The bill will withdraw from mining federal lands in the Kanab 
Creek area and in House Rock Valley managed by the Bureau of Land 
Management, as well as in the Tusayan Ranger District of the Kaibab 
National Forest south of the Canyon. A small portion of the proposed 
withdrawal area located in the Tusayan District lies within the Little 
Colorado Watershed.
    In 1908, President Theodore Roosevelt established Grand Canyon 
National Monument. According to historian Donald Hughes, the ``primary 
effect'' of establishing the monument ``...was to forbid prospecting 
and mining on all lands in the Grand Canyon.'' Other actions by federal 
and tribal governments now prohibit uranium mining in major watersheds 
of the Colorado River within Grand Canyon. These include the Paria, 
Little Colorado, Diamond, Spencer, Whitmore, and Separation Canyon 
watersheds.
    More than a year ago, administration officials testified that there 
were nearly 11,000 uranium mining claims, most filed in the last few 
years, within the area proposed for withdrawal. Under Secretary of 
Agriculture Mark Rey testified to this subcommittee on June 5, 2008 
that there are ``...approximately 8,500 mining claims filed in the 
portion of the proposed withdrawal under the Bureau of Land 
Management's management and 2,100 claims have already been filed in the 
portion of the proposed withdrawal under the Forest Service's 
management.''
    New claims are still being filed, placing the Grand Canyon and the 
Colorado River, which supplies drinking water for nearly 25 million 
people, at risk. Letters of concern about new uranium mining have been 
submitted by directors of the Metropolitan Water District of Southern 
California, the former Governor of Arizona, and the Southern Nevada 
Water Authority.
    Last year, members of the House Committee on Natural Resources 
recognized these risks and passed an Emergency Resolution to forestall 
another uranium boom. On June 25, 2008, the U.S. House of 
Representatives Committee on Natural Resources issued an Emergency 
Resolution directing the Secretary of the Interior to withdraw nearly 
one million acres of federal land near Grand Canyon National Park, 
referencing the map associated with the Grand Canyon Watersheds 
Protection Act of 2008.
    Chairman Grijalva, thank you for your leadership and thanks to 
those members of the Committee who joined in taking this decisive 
action to halt new mining claims. Regrettably, threats from uranium 
mining around the Grand Canyon have accelerated since your vote.
    The Secretary of Interior ignored the Resolution and changed the 
rules that required his compliance. Despite our lawsuit challenging 
this failure to act, authorizations for exploratory drilling are 
continuing in direct violation of the Emergency Resolution. We are 
challenging these actions in court. The Resolution was based on the 
Committee's finding that an emergency exists due to the potential 
development of hundreds of uranium claims within a few miles of the 
Park. A Secretarial withdrawal pursuant to the Resolution would prevent 
the development of mining claims for three years after the date of the 
withdrawal and not affect valid and existing mineral rights.
    New state permits are now being issued to begin operations at three 
uranium mines located within the proposed withdrawal area. Arizona 
state aquifer and air permitting has been reinitiated on three existing 
mines in the Grand Canyon area--the Canyon, Pinenut and Arizona One 
mines. The deadline for public comment is tomorrow. All three mines 
were built in the 1980s, are owned by Denison Mines, a Canadian and 
Korean-owned company, and are not subject to the emergency resolution.
    This weekend, Havasupai tribal members are planning to protest the 
opening of one of these mines located near the base of Red Butte. It is 
their sacred place of emergence and a prominent landmark for visitors 
when entering Grand Canyon National Park.
    Uranium mining is threatening the sacred places and waters of 
people who have lived in the Grand Canyon for centuries. We must not 
further industrialize the lands around the park and we cannot risk 
poisoning the waters that drain directly into it. We have seen that 
happen before.
Damages Caused by Uranium Development
    Damages caused by prior uranium development in our region are well-
documented. Native people are still suffering from the poisonous filth 
left behind during the last big uranium boom. In 2005, the Navajo 
Nation outlawed uranium mining and processing on its 27,000 square-mile 
reservation.
    At Chairman Grijalva's March 28, 2008 hearing in Flagstaff, Navajo 
President Joe Shirley said: The tragedy of uranium's legacy extends not 
only to those who worked in the mines, but to those who worked and 
lived near the mines that also experienced devastating illnesses. 
Decades later, the families who live in those same areas continue to 
experience health problems today. The remnants of uranium activity 
continue to pollute our land, our water, and our lives. It would be 
unforgivable to allow this cycle to continue for another generation. 
Hopi, Kaibab Paiute, Hualapai, and Havasupai leaders joined President 
Shirley in testifying to ban uranium mining on public lands surrounding 
the Grand Canyon.
    Hundreds of mines and mills were developed in watersheds upstream 
from Grand Canyon. In 1979, an earthen dam breached, releasing eleven 
hundred tons of radioactive mill wastes and ninety million gallons of 
contaminated water into a tributary of the Little Colorado River. The 
EPA and the U.S. Department of Interior acknowledge that contaminated 
water from many additional impoundments of toxic tailings has washed 
into our region's watercourses. Collectively, these events correlate 
with documented risks and harm to people's health.
    Near my home in Utah, DOE contractors are just now beginning to 
remove a 16-million ton pile of uranium mill tailings from the Colorado 
River's floodplain. Following bankruptcy of the responsible company, 
more than $1 billion in taxpayers' dollars will be spent to restore the 
land and water at the site, where milling operations, but not 
contamination of the river, ceased twenty five years ago.
    Grand Canyon watersheds form steep tributaries and narrow canyons 
that become torrents during downpours, such as occurred in Havasu 
Canyon less than a year ago. In 1984, a flash flood washed four tons of 
high-grade uranium ore down Kanab Creek and into the Grand Canyon. 
Extreme weather events such as these are becoming more frequent, and 
flooding risks will increase in the Southwest as the climate warms. 
According to the most recent government report on climate change, 
``...a warmer atmosphere and an intensified water cycle are likely to 
mean not only a greater likelihood of drought for the Southwest, but 
also an increased risk of flooding.''
    The Orphan Mine continues to contaminate springs below Grand 
Canyon's South Rim. National Park Service contractors recently removed 
the mine's surface structures within the fenced industrial area 
adjacent to Powell Point, a popular Canyon overlook. The price tag to 
complete the cleanup is estimated to exceed $15 million.
    New uranium mining similarly threatens groundwater and springs 
throughout the Grand Canyon. Radioactive residues from previous mining 
activities continue to contaminate Grand Canyon's springs and streams. 
The National Park Service advises against ``drinking and bathing'' in 
Kanab Creek, Horn Creek, and the Little Colorado River where 
``excessive radionuclides'' have been found.
    Precipitation falling on plateaus north and south of the Park 
creates Grand Canyon's only native waters--waters derived in place--as 
they percolate through porous, faulted, and fractured rock units to 
discharge later as springs and seeps below the canyon's rim. Mining 
mobilizes uranium that has been trapped in sedimentary layers for 
millions of years. When oxidized, it readily dissolves and can become a 
persistent poison in springs such as those feeding Vasey's Paradise, 
Thunder River, and Elves Chasm.
    The National Park Service also reports, ``Spring discharge'' 
provides base flow to the Colorado River, and provides drinking water 
to wildlife and Park visitors in an otherwise arid environment. Springs 
also support valuable riparian habitats, where species diversity is 100 
to 500 times greater than the surrounding areas. Grand Canyon springs 
are often locations of exceptional natural beauty and many hold 
cultural significance to Native Americans in the region.''
    I believe that mining and industrialization are incompatible with 
protecting the experiences of millions of annual visitors from around 
the world, and I am also concerned about cumulative threats to 
wildlife. Exploratory drilling and uranium mining in Grand Canyon's 
watersheds increase construction and heavy vehicle traffic on crowded 
roads and in remote areas, producing visibility-impairing dust and 
disruptive noise. New roads and power lines fragment the landscape, 
interrupt wildlife movement, and reduce natural habitat for endangered 
species such as the California condor. Native vegetation is destroyed, 
increasing opportunities for invading species. Remember that many of 
the claims at issue are within a mile or two of the Park visitor 
center.
Why H.R. 644 is Needed
    The Grand Canyon Watershed Protection Act is needed because the 
1872 Mining Law is generally administered as allowing private companies 
to mine on all public lands that have not been formally withdrawn. Once 
valid rights are established, regulations do little to prevent the 
potential for long-term contamination. And rosy scenarios about how 
mining has improved must bear a difficult burden of proof. In a study 
comparing predicted to actual water quality impacts from hard rock 
mining, 100 percent of mines predicted compliance with water quality 
standards, but 76 percent of those mines exceeded water quality 
standards after operations began.
    Agency policies also tend to favor mining interests in expediting 
mineral development. In 2007, the Kaibab National Forest used a so-
called categorical exclusion to approve exploratory drilling of 39 test 
holes in the Havasu watershed without any analysis of environmental 
impacts and little public notice or input. When it approved the 
exploration, the Forest Service said the 1872 Mining Law specifically 
authorizes mining on public lands, and it could not prohibit the 
activity.
    The Trust joined with the Center for Biological Diversity and 
Sierra Club in filing a suit to challenge this abrogation of duties 
under the National Environmental Policy Act. The case was settled last 
year when the Forest Service agreed to rescind the approval and prepare 
environmental assessments for public review before authorizing any 
further drilling activities. The Forest Service has begun the NEPA 
process. In November, the Grand Canyon Trust joined others in 
submitting extensive ``scoping comments.''
    As described earlier, the Arizona Department of Environmental 
Quality is issuing final permits for three uranium mines in the area. 
Federal agencies granted approval in the 1980s, and state permits 
issued more than a decade ago are still considered valid despite the 
enormous subsequent increase in claims in the immediate area. Mining 
will be allowed to proceed, even though little research has ever been 
done to evaluate the likelihood of groundwater contamination. Without 
baseline data, it is impossible to assess contamination to aquifers 
that supply springs in Grand Canyon National Park.
    A June 5, 2009 letter sent to Secretary of Interior Ken Salazar by 
former U.S. Senator Dennis DeConcini representing Arizona and Senator 
Orrin Hatch from Utah said: ``It is important to note that research 
conducted by the USGS and preliminary findings by the University of 
Arizona confirm that uranium mining and exploration pose no threat to 
the Grand Canyon watershed or to the Park.'' Their statement 
mischaracterizes the Final Report submitted to the Water Quality Center 
in December 2008. We agree with what the report actually says: 
``Continued measurements should be made such that a baseline can be 
made before future mining activity commences or accidental release 
occurs.'' In the absence of such data, all uranium development in Grand 
Canyon watersheds should stop.
    We also reject the Senators' proposal that mining and exploration 
be permitted while a National Academy of Sciences Research Council 
conducts a public process to review impacts of uranium mining in the 
region. Such a process would allow private interests to profit as known 
risks and liabilities to public interests accumulate.
    The Grand Canyon Watershed Protection Act is an appropriate 
response to the recent surge in unproven uranium claims on the very 
borders of Grand Canyon National Park.
Our National Interest
    President Theodore Roosevelt considered the Grand Canyon to be the 
natural wonder in America. He firmly believed that the national 
interest requires protecting it from the pressures of industrial 
exploitation.
    Whatever your thoughts on the future of nuclear power, a mining 
boom that defiles the Grand Canyon in search of small amounts of 
uranium is in nobody's best interest. Uranium deposits around the Grand 
Canyon are not needed to meet our energy needs. Uranium deposits in all 
of Arizona represent only .004% of the world's reasonably assured 
uranium supply. Uranium reserves in the region comprise less than eight 
percent of our domestic reserves, while more than 80 percent of U.S. 
reserves are found in Wyoming and New Mexico. Uranium is also abundant 
in such closely allied countries as Canada and Australia.
    Many of our region's leaders and citizens are expressing concerns 
about this issue. Today, the Grand Canyon Trust is releasing a poll 
reporting that two-thirds of voters in the counties that surround Grand 
Canyon, and virtually the same number throughout Arizona, support 
stopping future mining claims on publicly owned lands near the Park. 
Clearly, Arizonans agree that we should protect the Grand Canyon for 
future generations.
    The Grand Canyon Watersheds Protection Act complements a series of 
foresighted actions that began in 1908, when President Roosevelt 
designated the Grand Canyon as a National Monument.
    We join him today in asking that ``in the interest of the 
country...keep this great wonder of nature as it now is.--man can only 
mar it. Leave it as it is.''
    Thank you. I would be pleased to answer any of your questions.
References
Page 2
http://www.grandcanyontrust.org/whatsnew/documents/Uraniumclaimsmap
        updated.April9_08pdf.pdf
http://www.biologicaldiversity.org/programs/public_lands/mining/pdfs/
        LA-Water-District-GC-Uranium.pdf;
http://www.biologicaldiversity.org/programs/public_lands/mining/pdfs/
        Uranium-Napolitano-Kempthorne-etter.pdf
http://resourcescommittee.house.gov/
        index.php?option=com_jcalpro&Itemid=
        27&extmode=view&extid=257
http://www.propublica.org/article/rush-interior-dept-rule-overrides-
        congress-125
Page 3
http://www.nytimes.com/gwire/2009/05/06/06greenwire-blm-authorizes-
        grand-canyon-uranium-exploratio-10572.html
http://www.sric.org/uranium/PUERCO92.html
http://www.epa.gov/region09/superfund/navajo-nation/pdf/NN-5-Year-Plan-
        June-12.pdf
http://pubs.usgs.gov/sir/2008/5110/
Page 4
http://www.ksl.com/?nid=148&sid=6374303
http://www.azcentral.com/news/articles/2008/08/18/20080818canyonflood-
        on-CP.html
http://cpluhna.nau.edu/Change/uranium.htm
http://globalchange.gov/images/cir/pdf/southwest.pdf
http://washingtonindependent.com/481/sidebar-the-story-of-orphan-
        uranium-mine; http://pubs.usgs.gov/sir/2004/5146/
http://www.nps.gov/grca/naturescience/waterquality.htm
http://resourcescommittee.house.gov/images/Documents/20080328/
        testimony_
        shuey.pdf
Page 5
http://www.grandcanyontrust.org/whatsnew/documents/UraniumissueAZGFD
        report2007_000.pdf
http://www.pr.state.az.us/publications/downloads/SCORP_2008_Chapters_3-
        4.pdf
http://www.thecanyon.com/webpage.php/swmc/webpages/nps
http://www.earthworksaction.org/pubs/ComparisonsReportFinal.pdf.
http://www.grandcanyontrust.org/whatsnew/documents/UraniumJuly
        2009HatchDeConciniltrtoSalazar.pdf
Page 6
http://www.grandcanyontrust.org/lib/documents/UraniumUofAStudy_
        Sanchez_final2008_prelim_evaluation.pdf
http://www.vanityfair.com/politics/features/2009/05/teddy-roosevelt-
        excerpt
        200905?currentPage=1
http://www.eia.doe.gov/fuelnuclear.html
http://www.world-nuclear.org/info/inf75.html.
                                 ______
                                 
    Mr. Grijalva. Clarinda Vail, Properties Manager, Red 
Feather Lodge, welcome, and thank you for being here, and I 
look forward to your comments.

STATEMENT OF CLARINDA T. VAIL, PROPERTIES MANAGER, RED FEATHER 
                 LODGE, INC., TUSAYAN, ARIZONA

    Ms. Vail. Good morning, Mr. Chairman and Members of the 
Committee. It is an honor to be speaking in front of you today. 
My name is Clarinda Vail. I am a lifelong resident and third-
generation business owner in Tusayan, the gateway community 
located one mile south of Grand Canyon National Park.
    I, many of my colleagues, and local entities support H.R. 
644. We are concerned about potential uranium mining on public 
lands located in the Kaibab National Forest. We do not believe 
that an area so close to such a natural wonder as the Grand 
Canyon should be open to mining on public lands. Mining on this 
Federal property would negatively impact our area, and I am in 
full support of a withdrawal of this land from mining.
    The Mining Act of 1872, in my opinion, should be revised 
because it allows mining companies to run roughshod over public 
lands. Uranium mining would impact our area in many ways and 
provide no funds for the impacts that they would cause to 
things such as schools, emergency services, fire protection, 
and roads. Our area cannot afford more improvements on Federal 
lands that do not pay property taxes to our local needs.
    As president of our local school board of the only K-12 
school inside of a national park, I know firsthand the impact 
of a National Park Service Concessionaire conducting business 
on Federal property without paying property taxes needed, both 
for the current operation and to pay off bonds that their past 
valuations were used for. It has created a massive tax burden, 
since these properties came off the tax rolls a few years ago. 
Our local property owners cannot afford another burden like 
this.
    If companies want to do business of any kind on Federal 
property, they should pay for the impact they cause. When they 
do not pay property taxes, they have an unfair market advantage 
over the companies on private property. This is an unfair 
market advantage that the Federal government has created for 
them.
    As an active citizen in my community, county, state, and 
country, I am appalled, almost in disbelief, that it is 2009, 
and mining companies are still allowed to mine on Federal 
property without paying a penny to the Federal government or 
local entities. The Mining Act should be changed to make them 
pay as if they were on private property. If these companies are 
good corporate citizens, they should offer it up and agree that 
this is the right thing to do.
    There is only one Grand Canyon National Park. It is 
special, and the area should not be desecrated. When you look 
at a map of all of these test sites that the Kaibab National 
Forest Service is dealing with in some form or another, even a 
small percentage of these becoming mines could be just too much 
for our area to handle for free.
    I am also concerned that this large-scale mining will 
impact wildlife in the area. Unit 9, which is located in the 
Kaibab National Forest, is an area known for producing world-
class elk. The large acreage that could be affected would 
likely destroy habitat and disrupt wildlife populations and 
migration patterns.
    I would think that this mining would directly contradict 
the Arizona Game and Fish and Rocky Mountain Elk Foundation 
goals for wildlife in the area. They have achieved many of 
these goals and paid for many improvements for the wildlife 
around Grand Canyon. An EIS should be conducted on impacts to 
wildlife if these lands are not withdrawn from new mining 
development. The area cannot handle a major influx of new 
residents. Housing is extremely limited near the Grand Canyon, 
and Tusayan's private property taxes are already some of the 
highest in the State of Arizona.
    More recreation facilities are needed just for the current 
residents. Phone and power needs are already stretched, and our 
water is limited and valued like gold. Tusayan has done 
everything it can to conserve water with our expensive, A+ 
quality and award-winning reclaimed system. Tusayan has reduced 
its potable water usage by 50 percent. Caring about this 
precious natural resource should matter to us all and 
especially to this Subcommittee. I do not know what all of the 
impacts could be to water but know that an EIS would be needed 
with regards to it if these lands were not removed.
    We are a rural area with its entire economy based on 
tourism. The communities of Tusayan and Grand Canyon Village 
and our entire region are set up to accommodate those services. 
An EIS study would need to be conducted on the economic and 
road impact to the region if this property were not removed. 
This would mean more costs for the Forest Service.
    It is unknown what extra truck traffic could be created 
with this mining. I imagine extra semi-trucks along the winding 
areas of Highway 180 or Highway 64, highways that are already 
busy, especially during our high-season months, with tourism-
related traffic, roads that do not have enough passing lanes 
for the motor homes and buses already on them.
    The proponents may say that this will create jobs during 
the recession. Do not believe it. Grand Canyon National Park is 
one of the most important tourist attractions America has to 
offer. Millions come from around the world each year. We hear 
all languages being spoken daily at our hotel and on the rim. 
To permit anything that could intrude on this experience could 
cost far more jobs via reduced tourism than any gain with free 
uranium mining.
    All of these concerns make me think that government must do 
its job here, care about what impacts they could be creating, 
and care about the possible experience of the Grand Canyon 
being tarnished. The tourist experience means everything to us 
at Grand Canyon, and it should mean the same to all of our 
elected officials in the United States.
    Thank you for bringing this issue to the forefront, for 
listening to my concerns, for your service to our great 
country, and I am happy to answer any questions you may have.
    [The prepared statement of Ms. Vail follows:]

Statement of Clarinda T. Vail, Properties Manager, Red Feather, INC. & 
         Tusayan Land and Cattle Company, Grand Canyon, Arizona

    Honorable Members of the Committee,
    As a lifelong resident and third generation business owner in 
Tusayan, the gateway community located one mile south of the Grand 
Canyon National Park, I, many of my colleagues and local entities 
support H.R. 644. We are concerned about potential uranium mining on 
public lands located in the Kaibab National Forest.
    We do not believe that an area so close to such a natural wonder, 
as the Grand Canyon, should be open to mining on public lands. Mining 
on this federal property would negatively impact our area and I am in 
full support of a withdrawal of this land from mining.
    The mining act of 1872, in my opinion, should be revised because it 
allows mining companies to run roughshod over public lands. Uranium 
mining would impact our area in many ways and provide no funds for the 
impacts they would cause to things such as schools, emergency services, 
fire protection and roads. Our area cannot afford more improvements on 
federal lands that do not pay property taxes to our local needs.
    As president of our local school board of the only K-12 school 
inside of a national park, I know first hand the impact of the National 
Park Service Concessionaires conducting business on federal property 
without paying property taxes needed, both, for current operations and 
to pay off bonds that their past valuations were used for. It has 
created a massive tax burden, since these properties came off of the 
tax rolls a few years ago. Our local property owners cannot afford 
another burden like this. If companies want to do business of any kind, 
on federal property, they should pay for the impact they cause. When 
they don't pay property taxes, they have an unfair market advantage 
over the companies on private property. This is an unfair market 
advantage that the federal government has created for them.
    As an active citizen in my community, county, state and country I 
am appalled, almost in disbelief, that it is 2009 and mining companies 
are still allowed to mine on federal property without paying a penny to 
the federal government or the local entities. The mining act should be 
changed to make them pay as if they were on private property. If these 
companies are good corporate citizens they should offer it up, and 
agree this is the right thing to do.
    There is only one Grand Canyon National Park. It is special, and 
the area should not be desecrated. When you look at a map of all of the 
test sites that the Kaibab National Forest Service is dealing with, in 
some form or another, even a small percentage of these becoming mines 
could be just too much for our area to handle for free.
    I am also concerned that this large-scale mining will impact 
wildlife in the area. Unit 9, which is located in the Kaibab National 
Forest is an area known for producing world-class elk. The large 
acreage that could be affected would likely destroy habitat and disrupt 
wildlife populations and migration patterns. I would think that this 
mining would directly contradict the Arizona Game and Fish and Rocky 
Mountain Elk foundation goals for wildlife in the area. They have 
achieved many of these goals and paid for many improvements for the 
wildlife around Grand Canyon. The area is special to the wildlife. An 
EIS should be conducted on impacts to wildlife if these lands are not 
withdrawn from new mining development.
    The area cannot handle a major influx of new residents. Housing is 
extremely limited near the Grand Canyon, mainly, because of all the 
federal property. Tusayan's private property taxes are already some of 
the highest in the state of Arizona, more recreational facilities are 
needed for just the current residents, phone and power needs are 
already stretched and our water is limited and valued like gold. 
Tusayan has done everything it can to conserve water with our 
expensive, A+ quality and award winning, reclaimed system. Tusayan has 
reduced its potable water usage by 50%. Caring about this precious 
natural resource should matter to us all and especially to this 
subcommittee. I don't know what all the impacts could be to water, but 
know that an EIS would be needed with regards to it if these lands were 
not removed.
    We are a rural area with its entire economy based on tourism. The 
communities of Tusayan the Grand Canyon Village, and our entire region, 
are set up to accommodate those services. An EIS study would need to be 
conducted on the economic and road impact to the region, if this 
property were not removed. This would mean more costs for the Forest 
Service.
    It is unknown what extra truck traffic could be created with this 
mining. I imagine extra semi-truck traffic along the winding areas of 
HWY 180 or HWY 64. Highways that are already busy, especially during 
our high season months, with tourism related traffic. Roads that don't 
have enough passing lanes for the motor homes and buses already on 
them.
    All of these concerns make me think that government must do its job 
here, care what impacts they could be creating and care about the 
possible experience of the Grand Canyon being tarnished. The tourist 
experience means everything to us at Grand Canyon and it should mean 
the same to all of our elected leaders in the United States.
    Thank you for bringing this issue to the forefront, for listening 
to my concerns, for your service to our great country and I am happy to 
answer any questions you may have of me.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me now ask Dr. Karen Wenrich, 
Research Geologist, U.S. Geological Survey, Retired. Welcome.

   STATEMENT OF DR. KAREN WENRICH, RESEARCH GEOLOGIST, U.S. 
          GEOLOGICAL SURVEY, RETIRED, GOLDEN, COLORADO

    Dr. Wenrich. Thank you, Mr. Grijalva. I am Karen Wenrich, 
and I received a Ph.D. I am a research geologist, and I worked 
for 25 years for the U.S. Geological Survey on both mining-
related and environmental projects. After my retirement, I 
worked for the International Atomic Energy Agency in Vienna, 
Austria, on peaceful uses of atomic energy, and while I was at 
the IAEA, I was a co-recipient of the Nobel Peace Prize in 
2005.
    The race for military nuclear supremacy during and 
following World War II resulted in the rapid development of a 
worldwide uranium-production industry. The frantic pursuit of 
these early military programs created environmental hazards and 
health risks throughout the world that left a multi-billion-
dollar, Cold War uranium-production legacy. Lessons learned 
from this legacy have had a profound influence on modern 
uranium production. The industry has come a long way from the 
time when tailings were left unprotected on the Navajo 
Reservation and allowed to be transported by water and wind 
into nearby streams and rivers.
    The mining industry has since learned to embrace the 
philosophy that it is more effective to prevent pollution than 
to clean it up. This can readily be seen by the reclamation of 
the Hack 1, 2, 3 mines over here on this poster, the Pigeon 
mine, which is underneath on another poster, and the Hermit 
mine. Not only can one no longer tell there was ever a mine 
present, but, in the case of the Hack 1 mine, the former mining 
company actually cleaned up the sprawling mine debris left over 
from the late 1800's through the 1940's.
    The mining ventures of the Navajo Reservation of the 1940's 
through 1960's are not relevant to the breccia pipe province 
because the Navajo mines were surface mines into an entirely 
different geological and hydrological environment and because 
mining technology and environmental practices used in the 
breccia pipe province are 21st century technology.
    Data from the 1980's and 1990's mines are available, and 
they need to be used rather than mere speculation on what might 
happen in the future. Mine safety for employees was strictly 
enforced in the breccia pipe mines in the Arizona Strip. During 
the previous mining operations of the 1980's and 1990's, there 
were never any mine fatalities. In fact, the worst accident was 
an employee smashing his son with a hammer.
    Ventilation within the mines was excellent because there 
was minimal exposure of miners to radon gas and its daughter 
products. Smoking was strictly prohibited.
    It is interesting to note that the cancer incidence rate 
among Native Americans from McKinley and San Juan Counties with 
uranium mines is far lower than the average rate among Native 
Americans in other New Mexico counties where there is no known 
occurrence of uranium or history of uranium mining. This does 
not support the claim of increased cancer due to uranium 
mining.
    It is natural for people to fear what they do not 
understand. A common comment against uranium mining has been 
that pollution around homes in old uranium districts has been 
as high as 100 parts per million. Such a level is no more than 
what is emitted by massive granite cores to many mountain 
ranges.
    A good frame of reference for the average American 
concerned about uranium contamination is to remember that a 
rock containing one percent natural uranium, ten-thousand parts 
per million, or what is a maximum average grade of breccia 
pipes, can be held on a person's head for four hours, and the 
person will receive no more radiation than they would from a 
medical x-ray.
    In the Athabasca Basin, Saskatchewan, Canada, more than 50 
percent of Cogema's uranium mine staff are native people. Local 
tribes in Northern Arizona could, likewise, prosper from the 
mining. The royalties that the State of Arizona receives from 
these mines should not be dismissed by a state that is in 
financial strife. Previous uranium mining in 10 separate mines 
has had absolutely no detectable negative impact on tourism. 
Quite the contrary: The old head frame of the Orphan Mine that 
was located within the Grand Canyon National Park was a tourist 
attraction, a symbol of the powerful magnet that brought early 
settlers westward.
    This Orphan Mine has subsequently been used as an example 
of uranium contamination as a result of mining. It was actually 
the National Park Service itself that integrated the mining 
claims into the park in 1988 and allowed the mine to remain 
unreclaimed until the present, despite an offer from Energy 
Fuels Nuclear to reclaim the mine for free. Now, there are 
claims of millions of tax dollars needed to clean it up when 
there should have been no cost to taxpayers, only to the 
industry that offered to clean it up for free.
    These are the highest-grade uranium deposits in the U.S. 
Prior to 1989, over 71 breccia pipes were drilled and 
identified to have ore-grade mineralization, ore bodies on the 
average of five million pounds of uranium each, which brings 
its total value to $200 million per pipe after expenses. This 
times 71 pipes comes to $14 billion. If this bill goes through 
as requested, is the government prepared to pay $14 billion for 
the takings plus whatever has been discovered since 1989, which 
could bring the total to $28 billion? Could not such money be 
better spent on educating our children or on medical research?
    On the Kanab Plateau, where eight of the producing mines 
are located, down-hole data indicates that the Redwall-Muav 
aquifer is the only significant source of groundwater within 
the area and is under significant artesian pressure. The high 
artesian pressure is an excellent safeguard, preventing seepage 
from the mines on the Kanab Plateau from entering the Redwall-
Muav aquifer. Additionally, a 1,089-foot thick, unsaturated, 
practically impermeable layer of Supai Group Sandstone protects 
the aquifer.
    Water analyses were taken actually between April 29th and 
May 15th, 1991, in a water well above the Muav Redwall aquifer 
adjacent to the producing Kanab North Mine, and it shows that 
the uranium concentrations varied between 0.8 and 5.9 
micrograms per liter. This is actual data done by Titan 
Environmental that was done during the mining, so we have 
actual data from this period of the 1980's to the 1990's. I 
encourage the Committee to look at data from that period, not 
old data.
    This is lower than the uranium concentration in much of the 
nation's public drinking water and one to two orders of 
magnitude lower than the EPA's safe drinking level. The 
environmental footprint from each mine is small, smaller than--
--
    Mr. Grijalva. I think we need to wrap it up pretty soon.
    Dr. Wenrich.--I am going to--is smaller than a K-Mart 
parking lot and short lived, as the mine life was only five to 
seven years, with a temporary disturbance of only 15 acres. The 
water table seeps well below the level of mining. The mine is 
dry. There is no circulation of major Northern Arizona aquifers 
in any of the mining levels, so there is essentially little 
chance of contamination of the groundwater.
    There is no on-site processing, no chemicals, and all 
mining is above the water table. Underground mining emits very 
little dust. Waste rock is backfilled into the abandoned mine 
shafts and tunnels. Even the concrete from the former mining 
structures is broken up and backfilled into the uranium mine.
    Uranium mining in the region around the Grand Canyon----
    Mr. Grijalva. A pretty long wrap-up.
    Dr. Wenrich.--during the 1980's and 1990's clearly 
demonstrates that it can be done with no impact on the Grand 
Canyon watershed. Thank you.
    [The prepared statement of Dr. Wenrich follows:]

         Statement of Dr. Karen J. Wenrich, Research Geologist

    The race for military nuclear supremacy during and following World 
War II resulted in the rapid development of a worldwide uranium 
production industry. The adage, ``haste makes waste'', created this 
legacy. The frantic pursuit of these early military programs created 
environmental hazards and health risks throughout the world that left a 
multi-billion dollar Cold War uranium production legacy. Above ground 
military nuclear testing at the Nevada Test Site before and during the 
Cold War resulted in radioactive fallout in a trackway that runs across 
the Arizona Strip. These manmade radioactive isotopes can still be 
found in the soil today at levels far exceeding those of naturally 
occurring uranium or its daughter products from mining.
    Lessons learned from this legacy have had a profound influence on 
modern uranium production, thereby minimizing long-term environmental 
impact and health risks during uranium exploration, mining and milling. 
The industry has come a long way from the time when tailings were left 
unprotected and allowed to be transported by water and wind into nearby 
streams and rivers. The mining industry has since learned to embrace 
the philosophy that it is more effective to prevent pollution than to 
clean it up. This can readily be seen by the reclamation of the Hack 1, 
2, 3 mines, the Pigeon Mine and the Hermit Mine, where not only can one 
no longer tell there was ever a mine present, but in the case of the 
Hack 1 mine the former mining company actually cleaned up the sprawling 
mine debris left over from the late 1800s through the 1940s.
Geological & Historical Background
    Mining activity in the Grand Canyon breccia pipes began during the 
nineteenth century, although at that time production was primarily for 
copper with minor production of silver, lead, and zinc. It was not 
until 1951 that uranium was first recognized in the breccia pipes. 
Despite periods of depressed uranium prices, the breccia pipes 
commanded considerable exploration activity in the 1980's because of 
the high-grade nature of their uranium ore. During the period 1956-69, 
the Orphan Mine produced 4.26 million lb of U<INF>3</INF>O<INF>8</INF> 
with an average grade of 0.42% U<INF>3</INF>O<INF>8</INF> (Chenoweth, 
1986). The Orphan Mine is located within Grand Canyon National Park 
where the head frame projects above Powell Point commemorating our U.S. 
heritage through mining history. This history includes one of Teddy 
Roosevelt's Rough Riders packing his burro down the trails of the Grand 
Canyon to his Orphan mine where he dug for copper and silver during the 
end of the 19th century. In addition to uranium, 6.68 million lb of 
copper, 107 oz of silver, and 3400 lb of V<INF>2</INF>O<INF>5</INF> 
(vanadium oxide) were recovered from the ore (Chenoweth, 1986). Between 
1980 and 1988 four breccia pipes (Pigeon, Hack 1, Hack 2, Hack 3) were 
mined for uranium in northern Arizona with grades averaging 0.65% 
U<INF>3</INF>O<INF>8</INF> and total production of 13 million lbs of 
U<INF>3</INF>O<INF>8</INF> (Mathisen, 1987). During the end of the 
period of breccia pipe mining by Energy Fuels Nuclear, they had refined 
their mining methods and the average grade of ore production approached 
1% (I.W. Mathisen, oral commun., 1990).
    These breccia pipes are vertical pipe-like columns of broken rock 
(fig. 1); the breccia formed when layers of sandstone, shale and 
limestone collapsed downward into underlying caverns. Brecciation of 
overlying sedimentary strata formed thousands of pipe-shaped columns of 
breccia (fig. 2). Upward stoping through the upper Paleozoic and lower 
Mesozoic strata, involving units as high in the section as the Triassic 
Chinle Formation, produced vertical, rubble-filled, pipe-like 
structures (fig. 1). A typical pipe is approximately 300 ft in diameter 
and extends upward as much as 3000 ft (Wenrich and Sutphin, 1989).
    Breccia pipes extend across most of the Colorado Plateau in 
northwestern Arizona and into the Basin and Range Province (Wenrich and 
others, 1989). The potential for additional economic uranium 
mineralized breccia pipes is greatest beneath the flat plateaus where 
erosion and oxidation of the ore have been minimized (Wenrich and 
Titley, 2009). It is only on the Colorado Plateau, with its history of 
tectonic stability, that the uraninite has been preserved (fig. 3). 
Along the edges of the plateau and in the canyons, the ore-bearing 
minerals are usually oxidized to colorful secondary minerals (fig. 4) 
that are popular with mineral collectors. These mineral specimens lie 
in homes of mineral collectors and in most museums across the country 
and pose little threat to the casual viewer.
Human Impact
    The mining ventures of the Navajo Reservations of the 1940s through 
1960s are not relevant to the breccia pipe province, because the Navajo 
mines were surface mines into an entirely different geological and 
hydrological environment, and because mining technology and 
environmental practices used in the breccia pipe province are 21st 
century technology. Even if one does not trust the mining companies to 
self regulate, they are under strict control and monitoring by Arizona 
regulators governed by modern legislation and laws.
    It is natural for people to fear what they don't understand. One 
comment made against uranium mining has been that pollution around 
homes in old uranium districts has been as much as 100 ppm. Such a 
level is no more than what is emitted by massive granite cores to many 
mountain ranges. A good frame of reference for the average American 
concerned about uranium contamination is to remember that a rock 
containing 1% natural uranium (10,000 ppm) can be held on a person's 
head for 4 hours and the person will receive no more radiation than 
they would from a medical X-Ray (Paul Hlava, written communication, 
2008). The average breccia pipe ore is less than1% uranium.
    Mine safety for employees was strictly enforced in the breccia pipe 
mines of the Arizona Strip. During the previous mining operations of 
the 1980s and 1990s there were never any mine fatalities. In fact, the 
MSHA records show that for one of the 5 reclaimed mines about the worst 
accident was an employee smashing his thumb with a hammer. Ventilation 
within the mines was excellent, so there was minimal exposure of miners 
to radon gas and its daughter products. Smoking was strictly prohibited 
within the mines. Radon in itself is not the problem with its 3.8-day 
half-life; the miner breathes it in and breathes it out. It is actually 
the radon alpha emitting progeny (lead and polonium) in the form of 
aerosols that are the nasty devils. They attach themselves to various 
areas of the respiratory system. Epidemiological studies have shown 
that the lung cancer risk to smokers is 10-20 times greater than 
``never'' smokers at exposures to environmental levels of radon (such 
as 20-150 Bq/m3). The uranium industry now understands this increased 
risk that smoking miners have, and have adjusted their operations 
accordingly.
    It is interesting that the University of New Mexico Cancer Research 
Center records confirm that the cancer incidence rate among American 
Indians for McKinley and San Juan counties (with uranium mines) is far 
lower than the average rate among American Indians in other New Mexico 
counties where there is no known occurrence of uranium or history of 
uranium mining. This does not support the claim of increased cancer due 
to uranium mining. The U.S. Department of Health and Human Services, 
Indian Health Service (IHS) 2006 report ``Facts on Indian Health 
Disparities'' states ``The American Indian and Alaska Native People 
have long experienced lower health status when compared with other 
Americans. Lower life expectancy and the disproportionate disease 
burden exist perhaps because of inadequate education, disproportionate 
poverty, discrimination in the delivery of health services and cultural 
differences. These are broad quality of life issues rooted in economic 
adversity and poor social conditions.'' Breccia pipe mining would offer 
Indians a chance at improved economic status just as uranium mining has 
in the Athabasca Basin, Saskatchewan, Canada, where 50% of the staff 
for Cogema's uranium mines is native people.
Economic Impact
    Uranium mines have a significant impact on the economic condition 
of Northern Arizona. The opportunity for employment in economically 
ravaged towns such as Colorado City is enormous. During the 1980s and 
1990s this town as well as Fredonia, Arizona and Kanab, Utah saw 
reduction in poverty and welfare from wages earned by their citizens 
from the mines and associated jobs. The royalties that the State of 
Arizona receives from these mines should not be dismissed by a state 
that is in financial strife. Previous uranium mining in 10 separate 
mines has had absolutely no detectable negative impact on tourism. 
Quite the contrary--the old head frame of the Orphan Mine, located 
within Grand Canyon National Park, is a tourist attraction, a symbol of 
the powerful attraction that brought early settlers westward. The 
Orphan mining claim was first located in 1893 by a prospector named Dan 
Hogan who discovered copper on the south wall of the Grand Canyon, 1100 
feet below the rim. After serving as a Rough Rider during the Spanish 
American War, Dan Hogan returned to prospecting. In 1906 he filed for a 
mining claim patent on the Orphan Mine and his old Commandant, Theodore 
Roosevelt, signed it himself. From this it might be construed that 
Teddy Roosevelt believed in multiple land use, and that the beauties of 
the Grand Canyon could coexist with mining. The Orphan Mine was mined 
for uranium within Grand Canyon National Park from 1953 to 1969. The 
mine was situated off the scenic and well-traveled routes, resulting in 
most park visitors being unaware of the mine's existence. Similarly, 
the other 9 mines, 8 on the North Rim, are far from the view of most 
tourists. Mining has occurred for over 4 decades in the breccia pipe 
province, with only a positive financial impact on the economy of 
Arizona.
    The highest-grade uranium deposits in the United States, and some 
of the highest in the world, occur in a breccia pipe environment in 
northwestern Arizona. Prior to 1989 over 71 breccia pipes were drilled 
and identified to have oregrade mineralization (Sutphin and Wenrich, 
1989). These orebodies would have on the average of 5 million pounds of 
uranium each, which brings their total value, based on $100/pound 
uranium average this past year, to $500 million, or roughly $200 
million/pipe after expenses. This times 71 pipes with ore comes to $14 
billion. If this bill goes through as requested, is the government 
prepared to pay $14 billion for the takings, plus whatever has been 
discovered since 1989, which could bring the total to $28 billion? A 
precedent has been set for such remuneration for a takings: in United 
Nuclear Corporation vs BIA in 1983 the company asked for $75 million 
for a mining property that had been withdrawn and the court awarded the 
Plaintiff $67 million.
    Electricity generation in the U.S. is 19% nuclear power; providing 
domestic U.S. uranium to those plants would provide more jobs and cash 
flow for U.S. citizens. Such deposits give the U.S. a unique 
opportunity for energy self-sufficiency with fuel that is clean and 
emits no CO<INF>2</INF> gases. This is critical at a time when (1) 
there is intense global pressure for the U.S. to reduce its greenhouse 
gases, and (2) we are being held financially hostage by dependence on 
imported oil. Such dependence jeopardizes our national security, and if 
the trade routes are severed our country's economy could shut down. We 
send off our youth to fight patriotically in wars in foreign countries 
to defend our access to oil. Would it not be best to save thousands of 
their lives by demonstrating patriotism at home through support for 
uranium mining that is clean, safe and will put us on the path to 
energy independence? There would be no more need to find oil or to 
fight for oil in the Middle East, supporting regimes that we would not 
normally support. True patriotism is the ability to use our own 
resources to become free of foreign economies whose goal is to dominate 
our own.
Environmental Impact
    These deposits are higher grade than most uranium deposits 
elsewhere in the world, with the exception of the Canadian deposits 
(with an average grade around 20% uranium). However, the word uranium 
brings fear to many who live in Arizona because of the uranium legacy 
that was left behind on the Colorado Plateau over 50 years ago. Yet, 
these breccia pipe mines are different--the uranium is deep beneath the 
plateau surface, the mines are underground, and nothing extraneous is 
left on the surface after mine closure. The breccia pipe deposits were 
so successfully mined and reclaimed in the 1980s and early 1990s that 
few people even realize that there were eight producing mines in the 
Arizona Strip near the end of the 20th century. Today even uranium 
geologists can no longer find the location of the three former 
producing uranium mines that are located in Hack Canyon (figs. 6-7).
    An example of the distorted allegations against the clean safe 
mining that was carried out during the 1980s and 1990s on the Arizona 
Strip is manifested in testimony from one of the witnesses in the March 
2008 hearing in Flagstaff, AZ before this subcommittee. The witness 
alleged that there was a massive uranium spill of over 4 tons of high-
grade ore from the Hack Canyon mine, which flowed downstream into Kanab 
Creek. Yet, employees of the mine picked up all of the ore in 2 
wheelbarrows (that is hardly 4 tons). Additionally, they scanned the 
entire width of the canyon with scintillometers down the 8 miles to 
Kanab Creek, and found no anomalous radioactivity.
    Watershed Impact: The major aquifers in the Grand Canyon are the 
Mississippian-age Redwall and Cambrian-age Muav Limestones. The breccia 
pipe orebodies extend no deeper than the Esplanade Sandstone of upper 
Pennsylvanian age (fig. 5). On the Kanab Plateau (where 8 of the 
producing mines are located) down hole data (Titan Environmental, 1994) 
indicate that the Redwall-Muav aquifer (fig 5) is the only significant 
source of ground water within the area. No other continuous ground 
water sources were encountered on the Plateau in the overlying 
formations because these strata have been intersected and drained by 
the deep canyons and the large-scale faults associated with the 
formation of the plateaus (USGS, 1979). Additionally, on the Kanab 
Plateau, the only other aquifer in the Grand Canyon region of any 
significance above the Redwall Limestone is the Permian Coconino 
Sandstone, which pinches out in this area to a thickness of 0 north of 
the Hack Canyon Mine, where dissection is less. Within the Kanab 
Plateau area, the Redwall-Muav aquifer is under significant artesian 
pressure. This high artesian pressure is an excellent safeguard 
preventing seepage from the mines on the Kanab Plateau from entering 
the Redwall-Muav aquifer. Additionally, a 1,089-foot thick unsaturated, 
practically impermeable, layer of Supai Group Sandstone protects the 
aquifer (fig. 5). ``Therefore, it is inconceivable that mine seepage of 
substantially lower hydraulic head (20 ft) will ever seep through the 
Supai Group, even when geologic time is considered'' (Titan 
Environmental, 1994). Similarly on the south rim in Kaibab National 
Forest, the Environmental Impact Statement (1986, U.S. Dept of 
Agriculture) on the Canyon Uranium Mine concluded ``construction and 
operation of the Canyon Mine will not impact the Redwall-Muav aquifer, 
which is well below the shaft depth.''
    Statements were made that water from the Orphan Mine has been 
polluting Horn Creek. These are false statements intended to defame the 
mining operation. Rare can one see water coming from the Orphan Mine 
and going into Horn Creek. Most important though, is that actual data 
from a comprehensive USGS water report (Monroe and others, 2004) of the 
Grand Canyon shows no such pollution. Water analyses from 2000-2001 
show uranium concentrations at Horn Creek to be between 8.6-29 ppb. 
These values are within the EPA level of safe drinking water.
    The Orphan Mine has been used as an example of uranium 
contamination as a result of mining. It was actually the National Park 
Service that integrated the mining claims into the park in 1988 and 
allowed the mine to remain un-reclaimed from 1988 until the present 
despite an offer from Energy Fuels Nuclear to reclaim the mine for 
FREE. NPS rejected the offer and allowed the claims to remain un-
remediated for 20 years. It is important to note that this continued 
contamination was the result of government agency negligence, not that 
of a mining company. Despite all of this alleged contamination 
preliminary results from a new 2009 study by the University of Arizona 
show that uranium-mining activities near the Colorado River do not lead 
to contamination in the Colorado River. The study shows that what 
uranium is in the river occurs from natural uranium occurrences that 
are undisturbed by man.
    Water analyses taken between April 29, 1991 and May 15, 1991 in a 
water supply well into the Redwall-Muav aquifer adjacent to the 
producing Kanab North Mine shows uranium concentrations varying between 
0.8-5.9 ppb (mg/l) (Titan Environmental). This is lower than the 
uranium concentration in much of this nations public drinking water and 
1-2 orders of magnitude lower than the EPA safe drinking level of 30 
ppb. Water well samples from the Redwall/Muav aquifer (sampled between 
June, 1988 and October, 1994) adjacent to the Pinenut Mine on the Kanab 
Plateau had an average Total Dissolved Solids (TDS=the sum of dissolved 
calcium and other major elements such as magnesium, sodium) content of 
1695 ppm (parts/million or mg/l). The EPA maximum allowable amount for 
drinking water is 500 ppm. Hence, the natural water in the Redwall/Muav 
aquifer on the Kanab Plateau of the Arizona Strip is not fit for human 
consumption. The mining company could only use the water for showers 
for the miners; drinking water had to be hauled from Kanab. 
Furthermore, the well only produced about 10 gallons/minute (Donn 
Pillmore, written communication, 2008). From this it can be seen that 
the contribution of any water into the Colorado River from the Kanab 
Plateau is essentially negligible, and what is discharged is naturally 
contaminated with excessive amounts of dissolved solids and does not 
qualify as potable water.
    Even in the parts of the Grand Canyon region where the Redwall-Muav 
Fms provide a good drinking water supply their contribution, even when 
the entire Grand Canyon is considered in total, is almost imperceptible 
to the mighty Colorado River itself.
    The surface water impact of the mines is negligible even at Kanab 
Creek, because the level of the mine workings, at such mines as Kanab 
North that sits at the edge of Kanab Creek, is below the Kanab Canyon 
floor. All ore is trucked 300 miles into Utah, so little uranium-
mineralized rock will remain on the surface even during the mining 
operation.
    The uranium production industry is well aware that they are faced 
with the environmental legacy of early uranium production. The uranium 
industry has undergone a significant evolution in the level of 
environmental understanding and management practices over the past 30 
years. Experience has shown that there has been, and continues to be, 
ongoing development of enhanced environmental management practices in 
order to the meet the call from the public and the regulatory agencies 
for long-term environmental protection, and socio-economic benefits 
sharing with communities adjacent to the operations. Failure to 
incorporate best environmental practices in initial mining and milling 
plans can lead to such uranium legacies as we have witnessed in the 
past. The nuclear industry knows they cannot afford any more 
environment-damaging legacies.
    Higher-grade deposits, such as the breccia pipes, produce more 
uranium with less environmental footprint. The environmental footprint 
duration for each mine is short as the life for each mine in the past 
was only 5-7 years. There is only a temporary disturbance of three or 
four acres per mine, as the mines are underground. The water table is 
deep, well below the level of mining. The mines are dry. There is no 
circulation of major northern Arizona aquifers within any of the mining 
levels so there is essentially little chance of any contamination to 
the ground water. There is no on-site processing, no chemicals and all 
mining is above the water table. Underground mining emits very little 
dust. Waste rock and tailings can always be, and have been, back-filled 
into the abandoned mine shafts and tunnels. Even the concrete from the 
former mining structures was broken up and backfilled into the old mine 
workings. As in the past the area to be disturbed would be searched by 
an archeologist and any cultural features found will be either avoided 
or mitigated by detailed study. The area will also be studied by a 
biologist to see if there are threatened, endangered, protected, or 
other special status species or critical habitat present. There is no 
greater testimony to the mining and environmental success of these 
breccia pipe operations than a view of the previous operations in 
comparison to the current environment of the terrain (figs 6-9). This 
former mining company followed the modern mining philosophy: ``It is 
more effective to prevent pollution during mining operations than to 
clean it up later.''
    The mining impact from 1980-1995 when all mining ceased on the 
Kanab and Coconino Plateaus is so negligible that visitors today can no 
longer find where the 3 former reclaimed mines were located. Water 
analyses show no alteration to any of the aquifers. In testimony before 
the House Subcommittee the chairman of the Kaibab Piute Tribe claimed 
that ``the mining company went bankrupt and left leaving them with the 
mess''. Such a statement is irresponsible and has no factual basis, and 
can only be intended to mislead uninformed citizens to turn against the 
mining industry. ``Energy Fuels Nuclear (``The company'') did not go 
bankrupt. Its assets were sold to International Uranium Corporation. 
During that time all environmental required monitoring and sampling was 
continued. There was never any lapse in meeting these requirements. All 
of the mines that had been depleted were reclaimed as per BLM 
requirements and signed off on by the BLM and the bonds were released. 
The BLM made a documentary file of the Pigeon Mine reclamation to show 
other companies what ideal reclamation looked like. The mines that were 
not reclaimed were placed on standby and requirements for sampling and 
monitoring these facilities on standby has been performed on a regular 
basis. There were never any ore truck accidents that resulted in any 
spilled uranium on the Arizona Strip. Even though the Mt. Trumble Road, 
that was used for hauling ore, is a public county road (Mohave Co 109) 
Energy Fuels Nuclear made special provisions with the Paiute Tribe to 
haul across a corer of their reservation and offered to give them a 
college scholarship every year while ore hauling took place. The Tribe 
declined the scholarship in lieu of a $25,000 cash payment. That cash 
payment was made every year while ore hauling was taking place, even 
though there was no legal or social obligation to do so. Air monitors 
were placed along the haul road and up close to the village where the 
Tribe resides to establish a baseline and monitor for any increase in 
radiation. There never was any increase.'' (Donn Pillmore, written 
communication, 2008).
    This author challenges anyone to show a ``mess'' on the Kanab 
Plateau. What did happen was that the mining company paid the Kaibab 
Piute Tribe $25,000/year for the privilege to cross their reservation, 
on a county road open to the public, as a courtesy to the Indians. So 
when the company ceased ore hauling across their reservation on the 
county road no more payments were made to the Paiutes. In response, 
rather than being appreciative of the money that was provided to the 
tribe, we must listen to such vicious misleading statements as the 
money ``went away''. Would anyone continue to pay a rental car agency 
for a car they had returned and were no longer leasing? Then why should 
the industry be labeled as taking their money and leaving behind a 
mess. Such statements are false and downright hostile to an industry 
that has endeavored hard to treat its neighbors in a respectful and 
friendly manner
Summary
    1. Uranium mining in the region around the Grand Canyon during the 
past 30 years with its updated technology has clearly demonstrated that 
it can be done with NO impact on the Grand Canyon watershed. Hence, 
there is no mining to protect the Grand Canyon watershed from, and the 
``Grand Canyon Watersheds Protection Act of 2008'' is frivolous 
legislation. Mining was done for 15 years followed by a 13-year hiatus 
of no mining. During this hiatus no water analyses from in and around 
the Grand Canyon have detected any contamination with elevated 
radionuclide concentrations.
    2. Mining uranium from the breccia pipe district gives the U.S. a 
unique opportunity for energy self-sufficiency with fuel that is clean 
and emits no CO<INF>2</INF> gases. This is critical at a time when (1) 
there is intense global pressure for the U.S. to reduce its greenhouse 
gases, and (2) we are being held hostage by dependence on imported oil. 
This dependence has created wars. If we are truly patriotic we will 
look away from the ``not in my backyard'' approach, and salute mining 
to promote clean energy and independence from other nations who 
currently supply our fuel. With energy independence we might not be 
caught in international wars.
    3. We learn history in school so we learn from mistakes and can 
benefit from positive experiences. From 1980 to 1995 there were 15 
years of uranium mining from the region around the Grand Canyon with 
positive economic gains for the northern Arizona communities and the 
State of Arizona. There was NO negative impact to water, land, 
vegetation, air, or humans. The spots that were mined and reclaimed 
show no visible sign of where the mine was located. The history lesson 
here is that mining can be positive.
    4. Figure. 9 shows our dependence on energy fuels and metals. There 
is no indication that with our ever increasing population there will be 
any reduction in stresses on the land for mining. Each person in the 
U.S. will use 9383 pounds of uranium in their lifetime (Minerals 
Management Institute). The northern Arizona breccia pipes can fulfill 
this demand leaving no footprint in on the environment.
    5. To use the sins of a 60-year old uranium mining legacy to punish 
mining in a different district, which has clearly demonstrated safe 
clean mining practices, is like the past punishing of the Navajo Tribe 
by moving them eastward to Texas because of the sins of a few renegade 
Apaches.
References
    1.  Chenoweth, W.L., 1986, The Orphan Lode mine, Grand Canyon, 
Arizona, a case history of a mineralized, collapse-breccia pipe: U.S. 
Geological Survey Open-File Report 86-510, 126 p.
    2.  Mathisen, I.W., Jr., 1987, Arizona Strip breccia pipe program: 
Exploration, development, and production [abs.]: American Association 
of Petroleum Geologists Bulletin, v. 71/5, p. 590.
    3.  Monroe, S.A., Antweiler, R.C., Hart, R.J., Taylor, H.E., 
Truini, M., Rihs, J.R., and Felger, T.J., 2004, Chemical 
charactreristics of ground-water discharge along the south rim of Grand 
Canyon in Grand Canyon National Park, Arizona, 2000-2001., U.S. 
Geological Survey Scientific Investigations Report 2004-5146, 59p.
    4.  Sutphin, H.B. and Wenrich, K.J., 1989, Map of locations of 
collapse-breccia pipes in the Grand Canyon region of Arizona: U.S. 
Geological Survey Open-File Report 89-550, 1 plate with text, 
1:250,000.
    5.  Wenrich, K.J., Billingsley, G.H., and Huntoon, P.W., 1996, 
Breccia pipe and geologic map of the northeastern Hualapai Indian 
Reservation and vicinity, Arizona: U.S. Geological Survey Miscellaneous 
Investigations Series Map I-2522 (2 plates, scale 1:48,000, 16 p text).
    6.  Wenrich, K.J. and Sutphin, H.B., 1994, Grand Canyon caves, 
breccia pipes and mineral deposits: Geology Today, v. 10, no. 3, p. 97-
104.
    7.  Wenrich, K.J., Chenoweth, W.L., Finch, W.I., and Scarborough, 
R.B., 1989, Uranium in Arizona, in Jenney, J.P., and Reynolds, S.J., 
eds., Geologic evolution of Arizona: Arizona Geological Society Digest 
17, p. 759-794.
    8.  Wenrich, K.J. and Sutphin, H.B., 1989, Lithotectonic setting 
necessary for formation of a uranium rich, solution collapse breccia 
pipe province, Grand Canyon region, Arizona, in Metallogenesis of 
uranium deposits, Proceedings of a technical committee meeting on 
metallogenesis of uranium deposits organized by the International 
Atomic Energy Agency and held in Vienna, 9-12 March 1987: Vienna, 
Austria, International Atomic Energy Agency, p. 307-344.
    9.  Wenrich, K.J. and Titley, S.R., 2009, uranium exploration for 
northern Arizona breccia pipes in the 21st century and consideration of 
genetic models, in: Spencer, J.E. and Titley, S.R., eds., Ores and 
oregenesis circum-Pacific tectonics, geologic evolution, and ore 
deposits, Arizona Geological Society Digest 22, p. 295-309.
Author's Background
    Karen Wenrich received her Ph.D. from The Pennsylvania State 
University in Geology. She retired from the U.S. Geological Survey 
after 25 years of experience working on mining related and 
environmental projects. Following her retirement from the USGS she 
worked as a senior uranium geologist for the International Atomic 
Energy Agency (IAEA) in peaceful uses of atomic energy. While at the 
IAEA she was a recipient of the 2005 Nobel Peace Prize. She is the 
author of over 160 published papers.
    [NOTE: Figures have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Grijalva. Let me start with Mr. Trautwein. Thank you 
for being here.
    You mentioned in your testimony the release language that 
was controversial at the time of the AWA, but Chairman Udall 
fought very hard to include that in the final Act. Could you 
maybe elaborate on why Mr. Udall wanted to ensure that it was 
included? Opponents at the time argued that the lands not 
designated for conservation purposes should be barred from any 
future consideration, and Chairman Udall did not believe that 
that was good policy. Both of those points: Why wasn't it good 
policy, and why did he want to include that release language in 
there?
    Mr. Trautwein. That is correct, Mr. Chairman. First of all, 
let me thank you for your ``Mo story.'' Among all of us who 
knew him and loved him, one of our favorites leisure activities 
is to collect Mo stories. As you know, they are legion.
    In the early part of the eighties, the question of release 
language was a very significant controversy that held up the 
consideration of many wilderness bills, statewide wilderness 
bills, that were being legislated to resolve the, rare to 
Forest Service, wilderness review process and, as you said, the 
question was, what is the status of the lands that are not 
designated wilderness?
    Under the National Forest Management Act, the Forest 
Service has a statutory responsibility to engage in a cyclical 
planning process. The presumption is it will happen every 10 
years. As part of that process, they are required to review any 
lands that meet the criteria for wilderness set forth in the 
Wilderness Act for possible recommendation and action by 
Congress to designate them as wilderness.
    So the concern was what would happen to these lands that 
had been reviewed and not designated? Would they ever be 
reviewed for wilderness again by the Forest Service?
    It was the position of many people who opposed the 
wilderness bills that they should never be reviewed for 
wilderness ever again, that Congress should protect those 
lands, in effect, from ever being studied for wilderness again. 
That point of view actually found its way into a number of 
bills that came over from the Senate side.
    Mo strongly opposed that position. His belief was that 
these lands should be reviewed again periodically under the 
National Forest Management Act by the Forest Service and, 
potentially, by Congress, and he eventually won that argument.
    The provision in the Arizona Wilderness Act, which became 
boilerplate and was replicated in every statewide wilderness 
act, is that the lands that were released were considered to 
have been sufficiently reviewed in the current forest-planning 
cycle, but it made them available to be reconsidered in 
subsequent forest-planning cycles and, obviously, it has been a 
generation since passage of the Arizona Wilderness Act. We have 
now gone through several planning cycles since passage of that 
Act, so your lands would be eligible to be reconsidered as 
wilderness.
    Mr. Grijalva. One other point, Mr. Trautwein. As you know, 
there was a letter to me from Senator Kyle and Senator McCain 
that specifically said that AWA foreclosed Congress from taking 
any further action on the lands adjacent to the Grand Canyon. 
They cite that as the reason, the AWA, for why they choose not 
to take action on the Grand Canyon watershed issue from the 
impacts that could occur of uranium mining now.
    I think the legislative history you have provided in your 
testimony was important in disputing that claim, but I am 
wondering, were there other instances in which Chairman Udall 
advocated revisiting or expanding on his own legislative 
efforts?
    Mr. Trautwein. Well, I think you have to look no further 
than the Alaska Lands Act, which is his signature 
accomplishment. It is certainly the greatest stroke of 
conservation in the history of Man. It was forged in this very 
room. He always felt that the provisions addressing lands in 
Southeast Alaska on the Tongass National Forest were 
inadequate, and within, I believe, six or seven years, he was a 
very strong supporter of the Tongass Timber Reform Act, which 
would have designated additional wilderness in Southeast Alaska 
and addressed other questions that the Alaska Lands Act 
addressed.
    Mo viewed conservation as a dynamic process over time to 
which every generation brought its own understanding of what it 
meant to love the land, and he lived that belief himself, and 
certainly the Alaska Lands Act was a good example of it.
    Mr. Grijalva. Mr. Bishop?
    Mr. Bishop. Mr. Chairman, I would like unanimous consent to 
have a different issue be presented for the record. It is a 
letter from one of the key negotiators in that period of time 
on the Arizona Strip Wilderness Act, which may put a different 
light on some of the testimony we have had: a letter from 
myself, Mr. Hastings, and Mr. Beiner to Secretary Salazar; 
testimony from the Uranium Producers of America; the concurrent 
resolution passed by the Arizona House and Senate urging 
Congress to oppose efforts to withdraw lands from mining; a 
letter to you requesting the Administration to testify; a 
letter from Senator Hatch and former Senator DeConcini opposing 
withdrawal; I think the letter from Senator McCain and Senator 
Kyl, I think, you just referenced; and also the resolution from 
Mohave County supporting uranium mining. I would like for those 
to be put into the record.
    Mr. Grijalva. Without objection.
    Mr. Bishop. Thank you, sir.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Bishop. Let me ask just a couple of very quick 
questions. You are lucky Mr. Young is not here.
    Dr. Kreamer, you gave us some speculation there about the 
damages of mining activities to the Grand Canyon aquifer 
system. I would like you to try and deal with some hard 
science, if you could.
    During the eighties and nineties, are there any, any, peer-
reviewed, published reports on the Arizona Strip that show that 
there was contamination or discharge damage to the North Rim 
aquifer system from any previous mining that was done on these 
pipes in the eighties and nineties?
    Dr. Kreamer. Not that I am aware of in the North Rim, and I 
do object to speculation.
    Mr. Bishop. Don't we all? Dr. Wenrich, would you respond to 
that same question? Are there any peer-reviewed studies that 
demonstrate there was damage to the aquifer?
    Dr. Wenrich. No, not from the 1980's and 1990's, no.
    Mr. Bishop. Is there damage later on, or is there something 
that I am not seeing?
    Dr. Wenrich. No.
    Mr. Bishop. Do they say, then, quite the opposite?
    Dr. Wenrich. Yes, they do. We have a USGS report by the 
Water Resources Division by Monroe that actually shows the Horn 
Creek that Dr. Kreamer alleged had ninety parts per million 
uranium in it. They claimed that they could not reproduce 
those. They took the samples right from the spring head, which 
I believe Dr. Kreamer's samples came from down across the Tonto 
Trail, where there could have been later contamination by 
humans.
    The study by the U.S. Geological Survey covered a period of 
two years. The data ran from 8.6 ppb to 29 ppb below the EPA 
safe drinking level.
    So I am afraid that the analyses from Horn Creek are a bit 
misleading, and what I object to is the fact that we have good, 
hard, peer-reviewed science here, and Dr. Kreamer did not 
reference it, which I think is a pity.
    Mr. Bishop. I will come back to you on that same issue.
    Dr. Wenrich. OK.
    Mr. Bishop. Dr. Kreamer, let me ask you, did you actually 
do this, or was it a colleague of yours that did the initial 
study?
    Dr. Kreamer. No, no. I was actually involved in the study. 
It is Dr. Kreamer from the university.
    Mr. Bishop. Just do not call me ``senator.''
    Dr. Kreamer. That is all right, Congressman. Our work was 
peer reviewed. It was published last year by the University of 
Arizona Press. We did not sample at the Tonto Trail for our 
samples. Particularly, one of the high ones we found was 92.7 
micrograms per liter. That is three times the EPA limit. The 
level that Dr. Wenrich just referred to, 29, I believe, 
micrograms per liter, the EPA standard is 30, so it is just 
under the EPA limit.
    Over the course of a year, we sampled uranium 
concentrations in Horn Creek. The average was 48 micrograms per 
liter. We did occasionally go below 30 micrograms per liter.
    I might point out that the NCO is 30 micrograms per liter, 
but the recommended EPA limit is zero.
    Mr. Bishop. I am actually going to come back here, but how 
do you reconcile the fact that there are three other studies 
that contradict the findings that you had?
    Dr. Kreamer. They do not contradict it, sir.
    Mr. Bishop. Well, Dr. Wenrich, was that what you were 
saying?
    Dr. Wenrich. Well, I am saying these are a more recent 
study, and they could not replicate those high values, and his 
studies are his data result, and I have not seen it published.
    Mr. Bishop. I guess ``contradiction'' was the wrong term to 
use, but they do not replicate the numbers----
    Dr. Wenrich. They could not replicate it, so either 
somebody magically cleaned up Horn Creek, or we just cannot 
replicate it.
    Dr. Kreamer. May I clarify? There is a reason for that, 
actually.
    Mr. Bishop. If you can do it in 13 seconds.
    Dr. Kreamer. I can do it in 13 seconds. The higher the 
flow, the higher the concentration generally, from what we have 
found, as far as the concentrations go, so it was variable 
according to flow.
    Mr. Bishop. I have 20 seconds left on my time. Dr. Wenrich, 
is there anything else that you have not been able to cover?
    Dr. Wenrich. Yes. I am concerned, more than anything else, 
about the total misrepresentation that we see so often here, 
such as Mr. Hedden's reference to this massive spill down Kanab 
Creek. As it turns out, the reports that were submitted to the 
Arizona department were the fact that the mine had some rocks 
that were carried downstream by a flash flood. The mine 
geologist went down and picked them up with two wheelbarrows, 
so that is his massive mine spill. So it is a 
misrepresentation. There were only two wheelbarrows full of 
ore, and it was just simply rock, no tailings.
    Mr. Bishop. But we, in Utah, look at all rocks as being 
massive. I apologize for that.
    Mr. Chairman, I am running out of time here, and I 
apologize. I have another meeting, so I apologize if I walk out 
in the middle of this. It is meant as no disrespect either to 
you or to the witnesses who have traveled a great deal to be 
here. Thank you for all of your time and effort to be here.
    Mr. Grijalva. Thank you, Mr. Bishop. Mr. Heinrich, any 
questions?
    Mr. Heinrich. You know, actually, I believe Ms. Shea-Porter 
needs to get back to a markup, and so I would be happy to defer 
to her first and then come back to my questions.
    Mr. Grijalva. Thank you. Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you very much, Congressman. You 
know, I, too, have a markup in another place, so I have been 
reading the testimony, and I would use the word ``confusing,'' 
but what I get from some of the witnesses is that, somehow or 
another, the Earth just magically contaminates itself, the 
water just magically gets contaminated, and that human beings 
do not have any role to play.
    So I just wanted to ask a couple of questions based on the 
first testimony that we heard from Supervisor, and I apologize 
if I mispronounce your name--is it Archuleta? Did I get that 
close? She wrote that her county ``has witnessed the 
contamination of creeks and aquifers providing public drinking 
water.''
    I would just like each one to say if they think that that 
is an accurate statement, that the county has witnessed the 
contamination of creeks and aquifers providing public drinking 
water.
    Dr. Wenrich. Well, I would say we do not have any published 
data on that, peer-reviewed published data. There is nothing.
    Ms. Shea-Porter. You know nothing about that.
    Dr. Wenrich. No.
    Ms. Shea-Porter. Anybody else want to say yes or no?
    Ms. Vail. I would just say that, as a constituent of that 
board, I would support the Coconino County Board of 
Supervisors.
    Ms. Shea-Porter. OK.
    Mr. Hedden. Yes. We have heard conflicting testimony about 
that today.
    Dr. Kreamer. The studies that we did have been peer 
reviewed, including by the U.S. Geological Survey and published 
in the University of Arizona Press. The numbers are consistent 
with a USGS study that followed later, and those contamination 
levels go above the MCLs occasionally. So, yes, we have found 
contamination.
    Mr. Trautwein. I am afraid the question is beyond my 
expertise, as a former staffer who just listened to other 
people who knew what they were talking about.
    Ms. Shea-Porter. So let me go back to the first statement. 
Everybody else believes it, believes they have seen data to 
back it up, and you are saying, as a research geologist, no, 
you have not seen it, and you do not have any data to prove it.
    Dr. Wenrich. I have data here that show that there is no 
contamination in the water of the Grand Canyon area. The only 
thing we have is one analysis that we have heard about from 
Horn Creek that was not replicated by the U.S. Geological 
Survey. People are speculating. We have data from the North Rim 
that, in fact, was very low, much lower than the EPA safe 
drinking level.
    I want to point out also that, even though the EPA safe 
drinking level is 30 micrograms per liter, streams across the 
country are being used all of the time, including the South 
Platte River at Julesburg, which has 70 parts per billion. Even 
70 parts per billion is nothing that is threatening to anybody.
    Ms. Shea-Porter. OK. My second question. I think the reason 
I am asking it in such a simple manner is because the public 
who watches this and will see this on television is saying, 
``Well, do you have the science, or don't you?'' Let us, at 
least, agree that there is something out there.
    Then I heard the native tribes say that they have had 
medical problems and, surely, we must have some data about 
that. So can I ask each one of you, are you aware of data, and 
does it indicate that there have been health problems, that 
they have that contaminated water? And I will start with you.
    Dr. Wenrich. I would suggest that you take a look at the 
New Mexico Cancer Research Institute out of Albuquerque. We 
have data there that show that the counties that have not had 
mining or any mining actually have a higher cancer incidence 
rate with the Native Americans than the counties that did have 
uranium mining.
    Ms. Shea-Porter. So would you draw the conclusion, based on 
what you just told me, that if you have mining, you will 
probably be healthier?
    Dr. Wenrich. I guess that is what that says, if you want to 
draw that kind of conclusion, but I think the point is that it 
is close enough that you certainly cannot say that people who 
have done the uranium mining or lived around it have higher 
cancer rates.
    We do know, though, and I will add this, that people who 
smoke are very vulnerable to cancer from uranium mining.
    Ms. Shea-Porter. But based on what you have told me, to 
begin with, that if you have mining in the area, your data 
indicate that people would be healthier. Is that----
    Dr. Wenrich. That is what we have seen, and we are kind of 
half-thinking that part of the reason for that is that they 
received more money and had better medical coverage.
    Ms. Shea-Porter. But would money and medical coverage take 
care of a problem----
    Dr. Wenrich. If you can get medical treatment, a lot of 
times you can avert dying from the cancer.
    Ms. Shea-Porter. The cancer that is caused by the uranium?
    Dr. Wenrich. We did not say it was caused by uranium; just 
cancer in general.
    Ms. Shea-Porter. I am just asking the questions.
    Dr. Wenrich. Yes.
    Ms. Shea-Porter. I am thinking, what would a constituent of 
mine wonder, hearing this kind of conversation here?
    Dr. Wenrich. The Cancer Research Institute in Albuquerque 
has the data, and we have tabulated it, and those are the 
results that have been shown.
    Ms. Shea-Porter. OK. Can somebody else get in on this as 
well, the answer to the question, have native populations been 
harmed, and do you have other data to indicate yes or no?
    Dr. Kreamer. Congresswoman, I am not a medical doctor, but 
I understand that uranium accumulates in the kidney, and it 
builds up over time.
    Some of the data--groundwater springs that come out of the 
Grand Canyon--are over 50 years' old, according to the 
groundwater-dating methods that several of the USGS and others 
have done. Therefore, it is a long-term effect and a time bomb. 
Disruption, and uranium release would take a long time to 
manifest at the springs and then take a long time, then, to 
build up in people's systems. So I am unaware of any data, at 
this time, but the potential is a long-term one, both with the 
groundwater system and in the human body, is my understanding.
    Dr. Wenrich. Also, I might point out, I remember what we 
were just saying, that uranium mining in the eighties and 
nineties was done very differently than what we are referring 
to even----
    Ms. Shea-Porter. I am so glad that you brought that up 
because that is what actually you get to, and thank you for 
your comments about it.
    I think that even though we do not have experts watching TV 
wondering what we are talking about, they certainly know that 
they are supposed to stay away from uranium. They understand 
that.
    So what I wanted to ask you is, I am very certain, if I had 
sat here in the eighties, and certain people had testified 
before this Committee, they would have said that the methods 
they were using at the time were appropriate. I will go right 
back to the 1950's, where scientists, and there was an article 
in Reader's Digest, at the time, telling the people of St. 
George, Utah, that they did not have to worry about exposure 
that collected in the bones.
    So the point that I am making is that we hear from certain 
people, and certainly yourself, that it was bad before, but it 
is good now. We have it down, it is safe, and there is nothing 
to worry about. The next generation will come along and say, 
``Well, that was 20 years ago. We are sorry about that, but we 
had it wrong, but now we know how to do it.'' How can we know, 
sitting here, that you are right?
    Dr. Wenrich. Well, I would say that, in the 1950's, we 
already knew by the 1970's that we had trouble 20 years ago, 
but we are sitting here looking back 20 years now, into the 
1980's, and we do not have any problems from the mining that 
was done then.
    Ms. Shea-Porter. Well, I think that we actually have some 
testimony that there might be problems, but the point that I am 
making----
    Dr. Wenrich. Not from the eighties and nineties.
    Ms. Shea-Porter.--is it seems to me that the level of 
confidence that you are expressing your data versus everybody 
else's data is troubling because when we are dealing with 
something that we really do not know everything about, that we 
do not understand fully long term; we know we have seen enough 
people ill, and we certainly saw that happened to the people of 
Utah and to the people in other areas that have been exposed, 
but I do not think we should be so certain that we are not 
going to do any harm.
    I think we need to move very slowly and cautiously and 
carefully and consider that we do not know everything. They 
talk about having that fourth parachute on the airplane and, to 
me, this is what we are talking about, making sure that, in 
spite of our best beliefs that we are not doing any harm, just 
in case.
    So I do support this legislation, and I appreciate the fact 
that people are here talking about this because I do not want 
another generation sitting here saying, ``Well, that was 2009. 
We did not know then.''
    So what we are trying to do here is to make sure that we do 
not have to go back and apologize to this generation and to the 
people who live in this area, and I yield back. Thank you.
    Mr. Grijalva. Thank you. Mr. Heinrich.
    Mr. Heinrich. Thank you, Chairman.
    I want to start by saying I do not think there is any 
general question, even among the medical community in New 
Mexico, that there have been impacts from former activity. 
Whether those apply to today's methods is another issue 
entirely, but if you go to communities like Pojoaque or Laguna 
Pueblo, or you talk to people in the Navajo community who have 
worked in those mines, there were some very, very serious, real 
health impacts.
    I am a little confused, Dr. Wenrich, by a statement that 
you did not quite get to because you ran short during your 
testimony because I just do not quite understand it. You wrote, 
number five, on page 10 of your testimony: ``To use the sins of 
a 60-year-old uranium mining legacy to punish mining in a 
different district which has clearly demonstrated safe, clean 
mining practices is like the past punishing of the Navajo Tribe 
by moving them eastward to Texas because of the sins of a few 
renegade Apaches.'' What exactly did you mean by that 
statement?
    Dr. Wenrich. What I mean is that we keep hearing repeated 
information about the mining on the Navajo Reservation in the 
fifties and the forties, and that is not relevant to the 
breccia pipe mining. As you remember, Mr. Bishop's question to 
everybody was, was there any evidence for anything that was bad 
in the 1980's and 1990's, and there is not, and we need to 
concentrate on the data from the 1980's and 1990's mining, 
specifically, in the breccia pipes--we have examples of it--
rather than looking back at the old uranium.
    Mr. Heinrich. And maybe I am just missing a piece of 
history. How is that analogous to the Navajo and Apache Tribes?
    Dr. Wenrich. Because the mining in the eighties and 
nineties in the breccia pipe is being punished for the sins of 
what was done in the forties and fifties during the military 
race for supremacy.
    Mr. Heinrich. OK. Moving on, Professor Kreamer, I wanted 
ask you about a statement you made about perched aquifers and, 
specifically, I am wondering what the legal ramifications are 
of potential hydrological changes that you see occurring there.
    If I have land in the Rio Grande Valley, and I decide, 
despite the fact that I do not have water rights permits, that 
I am going to open the floodgates and flood irrigate my fields, 
I would probably need an armed guard to protect me for the rest 
of the growing season.
    If there is one of these pipes, as a result of mining it, 
this allows an aquifer to drain and, therefore, you no longer 
have an active spring someplace in the park or even outside the 
park, what is the legal ramification of that?
    Dr. Kreamer. I am not a lawyer. I do know that there would 
be impacts to the ecosystem. Some of these springs and seeps 
are very, very small. It would not take much diminishment of 
the perch aquifer to impact those springs and the habitat and 
wildlife that inhabit them. These springs are about a quarter 
of the way down the Grand Canyon and not in the Redwall-Muav. 
The uranium mining actually would pierce the underlying aquifer 
of the Hermit Shale, and flow would go down.
    The Orphan Uranium Mine had spontaneous springs begin after 
they began mining that were below this level that were opened 
up, and there was drainage downward, according to people who 
worked the mine in the fifties.
    So I think there is a potential, but I am not a lawyer. I 
do not know what all of the legal implications would be. I just 
know that there would be impacts to not only water quantity, 
and probably water quality as well, but species depend upon 
those springs.
    Mr. Heinrich. Mr. Hedden, I wanted to ask you a question as 
well. We heard a lot about the unusualness of the Secretary of 
the Interior's recent decision regarding segregation and a 
process looking forward in an EIS for the areas. Has that been 
used by previous Secretaries of the Interior?
    Mr. Hedden. Yes. It has been used three times before, and 
it is a provision of FLPMA that the House Resources Committee 
used last year to instruct the Secretary to do that with----
    Mr. Heinrich. Correct me if I am wrong, but did not 
Secretary Norton also utilize the exact same process regarding 
the Dolores and the Green and maybe the Colorado Rivers just a 
few years ago?
    Mr. Hedden. Secretary Norton withdrew 200 miles of the 
Dolores, Colorado River, and Green, and a number of side 
tributaries, not in response to a directive from the Resources 
Committee, but she did do that, the withdrawal using her 
Secretarial authority.
    Mr. Heinrich. With a two-year segregation followed by an 
EIS estimate.
    Mr. Hedden. She did a 20-year withdrawal.
    Mr. Heinrich. OK. Thank you very much. Mr. Chair?
    Mr. Grijalva. Thank you. Just a couple of quick follow-ups.
    Professor Kreamer, can you respond to the comments that 
uranium mining of the eighties and nineties was paying for the 
sins of the mining of the fifties, sixties, and seventies? That 
is a clean tablet now, from that point forward, and I am 
curious about your response to that.
    Dr. Kreamer. Well, first of all, I think it is important to 
recognize that we do not fully understand the system. There are 
very few in this 100-by-100-square-mile area. We have very few 
wells and, typically, for a site characterization for a 
possibly contaminated site, you have several monitoring wells 
that measure water quantity, quality over a period of time. The 
flow in these systems takes a long time to get out to the 
springs very often, and so, therefore, the impacts of mining in 
the eighties and nineties might not be recognized for decades.
    So, therefore, without adequate monitoring of these 
systems, without a long-term effort to monitor the springs, I 
think it is a bold claim to say that there are no impacts of 
the eighties and nineties mining in breccia pipes.
    Mr. Grijalva. Thank you. Mr. Hedden, it was stated that you 
misrepresented the Kanab spill. Would you like to clarify that 
for the record?
    Mr. Hedden. It was reported at the time that four tons of 
ore were washed down Kanab Creek and into the Grand Canyon, and 
I repeated that. I believe the word ``massive'' was Dr. 
Wenrich's word, not mine.
    Mr. Grijalva. Ms. Vail, I have three or four questions 
dealing with social impacts of mining activity, economic-impact 
issues. I will be submitting those to you for a written 
response, and thank you very much for being here.
    It has been a good hearing, and the reason is that the 
backdrop of the Secretary's action to segregate this acreage 
afforded us an opportunity now to talk about permanency down 
the road, but some of what we heard today was have-your-cake-
and-eat-it-too kind of discussion, that by segregating and 
setting up a two-year period of time, all of the questions that 
were sent to the Secretary about the effects of uranium mining, 
how much is it going to cost, what are the environmental 
impacts, on and on and on, well, now time is afforded to us to 
be able to answer those questions that have been sent to the 
Secretary and to the Administration.
    Number two, the issue of jobs, and how do you balance 
people's health, the Grand Canyon and its environment and its 
watershed, and the dependency so many communities have on that? 
How do you balance that with the potential of 2,000 jobs and 
the economic loss to surrounding communities?
    When this issue first came up, it was about waiving the 
categorical exclusion and waiving the NEPA process, which 
afforded no one the opportunity to have input into a decision 
on claims and initial exploration. Now, we are afforded the 
opportunity to fully study, and I would assume that all of the 
panelists, and particularly the scientists on the panel, would 
agree that science and fact should be a great determiner in how 
we protect these lands, and I would hope we can agree on that.
    The Grand Canyon, to me, and not just from Arizona, is one 
of the shared treasures of this country. To the people that 
live in and around the Grand Canyon, it is their life and, to 
the rest of us, it is a symbol that we each can translate in 
our own way about what it means to be an American and what it 
means to be part of this great landscape in the West, and so it 
needs to be protected.
    We are not talking about some isolated BLM land where 
drilling and mining extraction is going on. We are talking, 
ladies and gentlemen, about the Grand Canyon, and the 
consternation. That we are going to kill nuclear power--the 
aspersions that are being used about this legislation are 
false. The intent of this legislation, from the onset, and it 
continues to be its intent, is to protect and preserve the 
Grand Canyon for future generations.
    That intent has not changed, and will not change, and as 
this legislation moves forward, and more and more people--
initially, that poll in Arizona, I thought, was very telling--
64 percent of the people said it should be withdrawn--as it 
moves forward, and it needs to move forward, we will continue 
to make the case, not only on the health, the environment, the 
watershed, the people, but we are going to make the case very 
strongly that this is one of the treasures that needs to be 
protected.
    This is not about yes on mining, no on mining; this is 
about yes on the Grand Canyon, and you either want to protect 
the Grand Canyon, or you do not, and that is the way we are 
going to pose the question to our colleagues, and that is the 
way we are going to pose it to the senators, and as we move 
forward, we expect to hear from you often, and thank you very 
much. It has been a good hearing. The meeting is adjourned.
    [Whereupon, at 12:25 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
